1a
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
Filed November 26, 2019
No. 17-16360
Makekau, et al.,
Appellants
v.
Hawaii, et al.
Appellees.
MEMORANDUM OPINION
Before: Susan P. Graber, Milan D. Smith, Jr., and
Paul J. Watford, Circuit Judges.
Opinion by Judge Graber; Concurrence by Judge
Milan D. Smith, Jr.
GRABER, Circuit Judge:
We must decide whether a plaintiff who
obtains a preliminary injunction under the All Writs
Act, 28 U.S.C. § 1651(a), qualifies as a “prevailing
party” for fee-shifting purposes by virtue of that
injunction, where the order granting injunctive relief
makes no mention of the merits of the plaintiff's
claims. We hold that the answer is “no.”
BACKGROUND
In 2011, the Hawaii legislature enacted

2a
measures designed “to provide for and to implement
the recognition of the Native Hawaiian people by
means and methods” that would help Native
Hawaiians move toward “self-governance.” Haw. Rev.
Stat. § 10H-2. Those measures included establishing
a commission to maintain and publish “a roll of
qualified Native Hawaiians,” thereby “facilitat[ing]
the process under which qualified Native Hawaiians
may independently commence the organization of a
convention of qualified Native Hawaiians, established
for the purpose of organizing themselves.” Id. §§ 10H3(a)(1), 10H-5.
Defendant Na’i Aupuni, a private nonprofit
entity, supported self-governance efforts. Akina v.
Hawaii, 835 F.3d 1003, 1008 (9th Cir. 2016) (per
curiam) (“Akina I”). In 2015, Na’i Aupuni sought and
received grant funding from Defendant Office of
Hawaiian Affairs (“OHA”), a state agency, to use for
three events: a delegate election, a constitutional
convention of the elected delegates, and a referendum
to ratify any governing documents produced at the
convention. Id. Na’i Aupuni scheduled a vote-by-mail
delegate election to run during November 2015. Id.
Na’i Aupuni restricted the pools of delegates and
voters to people who appeared on the commission’s
roll of qualified Native Hawaiians and who also
affirmed “the unrelinquished sovereignty of the
Native Hawaiian people.”
In August 2015, Plaintiffs—five registered
Hawaii voters—sued the State of Hawaii, OHA, other
state agencies and officials, Na’i Aupuni, and another
private nonprofit that participated in the election
efforts. Id. Plaintiffs alleged that Na’i Aupuni and the

3a
other nonprofit entity became state actors by
conducting the elections and that the State’s
involvement in the self-governance process violated
the Fourteenth and Fifteenth Amendments and the
Voting Rights Act of 1965 because of the race-based
restrictions on eligibility. Plaintiffs moved for a
preliminary injunction to prevent Defendants “from
undertaking certain voter registration activities
and from calling or holding racially-exclusive
elections for Native Hawaiians.”
The district court denied Plaintiffs’ motion in
October 2015. Voting for the delegate election began
on November 1. On November 19, we denied
Plaintiffs’ urgent motion for an injunction pending
appeal. Four days later, Plaintiffs, relying on the All
Writs Act, filed an emergency application for an
injunction pending appeal in the Supreme Court. On
November 27, Justice Kennedy enjoined ballotcounting in the delegate election.
After Justice Kennedy’s order issued, Na’i
Aupuni extended the voting deadline to December 21,
2015. Plaintiffs notified the Supreme Court of the
extension. On December 2, the Supreme Court
granted Plaintiffs’ emergency application. In full, the
order stated:
Application for injunction pending
appellate review presented to Justice
Kennedy and by him referred to the Court
granted. Respondents are enjoined from
counting ballots cast in, and certifying
winners of, the election described in the
application, pending final disposition of

4a
the appeal by the United States Court of
Appeals for the Ninth Circuit.
Justice Ginsburg, Justice Breyer, Justice
Sotomayor, and Justice Kagan would deny
the application.
Akina v. Hawaii, 136 S. Ct. 581, 581, 193 L. Ed. 2d
464 (2015) (Mem.) (“injunction order”).
In mid-December, Na’i Aupuni announced that
it had “terminated” the delegate election and would
not count the votes, but would continue the selfgovernance process by inviting all delegates to the
constitutional convention planned for February 2016.
Plaintiffs filed a motion for civil contempt, arguing
that Defendants had violated the Supreme Court’s
injunction order by certifying all delegates as winners
of the election. The Supreme Court summarily denied
that motion. Akina v. Hawaii, 136 S. Ct. 922, 193 L.
Ed. 2d 786 (2016) (Mem.).
The convention took place in February 2016
and produced a proposed constitution. Akina I, 835
F.3d at 1009. But Na’i Aupuni decided not to hold a
ratification vote. Na’i Aupuni returned OHA’s
remaining grant funds, which had been allocated to
cover the cost of a ratification vote. Na’i Aupuni
dissolved as an entity in April 2016.
Several months later, we dismissed as moot
Plaintiffs’ appeal of the district court’s denial of their
preliminary injunction. Id. at 1011. The district court
then granted Plaintiffs’ motion to dismiss their
complaint voluntarily and without prejudice under
Federal Rule of Civil Procedure 41(a)(2). Plaintiffs

5a
subsequently sought attorney fees under 42 U.S.C. §
1988, arguing that they were the “prevailing party”
because they obtained an injunction from the
Supreme Court that caused Defendants to cancel the
challenged election and referendum. The district
court denied Plaintiffs’ motion, holding that Plaintiffs
were not a “prevailing party” within the meaning of
the statute.
DISCUSSION
We review de novo a district court’s denial of
attorney fees where, as here, the denial “turns on an
issue of statutory construction—the meaning of
‘prevailing party.’” Higher Taste, Inc. v. City of
Tacoma, 717 F.3d 712, 715 (9th Cir. 2013). To qualify
as a “prevailing party” under a fee-shifting statute, a
plaintiff must obtain “actual relief on the merits” that
“materially alters the legal relationship between the
parties by modifying the defendant’s behavior in a
way that directly benefits the plaintiff.” Id. (quoting
Farrar v. Hobby, 506 U.S. 103, 111-12, 113 S. Ct. 566,
121 L. Ed. 2d 494 (1992)). Relief “on the merits”
requires some form of “judicial imprimatur on the
change.” Id. (quoting Buckhannon Bd. & Care Home,
Inc. v. W. Va. Dep’t of Health & Human Res., 532 U.S.
598, 605, 121 S. Ct. 1835, 149 L. Ed. 2d 855 (2001)).
Accordingly, two questions drive the analysis
in determining whether a plaintiff “who wins a
preliminary injunction but does not litigate the case
to final judgment” is a prevailing party: (1) whether
the preliminary injunction was “sufficiently ‘on the
merits’ to satisfy Buckhannon’s ‘judicial imprimatur’
requirement”; and (2) whether the plaintiff “obtained

6a
relief sufficiently enduring” to cause a material
alteration of the parties’ legal relationship. Id. at 71516. Because we conclude that the injunction order did
not address the merits of Plaintiffs’ claims, we answer
only the first question.
Under the All Writs Act, a court may issue an
injunction only where it is “necessary or appropriate
in aid” of the court’s jurisdiction, 28 U.S.C. § 1651(a),
and “the legal rights at issue are indisputably clear,”
Hobby Lobby Stores, Inc. v. Sebelius, 568 U.S. 1401,
1403, 133 S. Ct. 641, 184 L. Ed. 2d 448 (2012)
(Sotomayor, J., in chambers) (internal quotation
marks omitted). Plaintiffs contend that the Supreme
Court always must consider the merits when deciding
whether to issue an injunction under the All Writs
Act, whether the Court grants or denies relief. Not so.
In several prior cases, the Supreme Court has
expressly disavowed any view of the merits when
addressing a party’s request for an All Writs Act
injunction. See, e.g., Wheaton College v. Burwell, 573
U.S. 958, 134 S. Ct. 2806, 2807, 189 L. Ed. 2d 856
(2014) (granting relief and stating that “this order
should not be construed as an expression of the
Court’s views on the merits”); Little Sisters of the Poor
Home for the Aged v. Sebelius, 571 U.S. 1171, 134 S.
Ct. 1022, 1022, 187 L. Ed. 2d 867 (2014) (Mem.)
(same); Hobby Lobby, 568 U.S. at 1403 (denying relief
and stating: “First, whatever the ultimate merits of the
applicants’ claims, their entitlement to relief is not
‘indisputably clear.’” (emphasis added)).
At oral argument, Plaintiffs relied on Dunn v.
McNabb, 138 S. Ct. 369, 199 L. Ed. 2d 274 (2017)
(Mem.), for the proposition that the All Writs Act

7a
requires a court to consider the merits before granting
relief. There, the Supreme Court held that the All
Writs Act “does not excuse a court from making
[certain] findings” before enjoining an inmate’s
execution, because “[i]nmates seeking time to
challenge the manner in which the State plans to
execute them must satisfy all of the requirements for
a stay, including a showing of a significant possibility
of success on the merits.” Id. at 369 (internal
quotation marks omitted). Read in context, Dunn
stands only for the unremarkable proposition that the
All Writs Act does not erase separate legal
requirements for a given type of claim.
Inmates seeking a stay of execution always
must show “a significant possibility of success on the
merits.” Hill v. McDonough, 547 U.S. 573, 584, 126 S.
Ct. 2096, 165 L. Ed. 2d 44 (2006). But that
requirement of a merits showing has nothing to do
with the All Writs Act; it applies no matter the vehicle
for an inmate’s claim. See, e.g., id. (addressing a 42
U.S.C. § 1983 claim for a stay of execution and stating
that the inmate “must satisfy all of the requirements
for a stay, including a showing of a significant
possibility of success on the merits”); Barefoot v.
Estelle, 463 U.S. 880, 895, 103 S. Ct. 3383, 77 L. Ed.
2d 1090 (1983) (stating that, to obtain a stay of
execution, a habeas petitioner needed to show both “a
reasonable probability that four members of the Court
would consider the underlying issue sufficiently
meritorious for the grant of certiorari” and “a
significant possibility of reversal of the lower court’s
decision”). This case does not involve an inmate
seeking a stay of execution (or any party seeking a
stay of anything), so Dunn cannot bear the weight

8a
that Plaintiffs ask it to carry.
Moreover, in “appropriate circumstances,” a
court may direct an order under the All Writs Act “to
persons who, though not parties to the original action
or engaged in wrongdoing, are in a position to
frustrate the implementation of a court order or the
proper administration of justice.” United States v.
N.Y. Tel. Co., 434 U.S. 159, 174, 98 S. Ct. 364, 54 L.
Ed. 2d 376 (1977). Plainly, an order directed to a
nonparty who engaged in no wrongdoing would stem
from considerations separate from the merits of a
case.
Thus, contrary to Plaintiffs’ view, the mere fact
that the injunction order issued under the All Writs
Act does not prove that the Supreme Court found
Plaintiffs’ claims to be even potentially meritorious.
There is simply no indication that the injunction
order addressed the merits. Aside from the brevity of
the order, the Supreme Court later denied Plaintiffs’
contempt motion in a one-sentence order, which
strongly suggests that the injunction order was not on
the merits. And Plaintiffs sought (and received) a
voluntary dismissal without prejudice in the district
court—"the opposite” of an adjudication on the merits.
See Semtek Int’l Inc. v. Lockheed Martin Corp., 531
U.S. 497, 505, 121 S. Ct. 1021, 149 L. Ed. 2d 32 (2001)
(stating that Rule 41(a), “in discussing the effect of
voluntary dismissal by the plaintiff, makes clear that
an ‘adjudication upon the merits’ is the opposite of a
‘dismissal without prejudice’”). In short, Plaintiffs are
not prevailing parties.
AFFIRMED.

9a
M. SMITH, Circuit Judge, concurring in the result:
I write separately to express my view that the
key legal issues in this case are close to equipoise. I
differ from the majority because I find that the “on the
merits” analysis only narrowly disfavors Appellants.
I would find that the “sufficiently enduring relief”
analysis favors Appellants.
I briefly recount the most essential facts.
Appellants, five registered Hawaii voters, sued the
State of Hawaii, various state officers including the
trustees and director of the Office of Hawaiian Affairs
(OHA), and the nonprofit entities Na’i Aupuni and the
Akamai Foundation, on constitutional and statutory
grounds alleging race-and viewpoint-based voting
discrimination. The Akina lawsuit challenged efforts
by Na’i Aupuni—using grant funds awarded by, and
a voter roll of “qualified Native Hawaiians”
maintained by, OHA—to hold a delegate election, a
convention, and a ratification election for purposes of
Native Hawaiian self-governance.
Appellants
unsuccessfully
sought
a
preliminary injunction from the district court, and
then an injunction pending interlocutory appeal from
our court, which denied the injunctions under Winter
v. NRDC, 555 U.S. 7, 129 S. Ct. 365, 172 L. Ed. 2d 249
(2008), 1 primarily for failure to show likelihood of
proving that Na’i Aupuni was a state actor. Akina v.

considers (1) the plaintiff’s likelihood of
prevailing on the merits, (2) whether the plaintiff will suffer
irreparable harm, (3) the balance of equities amongst the
parties, and (4) the public interest. 555 U.S. at 20-22.
1 Winter

10a
Hawaii, 141 F. Supp. 3d 1106, 1125-35 (D. Haw.
2015); Akina v. Hawaii, 835 F.3d 1003, 1009 (9th Cir.
2016). As a result, voting in the delegate election
began as scheduled.
Plaintiffs then applied to Justice Kennedy for
an emergency interlocutory injunction. With a few
days of voting remaining, Justice Kennedy enjoined
ballot counting and certification of winners pending
further order of the Court, offering no explanation for
his reasoning. Id. Na’i Aupuni publicly announced the
injunction and officially extended the voting deadline.
On referral, a divided Supreme Court re-entered the
same injunction pending resolution of the appeal to
our court, again offering no explanation. Akina v.
Hawaii, 136 S. Ct. 581, 193 L. Ed. 2d 464 (2015)
(mem.). Shortly thereafter, Na’i Aupuni cancelled the
delegate election with several days of voting
remaining, declared that the ballots would not be
counted, and invited all of the delegate candidates to
a convention. Appellants filed a motion for civil
contempt with the Supreme Court, arguing that Na’i
Aupuni's invitation was tantamount to certifying all
of the candidates as winners. The Court summarily
denied the motion. Akina v. Hawaii, 136 S. Ct. 922,
193 L. Ed. 2d 786 (2016) (mem.). Na’i Aupuni held the
convention and the participants produced a
document.
Na’i Aupuni then initiated efforts to hold a
ratification election, again using the disputed voter
roll. Appellants submitted briefing to our court citing
the upcoming ratification election as evidence that
the appeal was not moot. Before we issued any
decision, Na’i Aupuni canceled the ratification

11a
election, and thereafter dissolved as an entity. This
court dismissed the appeal as moot. Akina, 835 F.3d
at 1010-11.
Appellants
voluntarily
dismissed
their
complaint without prejudice and moved for attorney’s
fees as the “prevailing party” in a civil rights lawsuit.
The district court denied the motion, concluding that
the writ Appellants obtained was merely a status quo
injunction driven by considerations regarding
irreparable harm, and that it was not based on—as
required for prevailing party status—the merits of
Appellants’ claims. This appeal followed.
I. On the Merits
In certain civil rights actions, “the court, in its
discretion, may allow the prevailing party . . . a
reasonable attorney’s fee as part of the costs.” 42
U.S.C. § 1988. To determine whether a preliminary
injunction without a final judgment entitles a
plaintiff to prevailing party status, we ask two
questions: “First, is the court’s preliminary injunction
ruling sufficiently ‘on the merits’ to satisfy
Buckhannon’s ‘judicial imprimatur’ requirement?
And second, has the plaintiff obtained relief
sufficiently enduring to satisfy the 'material
alteration of the parties’ legal relationship’
requirement?” Higher Taste, Inc. v. City of Tacoma,
717 F.3d 712, 716 (9th Cir. 2013) (quoting
Buckhannon Bd. & Care Home, Inc. v. W. Va. Dep’t of
Health & Human Res., 532 U.S. 598, 605, 121 S. Ct.
1835, 149 L. Ed. 2d 855 (2001)).

12a
I begin with the first question. “Judicial
imprimatur” can take the form of “an enforceable
judgment on the merits,” “a court-ordered
consent decree,” or “[o]ther court-approved actions . .
., provided they entail a judicial determination that
the claims on which the plaintiff obtains relief are
potentially meritorious.” Id. at 715 (emphasis added);
see also Jensen v. City of San Jose, 806 F.2d 899, 900
(9th Cir. 1986) (“[T]he benefit a party achieves must
come from success on the merits of a civil rights claim,
not from success on procedural or collateral issues.”).
The judicial determinations on which
Appellants stake their claim for attorney’s fees are
the injunctions entered by Justice Kennedy and
subsequently by the full Supreme Court pursuant to
the All Writs Act, 28 U.S.C. § 1651(a). Appellants’
claim narrowly fails because there is a reasonable
argument that those injunctions did not involve a
judicial determination that Appellants’ claims were
"potentially meritorious.” Higher Taste, 717 F.3d at
715. Fundamentally, it is unresolved whether such
writs require an assessment of the merits.
A. Writs of Interlocutory Injunction
The All Writs Act authorizes federal courts to
“issue all writs necessary or appropriate in aid of their
respective jurisdictions and agreeable to the usages
and principles of law.” 28 U.S.C. § 1651(a). 2 Relevant
2 This

authorization survives nearly unchanged from the
Judiciary Act of 1789. See Act of Sept. 24, 1789, ch. 20, § 14, 1
Stat. 73, 81-82. For greater historical detail pertaining to the
discussion that follows, through note 4, see Samuel I. Ferenc,

13a
to this case is the § 1651(a) writ for an interlocutory
injunction.
The first Supreme Court precedent recognizing
the power of the federal courts to issue § 1651(a) writs
“in the form of compulsory injunctions aimed at
private parties” seems to have been FTC v. Dean
Foods Co., 384 U.S. 597, 605, 86 S. Ct. 1738, 16 L. Ed.
2d 802 & n.3 (1966) (upholding writ enjoining
consummation of merger pending final review by
FTC). The Court justified an appellate court’s writ in
that case based on a threat to the court’s jurisdiction,
and notably did not discuss the underlying merits or
any other factor typically relevant to preliminary
injunctions. See id. at 605. 3
By contrast, in Sampson v. Murray, 415 U.S.
61, 94 S. Ct. 937, 39 L. Ed. 2d 166 (1974), the Court
readily assumed that the four preliminary injunction
factors apply to status quo injunctions granted under
the All Writs Act, and held that a heightened version
of those factors should have applied in the context at
Note, Clear Rights and Worthy Claimants: Judicial Intervention
in Administrative Action Under the All Writs Act, 118 Colum. L.
Rev. 127, 136-62 (2018).
3 This

omission cannot be explained away as simply predating the Court’s 2008 articulation of the four factors in Winter.
As early as Ex Parte Young, the Court recognized that “no
[preliminary] injunction ought to be granted unless in a case
reasonably free from doubt,” and acknowledged that the
injunction at hand was justified by “great and irreparable
injury” to the complainants. 209 U.S. 123, 166-67, 28 S. Ct. 441,
52 L. Ed. 714 (1908). See generally Thomas R. Lee, Preliminary
Injunctions and the Status Quo, 58 Wash. & Lee L. Rev. 109
(2001).

14a
hand. See id. at 83-84 & n.53 (recognizing the law
governing available relief in the federal employment
dispute context). However, the Court specifically held
that frustration of the court’s jurisdiction was not at
stake as it was in Dean Foods. Id. at 78-80. Murray
did not clarify whether an injunction that is justified
by jurisdictional threats might also need to satisfy the
traditional injunction factors, if not the heightened
version the Court ultimately applied in that case. 4
Around the same time as Murray, the Justices
of the Supreme Court began developing a terse body
of case law applying a unique “indisputably clear”
standard to § 1651(a) interlocutory injunction
applications addressed to individual Justices. See
Communist Party of Ind. v. Whitcomb, 409 U.S. 1235,
1235, 93 S. Ct. 16, 34 L. Ed. 2d 40 (1972) (Rehnquist,
J., in chambers) (“the applicants’ right to relief must
be indisputably clear”) (citing no authority). Justice

4 Different

circuits have supplied different answers to
this question at different times. See, e.g., United States v. BNS
Inc., 848 F.2d 945, 947 (9th Cir. 1988) (requiring both
jurisdictional threat and irreparable harm); Wagner v. Taylor,
836 F.2d 566, 571, 575-76, 266 U.S. App. D.C. 402 (D.C. Cir.
1987) (requiring both jurisdictional threat and all four
preliminary injunction factors); V.N.A. of Greater Tift County
Inc. v. Heckler, 711 F.2d 1020, 1030 (11th Cir. 1983) (requiring
both jurisdictional threat and a heightened showing on all four
preliminary injunction factors); Klay v. United Healthgroup, 376
F.3d 1092, 1100, 1101-02 n.13 (11th Cir. 2004) (asserting that
jurisdictionally justified writs require no analysis of the
preliminary injunction factors, unless the writ is “in reality” a
preliminary injunction), called into doubt by Alabama v. U.S.
Army Corps of Engineers, 424 F.3d 1117, 1131 n.20 (11th Cir.
2005).

15a
Scalia placed this standard in the context of other
authority in Ohio Citizens for Responsible Energy,
Inc. v. Nuclear Regulatory Commission, 479 U.S.
1312, 107 S. Ct. 682, 93 L. Ed. 2d 692 (1986) (Scalia,
J., in chambers):
A Circuit Justice’s issuance of [a § 1651(a)
writ of injunction]—which, unlike a . . .
stay, does not simply suspend judicial
alteration of the status quo but grants
judicial intervention that has been
withheld by lower courts—demands a
significantly higher justification than that
described in the . . . stay cases cited by the
applicant. The Circuit Justice’s injunctive
power is to be used “sparingly and only in
the
most
critical
and
exigent
circumstances,” and only where the legal
rights at issue are “indisputably clear.”
Moreover, the applicant must demonstrate
that the injunctive relief is “necessary or
appropriate in aid of [the Court’s]
jurisdictio[n].”
Id. at 1313 (emphasis added) (citations omitted) (first
quoting Fishman v. Schaffer, 429 U.S. 1325, 1326, 97
S. Ct. 14, 50 L. Ed. 2d 56 (1976) (Marshall, J., in
chambers), second quoting Communist Party, 409
U.S. at 1235, third quoting 28 U.S.C. § 1651(a)).
Though many individual Justice opinions have
denied § 1651(a) interlocutory injunctions based on
the “indisputably clear” standard, 5 most relevant to
5 See,

e.g., Brown v. Gilmore, 533 U.S. 1301, 1303-04, 122

16a
the case at hand are the few and far between cases in
which a Justice or the Court has actually granted the
writ. No such case, as far as I could find, has ever
applied the “indisputably clear” standard.
The most recent § 1651(a) interlocutory
injunction of which I am aware is the 2015 writ
granted to Appellants. Akina, 136 S. Ct. at 581. As is
precisely at issue here, that order did not articulate
the standard under which it was granted, nor did the
immediately preceding writ issued by Justice
Kennedy.
The same can be said of the two similar writs
S. Ct. 1, 150 L. Ed. 2d 782 (2001) (Rehnquist, C.J., in chambers)
(denying the writ because it was unclear whether Virginia’s
“minute of silence” statute had enough of a secular purpose to
distinguish it from an Alabama statute previously invalidated as
mandating school prayer) (citing Wallace v. Jaffree, 472 U.S. 38,
56, 105 S. Ct. 2479, 86 L. Ed. 2d 29 (1985)); Lux v. Rodrigues,
561 U.S. 1306, 1307, 131 S. Ct. 5, 177 L. Ed. 2d 1045 (2010)
(Roberts, C.J., in chambers) (denying the writ because it was
unclear whether Virginia’s residency requirement for a petition
signature’s witness was distinguishable from Colorado petition
circulation restrictions previously invalidated as violating free
speech rights) (citing Meyer v. Grant, 486 U.S. 414, 422, 108 S.
Ct. 1886, 100 L. Ed. 2d 425 (1988); Buckley v. Am. Const. L.
Found., Inc., 525 U.S. 182, 186-87, 119 S. Ct. 636, 142 L. Ed. 2d
599 (1999)); Hobby Lobby Stores, Inc. v. Sebelius, 568 U.S. 1401,
1403, 133 S. Ct. 641, 184 L. Ed. 2d 448 (2012) (Sotomayor, J., in
chambers) (denying writ because the Court had not yet decided
whether “closely held for-profit corporations and their
controlling shareholders” have religious free exercise rights). I
disagree with the majority that any of these cases can be
interpreted as not considering the merits. See id. (disclaiming
any determination of the “ultimate merits” while nevertheless
considering the merits in order to recognize that the merits were
not “indisputably clear”).

17a
granted in 2014. In both Wheaton College v. Burwell,
573 U.S. 958, 134 S. Ct. 2806, 189 L. Ed. 2d 856 (2014)
(mem.), and Little Sisters of the Poor Home for the
Aged v. Sebelius, 571 U.S. 1171, 134 S. Ct. 1022, 187
L. Ed. 2d 867 (2014) (mem.), the Court granted a §
1651(a) writ enjoining the federal government from
requiring the plaintiff religious nonprofit entities to
fill out and send a form to their third party insurers
regarding their objections to the Affordable Care Act’s
contraceptive coverage mandate. 134 S. Ct. at 2807;
571 U.S. at 1171. Neither memorandum order hinted
as to the standard the Court had applied in granting
the writ. In both cases, the Court expressly directed
that the order “not be construed as an expression of
the Court’s views on the merits.” 134 S. Ct. at 2807;
571 U.S. at 1171.
Although
Little
Sisters
was
decided
unanimously, a three-Justice dissent criticized the
Wheaton College majority for failing to apply the
“indisputably clear” standard. 134 S. Ct. at 2808
(Sotomayor, J., dissenting) (quoting Turner
Broadcasting, 507 U.S. at 1303). 6 Notably, the dissent
cited no precedent in which a single Justice or the full
Court had granted a writ after applying the
“indisputably clear” standard. See id. at 2808, 2810-

6 The

dissent distinguished Little Sisters because,
“whatever the merits of that unusual order, it did not affect any
individual’s access to contraceptive coverage.” Id. at 2814 n.6
(noting that Little Sisters’ third party insurer was a “church
plan” that also had no obligation to provide contraceptive
coverage).

18a
11 & n.3. 7
Taking the Court at its word, Wheaton College
and Little Sisters demonstrate that the Court has
authority to issue § 1651(a) interlocutory injunctions
without applying the “indisputably clear” standard
(whatever that standard may entail), and indeed
without reaching the merits of the underlying legal
challenge. 8
B. Application
The delegate election and related selfgovernance processes challenged in the Akina lawsuit
began to unravel only after Justice Kennedy and then
the full Court issued writs of injunction. I have no

7 Prior

to Little Sisters, the most recent case I am aware
of in which a single Justice or the Court granted a § 1651(a)
interlocutory injunction was Lucas v. Townsend, 486 U.S. 1301,
1304, 108 S. Ct. 1763, 100 L. Ed. 2d 589 (1988) (Kennedy, J., in
chambers). Despite ruling two years after Ohio Citizens, Justice
Kennedy in Lucas applied the test typically applied to a § 1651(a)
application for a stay pending certiorari, including “a fair
prospect that five Justices will conclude that the case was
erroneously decided below.” Id. Given the intervening three
decades, it is unlikely that the Court was tacitly applying this
stay standard in Little Sisters, Wheaton College, or Akina.
8I

agree with the majority that Dunn v. McNabb, 138 S.
Ct. 369, 199 L. Ed. 2d 274 (2017) (mem.) does not prove that the
Court or any individual Justice is required to find “a significant
possibility of success on the merits” before granting a § 1651(a)
interlocutory injunction outside the context of capital
punishment stays. Id. at 369 (quoting Hill v. McDonough, 547
U.S. 573, 584, 126 S. Ct. 2096, 165 L. Ed. 2d 44 (2016)).

19a
trouble
thus
concluding
that
“judicial
imprimatur” was present. Higher Taste, 717 F.3d at
716. The difficulty in this case comes from the
uncertainty regarding whether that “judicial
imprimatur” represented a finding that Appellants’
civil rights claims were “potentially meritorious.” Id.
at 715 (quoting Buckhannon, 532 U.S. at 606).
Because I find little indication that the
Supreme Court was applying the Winter framework,
I do not attempt to reverse engineer the Court’s likely
assessment of the Winter factors (which would have
to have been contrary to this court’s assessment when
we denied an interlocutory injunction). Nor will I
attempt to evaluate whether the Court’s jurisdiction
was genuinely at stake, as I am aware of no Supreme
Court precedent clearly endorsing a distinction
between jurisdictional and merits-based § 1651(a)
injunctions.
If Justice Kennedy or the Court had said
anything at all about the merits of Appellants’ claims,
even without making an express finding of “probable
success on the merits,” I might have some basis on
which to state confidently that Justice Kennedy or the
Court considered the claims at least “potentially
meritorious.” Id. But, given the Court’s clearly
expressed authority to avoid the merits entirely in
Wheaton College and Little Sisters, there is too much
uncertainty in the Akina writs’ silence to reach this
conclusion. 9 The “indisputably clear” standard does
9I

note, however, that Appellees argued to the Supreme
Court in briefing on the writ that the relevant standard was
whether it was “indisputably clear” that Appellants would

20a
not appear to be a universal requirement, nor do we
have any example of the Court granting a writ under
the “indisputably clear” standard that would
illustrate its meaning.
Accordingly, I concur in the denial of attorney’s
fees on the grounds that the judicial relief obtained
provided no indication that Appellants’ claims were
potentially meritorious.
II. Sufficiently Enduring Relief
I turn now to the second question we ask of a
would-be prevailing party who has won a preliminary
injunction but not litigated the case to final judgment:
“[H]as the plaintiff obtained relief sufficiently
enduring to satisfy the ‘material alteration of the
parties’ legal relationship’ requirement?” Higher
Taste, 717 F.3d at 716 (quoting Buckhannon, 532 U.S.
at 605). I would hold that Appellants have obtained
relief “sufficiently enduring.” Id.
“A material alteration of the parties’ legal
relationship occurs when ‘the plaintiff can force the
defendant to do something he otherwise would not
have to do.’ Id. (quoting Fischer v. SJB—P.D. Inc., 214
F.3d 1115, 1118 (9th Cir. 2000)). 10 If a preliminary
prevail under the Winter test, including consideration of the
merits. Appellees’ convenient reversal on this position is
troubling.
10 Other

circuits have held that a preliminary injunction
granting temporary relief that merely maintains the status quo
pending final resolution of the merits does not confer prevailing
party status. See N. Cheyenne Tribe v. Jackson, 433 F.3d 1083,
1086 (8th Cir. 2006) (collecting cases). We have left the question

21a
injunction creating such material alteration is
rendered moot by the defendant’s own actions,
prevailing party status is not disturbed. See id. at
717-18. “The defendant’s action in rendering the case
moot ensures that the injunction’s alteration of the
parties’ legal relationship will not be undone by
subsequent rulings in the litigation.” Id. A plaintiff’s
“relief sufficiently enduring” need not encompass all
of the demands made in their complaint. “[P]laintiffs
may be considered ‘prevailing parties’ . . . if they
succeed on any significant issue in litigation which
achieves some of the benefit the parties sought in
bringing the suit.” Jensen, 806 F.2d at 900 (quoting
Hensley v. Eckerhart, 461 U.S. 424, 433, 103 S. Ct.
1933, 76 L. Ed. 2d 40 (1983)).
Plaintiffs ultimately did get much of what they
sought in the Akina lawsuit: the delegate election and
the ratification election were both cancelled; no
election based on the disputed voter roll was ever
counted or certified; and no DOI-qualifying selfgovernance document was produced through
processes dependent on the disputed voter roll.
However, most of these victories went beyond any
judicial ruling, and therefore must be excluded from
consideration as an impermissible application of the
“catalyst theory.” Buckhannon, 532 U.S. at 609.
Appellants’ one victory directly tied to a
judicial ruling was the enjoining of vote counting and
open. Higher Taste, 717 F.3d at 716 n.1. I see no need to disturb
that silence here, where the Supreme Court had to foresee that
its writ would affect the behavior of voters in the ongoing
election. See Purcell v. Gonzalez, 549 U.S. 1, 4, 127 S. Ct. 5, 166
L. Ed. 2d 1 (2006).

22a
certification of winners in the 2015 delegate
election. This was a “significant issue” because a
publicized vote count and certification of winners
would have effectuated the results of a race-and
viewpoint-restricted voting process. Jensen, 806 F.2d
at 900. By voluntarily then cancelling the delegate
election before the end of the voting period, Na’i
Aupuni permanently voided it. This action ensured
that the Court’s writ would “not be undone by
subsequent rulings in the litigation.” Higher Taste,
717 F.3d at 717-18. It does not matter that Appellees
remain able to pursue various other actions
Appellants sought to enjoin through their lawsuit
(e.g. hold a new election via a new nonprofit using the
same disputed voter roll), because “some of the
benefit” Plaintiffs sought became permanent. Jensen,
806 F.2d at 900.
I disagree with the district court’s conclusion
that Appellants obtained only “ephemeral” relief.
Appellants’ lawsuit sought to enjoin the “calling,
holding, or certifying of any election” using the
disputed voter roll. Appellants successfully enjoined
the certifying of one such election. 11 Moreover, our
subsequent dismissal of Appellants’ appeal as moot
depended on the conclusion that “the allegedly
wrongful behavior could not reasonably be expected
11 The

Supreme Court’s denial of Appellants’ civil
contempt motion should be read to preclude the theory that
Appellants failed to prevent certification of the winners of the
election. See Akina, 136 S. Ct. at 922. If Na’i Aupuni’s invitation
of all the delegate candidates to the convention had counted as
certifying them as winners, the Court would have granted the
contempt motion.

23a
to recur.” Akina v. Hawaii, 835 F.3d 1003, 1010 (9th
Cir. 2016).
Thus, were it not for the uncertainty
surrounding the standard of review applied in the
Akina writs, I would hold that Appellants are
prevailing parties and entitled to attorney’s fees.

24a
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF HAWAII
No. 15-00322 JMS-RLP
Kealii Makekau, et al.,
Plaintiffs,
v.
The State of Hawaii, et al.,
Defendants.
ORDER OVERRULING OBJECTIONS AND
ADOPTING FINDINGS AND
RECOMMENDATION TO DENY PLAINTIFFS’
AMENDED MOTION FOR ATTORNEYS’ FEES
AND RELATED NON-TAXABLE EXPENSES
I. INTRODUCTION
Plaintiffs 1
Kealii
Makekau,
Joseph
Kent, Yoshimasa Sean Mitsui, Pedra Kanae Gapero,
and Melissa Leinaala Moniz (“Plaintiffs”) object
under 28 U.S.C. § 636(b)(1) to Magistrate Judge
Richard Puglisi’s February 24, 2017 Findings and
Recommendation to Deny Plaintiffs’ Amended Motion

1 On

March 15, 2017, Magistrate Judge Puglisi granted
Plaintiffs’ “Motion to Drop Plaintiff Kelii Akina Pursuant to Fed.
R. Civ. P. 21,” given Akina’s intervening election as a Trustee of
the Office of Hawaiian Affairs, where such Trustees are
Defendants in their official capacities in this action. ECF No.
169. Accordingly, the caption no longer reflects Akina as the lead
Plaintiff.

25a
for Attorneys’ Fees and Related Non-Taxable
Expenses Under L.R. Civ. 54.3” (the “February 24,
2017 Findings and Recommendation”). ECF No. 170.
After due consideration, and being intimately
familiar with the extensive proceedings in this case,
the court OVERRULES Plaintiffs’ Objections and
ADOPTS the February 24, 2017 Findings and
Recommendation. The Amended Motion for
Attorneys’ Fees and Non-Taxable Expenses, ECF No.
152, is DENIED.
II. BACKGROUND
The court need not reiterate this case’s full
history and background, which is detailed in several
published decisions. See Akina v. Hawaii, 141 F.
Supp. 3d 1106 (D. Haw. 2015) (denying motion for
preliminary injunction); Akina v. Hawaii, 136 S. Ct.
581, 193 L. Ed. 2d 464 (2015) (granting stay pending
final disposition of the appeal then-pending before the
Ninth Circuit) (mem.); Akina v. Hawaii, 835 F.3d
1003 (9th Cir. 2016) (affirming in part and dismissing
appeal as moot in part). And the February 24, 2017
Findings and Recommendation further describes the
procedural history, which this court adopts as
modified as follows.
This action arises from Native Hawaiian selfgovernance efforts. As part of those efforts, Defendant
Na’i Aupuni was planning an election of delegates to
a proposed constitutional convention to discuss, and
possibly organize, a Native Hawaiian governing
entity. The voters in this election were based on a
“Roll” of “qualified Native Hawaiians” as set forth in

26a
Act 195, 2011 Haw. Sess. Law, as amended.
Prospective registrants to the Roll were asked to
make three declarations related to Native Hawaiian
sovereignty, their connection to the Native Hawaiian
community, and their Native Hawaiian ancestry. The
delegate election was scheduled for November 1
through November 30, 2015. The elected delegates
would then attend a constitutional convention to
discuss forming a government and possibly to draft a
constitution. Any proposed constitution would then be
subject to a ratification vote by qualified Native
Hawaiians listed on the Roll.
Plaintiffs filed this suit on August 13, 2015,
alleging that the restrictions on registering for the
Roll, and the election process, violated the United
States Constitution and the Voting Rights Act of
1965. See ECF No. 1. Plaintiffs named as Defendants
the State of Hawaii; the Governor in his official
capacity; the Trustees and Chair of the Office of
Hawaiian Affairs, in their official capacities; the
Commissioners, Chair, and Executive Director of the
Native Hawaiian Roll Commission, in their official
capacities; Na’i Aupuni; and the Akamai Foundation,
a non-profit organization that was a party to an
agreement that provided funds for Na’i Aupuni’s
efforts. Plaintiffs sought to enjoin Defendants “from
requiring prospective applicants for any voter roll to
confirm Declaration One, Declaration Two, or
Declaration Three, or to verify their ancestry” and to
enjoin “the use of the Roll that has been developed
using these procedures, and the calling, holding, or
certifying of any election utilizing the Roll.” Id. at 32.
Approximately two weeks after filing the

27a
Complaint, Plaintiffs moved for a preliminary
injunction preventing Defendants “from undertaking
certain voter registration activities and from calling
or holding racially-exclusive elections for Native
Hawaiians.” See ECF No. 47, Mot. at 3. This court
denied Plaintiff’s motion for preliminary injunction
on October 23, 2015 (followed by a written order on
October 29, 2015), concluding that Plaintiffs had not
met their burden of demonstrating that excluding
them from the election was unconstitutional or would
otherwise violate federal law. ECF Nos. 103, 114. The
primary basis for denying relief was a lack of state
action -- the subject election was not a public election.
Akina, 141 F. Supp. 3d at 1126-29. Na’i Aupuni
proceeded with the election of delegates by mailing
ballots to certified Native Hawaiians on November 1,
2015. See ECF No. 157 at 11. The deadline to vote was
November 30, 2015. Id.
Plaintiffs appealed the court’s order denying a
preliminary injunction to the Ninth Circuit, and filed
an “Urgent Motion for an Injunction While Appeal is
Pending.” ECF Nos. 122, 173-2. The Ninth Circuit
denied that motion on November 19, 2015. ECF No.
122. On November 23, 2015 -- three days before the
Thanksgiving holiday -- Plaintiffs filed with the U.S.
Supreme Court an Emergency Application for
Injunction Pending Appellate Review. ECF No. 1702. After Defendants filed an Opposition on November
25, 2015, Supreme Court Justice Anthony Kennedy
issued an order on November 27, 2015 (the day after
Thanksgiving) that enjoined the counting of ballots
and certification of winners “pending further order” of
the court. See Akina v. Hawaii, 193 L. Ed. 2d 420,

28a
2015 WL 7691943 (2015). This was three days before
voting in the delegate election was to end.
On December 2, 2015, a five-Justice majority of the
Supreme Court issued an order (the “December 2,
2015 order”) which read in full:
[The] [a]pplication for injunction pending
appellate review presented to Justice
Kennedy and by him referred to the Court
[is] granted. Respondents are enjoined
from counting ballots cast in, and
certifying winners of, the election
described in the application, pending final
disposition of the appeal by the United
States Court of Appeals for the Ninth
Circuit.
Justice Ginsburg, Justice Breyer, Justice
Sotomayor, and Justice Kagan would deny
the application.
Akina, 136 S. Ct. at 581; see also ECF No. 171-6
(original order).
Two weeks after the Supreme Court’s order,
Na’i Aupuni cancelled the delegate election, which
had been extended in the interim. See Akina, 835 F.3d
at 1009. Instead of holding the delegate election, Na’i
Aupuni offered all delegate candidates “a seat as a
delegate” to the convention “to learn about, discuss
and hopefully reach a consensus on a process to
achieve self-governance.” Id. Plaintiffs responded by
filing a motion for civil contempt in the Supreme
Court, arguing that Na’i Aupuni’s actions essentially
declared all the candidates winners and violated the
Supreme Court’s injunction pending appeal. See ECF

29a
No. 157-5. In particular, Plaintiff asked the Supreme
Court (1) to instruct Defendants “to withdraw the
December 15, 2015 certification of the delegates and
cease and desist in any effort to send delegates to the
convention,” ECF No. 173-6 at 21-22; (2) require
Defendants “to judicially preclear any further steps
they seek to take with regard to selection of delegates
or holding of the convention while the Temporary
Injunction remains in force,” id. at 22; and (3) “award
to [Plaintiffs] the attorney’s fees and costs incurred in
bringing this Motion.” Id. at 23. The Supreme Court
denied Plaintiff’s contempt motion. ECF No. 173-7,
Akina v. Hawaii, 136 S. Ct. 922, 193 L. Ed. 2d 786
(2015) (mem.).
The convention took place in February 2016,
resulting in a proposed constitution for a Native
Hawaiian government. Akina, 835 F.3d at 1009. Na’i
Aupuni decided not to fund a ratification vote and
returned the remaining grant funds allocated for the
ratification. Id. In April 2016, Na’i Aupuni dissolved
as an entity. Id.; ECF No. 173-8.
On August 29, 2016, the Ninth Circuit issued
an Opinion dismissing as moot Plaintiffs’
interlocutory appeal of this court’s order denying
Plaintiffs’ motion for a preliminary injunction. Akina,
835 F.3d at 1011. In determining that Plaintiffs’
appeal was moot, the Ninth Circuit focused on the
fact that the delegate election had been cancelled, no
ratification vote was scheduled, and Na’i Aupuni had
dissolved as a non-profit corporation. Id. On
November 30, 2016, this court granted Plaintiffs’
motion to voluntarily dismiss this action without
prejudice, and declined to award fees or costs as a

30a
condition of dismissal. ECF No. 146.
Thereafter, on January 17, 2017, Plaintiffs
filed the present Amended Motion for Attorney Fees
and Related Non-Taxable Expenses. ECF No. 152.
Magistrate Judge Puglisi issued the February 24,
2017 Findings and Recommendation, recommending
that the Amended Motion be denied. ECF No. 165. On
March 24, 2017 Plaintiffs filed objections to the
February 24, 2017 Findings and Recommendation,
ECF No. 170, and Defendants filed their Responses
on April 7, 2017. ECF Nos. 171-73.
III. STANDARD OF REVIEW
When a party objects to a magistrate judge’s
findings or recommendations, the district court must
review de novo those portions to which the objections
are made and “may accept, reject, or modify, in whole
or in part, the findings or recommendations made by
the magistrate judge.” 28 U.S.C. § 636(b)(1); see also
United States v. Raddatz, 447 U.S. 667, 673, 100 S.
Ct. 2406, 65 L. Ed. 2d 424 (1980); United States v.
Reyna-Tapia, 328 F.3d 1114, 1121 (9th Cir. 2003) (en
banc) (“[T]he district judge must review the
magistrate judge’s findings and recommendations de
novo if objection is made, but not otherwise.”).
Under a de novo standard, this court reviews
“the matter anew, the same as if it had not been heard
before, and as if no decision previously had been
rendered.” Freeman v. DirecTV, Inc., 457 F.3d 1001,
1004 (9th Cir. 2006); United States v. Silverman, 861
F.2d 571, 576 (9th Cir. 1988). The district court need
not hold a de novo hearing; however, it is the court’s

31a
obligation to arrive at its own independent conclusion
about those portions of the magistrate judge’s
findings or recommendation to which a party objects.
United States v. Remsing, 874 F.2d 614, 618 (9th Cir.
1989).
IV. DISCUSSION
Plaintiffs lost at almost every juncture of this
action. This court denied Plaintiffs’ Motion for
Preliminary Injunction on October 23, 2015, ECF No.
103 (oral ruling), and on October 29, 2015, ECF No.
114 (written Order). The Ninth Circuit denied
Plaintiffs’ emergency motion seeking an injunction
pending appeal on November 19, 2015. ECF No. 122.
The Supreme Court denied Plaintiffs’ motion for civil
contempt on January 19, 2016. ECF No. 173-7. The
Ninth Circuit ultimately dismissed Plaintiffs’ appeal
on August 29, 2016. ECF No. 136. And this court
granted Plaintiffs’ Motion to Voluntarily Dismiss
Complaint pursuant to Federal Rule of Civil
Procedure 41(a)(2) on November 30, 2016. ECF No.
146.
Plaintiffs contend, however, that they are
“prevailing parties” for purposes of entitlement to
attorney’s fees under 42 U.S.C. § 1988(b) because they
obtained the December 2, 2015 order from the United
States Supreme Court -- an order granting
preliminary relief that preserved the status quo. 2
2 Section

1988(b) provides in pertinent part that “[i]n any
action or proceeding to enforce a provision of [42 U.S.C. § 1983]
. . . the court, in its discretion, may allow the prevailing party,
other than the United States, a reasonable attorney’s fee as part

32a
ECF No. 123. As set forth above, the Supreme Court
enjoined Defendants “from counting ballots cast in,
and certifying winners of, the election described in the
application, pending final disposition of the appeal by
the United States Court of Appeals for the Ninth
Circuit.” Akina, 136 S. Ct. at 581. Read in context, the
order simply limited irreparable harm that might
come from a private election that was alleged to be
unconstitutional, until a final decision on the merits
by the Ninth Circuit as to Plaintiffs’ then-pending
Ninth Circuit appeal. 3
But “virtually every circuit court to consider
the question has concluded that a preliminary
injunction granting temporary relief that merely
maintains the status quo does not confer prevailing
party status.” N. Cheyenne Tribe v. Jackson, 433 F.3d
1083, 1086 (8th Cir. 2006) (citing Thomas v. Nat’l Sci.
Found., 330 F.3d 486, 493, 356 U.S. App. D.C. 222
(D.C. Cir. 2003); John T. Ex Rel. Paul T. v. Del. Cty.,
318 F.3d 545, 558-59 (3rd Cir. 2003); Dubuc v. Green
Oak Twp., 312 F.3d 736, 753-54 (6th Cir. 2002); Race
v. Toledo-Davila, 291 F.3d 857, 858 (1st Cir. 2002);
and Smyth v. Rivero, 282 F.3d 268, 276-77 (4th Cir.
2002)). “Some initial injunctions, sometimes called
of the costs[.]”
3 Indeed,

Plaintiffs made this very argument to the
Supreme Court. See ECF No. 173-3 at 11 (arguing that
“Injunctive relief under the All Writs Act is necessary to prevent
irreparable harm to Applicants during the appellate process, and
to preserve this Court’s jurisdiction regarding the issues raised
in this case”); id. at 35 (“The Court may issue a writ to maintain
the status quo and take action ‘in aid of the appellate jurisdiction
which might otherwise be defeated.’”) (citation omitted).

33a
stay-put or status quo injunctions, turn more on the
grave risks of irreparable harm to one party or to the
public interest than on the legal virtues of the
parties’ positions.” McQueary v. Conway, 614 F.3d
591, 600 (6th Cir. 2010) (citation omitted).
For example, LaRouche v. Kezer, 20 F.3d 68 (2d
Cir. 1994), concluded that a party obtaining an
injunction pending appeal was not a prevailing party
for purposes of § 1988(b) where there was no
indication that such provisional relief was based on
the merits of the underlying claims. Id. at 75.
LaRouche reasoned in part that “a grant of
provisional relief that merely preserves the status quo
does not constitute final relief on the merits,” id. at
74, and reiterated that “the procurement of a TRO in
which the court does not address the merits of the
case but simply preserves the status quo to avoid
irreparable harm to the plaintiff is not by itself
sufficient to give a plaintiff prevailing party status.”
Id. (quoting Christopher P. v. Marcus, 915 F.2d 794,
805 (2d Cir. 1990)). Ninth Circuit authority, although
not directly on point, is consistent with this principle.
See, e.g., LSO, Ltd. v. Stroh, 205 F.3d 1146, 1161 (9th
Cir. 2000) (finding that an organization that obtained
a TRO was a prevailing party because “[i]t is clear
that the TRO in this case did more than preserve the
status quo”); Friedman v. State of Ariz., 912 F.2d 328,
333 (9th Cir. 1990) (“Although [appellant] prevailed
on the injunction pending appeal, he is not the
prevailing party on the merits[.]”), superseded by
statue on other grounds, as recognized in Warsoldier
v. Woodford, 418 F.3d 989, 997 (9th Cir. 2005).
Here, nothing on the face of the Supreme

34a
Court’s December 2, 2015 one-paragraph order
indicates it was based, even in part, on the merits of
the underlying claims. See LaRouche, 20 F.3d at 75
(“Although the stay panel could have granted the
injunction pending appeal based on a determination
as to the merits, there is no indication that it did so.”).
As Larouche reasoned, “[a]n injunction pending
appeal that is not clearly based on the merits merely
heightens the confusion. As a general matter, a court
should not resolve the uncertainty in favor of a finding
that plaintiff prevailed.” Id. (citations omitted). See
also Dearmore v. City of Garland, 519 F.3d 517, 524
(5th Cir. 2008) (requiring “an unambiguous indication
of probable success on the merits” to qualify as a
prevailing party).
Further, the timing -- where the emergency
motion was being considered over the Thanksgiving
holiday only three days before voting was to end -- is
also a factor indicating that the stay was not
sufficiently “on the merits.” The circumstances
suggest, instead, that the Supreme Court was acting
to prevent irreparable harm based on an allegedly
unconstitutional election. Although this court
certainly believes that the Supreme Court thoroughly
reviewed the filings submitted on the emergency
motion, the December 2, 2015 order simply does not
indicate it was based on any assessment of the merits.
Indeed, the order left the merits to the Ninth Circuit
in its then-pending appeal. See Dupuy v. Samuels,
423 F.3d 714, 722 (7th Cir. 2005) (concluding that a
fee award was premature where further proceedings
on the merits were clearly contemplated).
In contrast, Plaintiffs’ contempt motion did

35a
seek relief on the merits -- (1) a “withdrawal” of Na’i
Aupuni’s December 15, 2015 certification of delegates
and a halt to “any effort to send delegates to the
convention,” (2) “preclearance” of “any further steps .
. . with regard to selection of delegates or holding of
the convention,” and (3) an award of attorney’s fees
and costs incurred in bringing its contempt motion.
ECF No. 173-6 at 21-23. And when squarely
presented with the merits of Defendants’ ongoing
activities, the Supreme Court summarily denied that
request.
In any event, even assuming that the Supreme
Court’s December 2, 2015 order did more than merely
maintain the status quo, Plaintiffs otherwise fail to
prove they are entitled to fees and costs under §
1988(b). As the February 24, 2017 Findings and
Recommendation correctly analyzed, Plaintiffs fail to
meet the test set forth in Higher Taste, Inc. v. City of
Tacoma, 717 F.3d 712 (9th Cir. 2013), which analyzed
a situation where a plaintiff “wins a preliminary
injunction but does not litigate the case to final
judgment,” id. at 716, such as where a case is
rendered moot before final judgment. Id. at 717.
Higher Taste describes the test as follows:
[T]wo recurrent questions arise when
making prevailing-party determinations
in this context: First, is the court’s
preliminary injunction ruling sufficiently
“on the merits” to satisfy [Buckhannon
Board and Care Home, Inc. v. West
Virginia Department of Health and
Human Resources, 532 U.S. 598, 121 S. Ct.
1835, 149 L. Ed. 2d 855 (2001)’s] “judicial

36a
imprimatur” requirement? And second,
has the plaintiff obtained relief sufficiently
enduring to satisfy the “material
alteration
of
the
parties’
legal
relationship” requirement?
Id. at 716. 4
Applying Higher Taste, the court agrees with
the February 24, 2017 Findings and Recommendation
that the December 2, 2015 order was not sufficiently
on the merits to satisfy the “judicial imprimatur”
requirement, and that even if it was, Plaintiffs did not
obtain “relief sufficiently enduring” to satisfy the
“material alteration of the parties’ legal relationship”
requirement.
Again, the December 2, 2015 order did not
mention the merits, and the timing of the order
strongly suggests its purpose was to prevent
irreparable harm, should a court subsequently find
Defendants’ actions to be unconstitutional. Although
the December 2, 2015 order appears to have
been based on the All Writs Act -- leading to Plaintiffs’
argument that the Supreme Court rarely issues such
Taste reiterated that “[a] plaintiff ‘prevails’ for
purposes of § 1988 ‘when actual relief on the merits of his claim
materially alters the legal relationship between the parties by
modifying the defendant’s behavior in a way that directly
benefits the plaintiff.’” 717 F.3d at 715 (quoting Farrar v. Hobby,
506 U.S. 103, 111-12, 113 S. Ct. 566, 121 L. Ed. 2d 494 (1992)).
In turn “[r]elief ‘on the merits’ occurs when the material
alteration of the parties’ legal relationship is accompanied by
‘judicial imprimatur on the change.’” Id. (quoting Buckhannon,
532 U.S. at 605).
4 Higher

37a
orders in this context and must have found the legal
rights at issue to have been “indisputably clear” -- the
order does not recite this standard, nor make mention
of any legal rights. And the Court can issue
injunctions pending appeal under the All Writs Act
that are not “on the merits.” See Wheaton Coll. v.
Burwell, 134 S. Ct. 2806, 2807, 189 L. Ed. 2d 856
(2014) (granting stay while expressly withholding
views on the merits); Little Sisters of the Poor Home
for the Aged v. Sebelius, 134 S. Ct. 1022, 187 L. Ed. 2d
867 (2014) (same); Klay v. United Healthgroup, Inc.,
376 F.3d 1092, 1100-01 (11th Cir. 2004).
Further, the relief obtained -- preventing the
counting of the ballots cast, and the certification of the
winners -- was “ephemeral” and not an “enduring”
change in the parties’ relationship. See Higher Taste,
717 F.3d at 717. Nothing with the December 2, 2015
order compels the remaining Defendants (i.e., besides
the now-dissolved Na’i Aupuni, and Akamai
Foundation) from using the Roll for selfdetermination efforts, or from conducting a different
private election. And nothing requires Defendants to
make any modifications to the Roll, or to include all
Hawaii citizens in the process. Rather, the action has
been dismissed without prejudice, and presumably
such actions of Defendant could be challenged in the
future. See Cadkin v. Loose, 569 F.3d 1142, 1148 (9th
Cir. 2009) (“Because ‘a dismissal without prejudice is
not a decision on the merits’ and plaintiff was free to
re-file his complaint in federal court, ‘dismissal
without prejudice does not alter the legal relationship
of the parties [for purposes of the prevailing-party
inquiry] because the defendant remains subject to the
risk of re-filing.’”) (quoting Oscar v. Alaska Dep't of

38a
Educ. & Early Dev., 541 F.3d 978, 981 (9th Cir.
2008)). In short, there has been no enduring material
alteration of the legal relationship between the
parties.
Finally, although Na’i Aupuni voluntarily
cancelled the delegate election, nothing obtained by
Plaintiffs specifically prevented the subsequent
convention. At best, Plaintiffs’ suit and the December
2, 2015 order was a “catalyst” for change by
Defendants, but such a “catalyst” theory of prevailingparty status was abrogated in Buckhannon for federal
fee-shifting statutes. See 532 U.S. at 610.
V. CONCLUSION
Plaintiffs’ objections are OVERRULED. The
court ADOPTS the February 24, 2017 Findings and
Recommendation to Deny Plaintiffs’ Amended Motion
for Attorneys’ Fees and Related Non-taxable
Expenses Under L.R. Civ. 54.3. ECF No. 165. The
Amended Motion, ECF No. 152, is DENIED.
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, June 6, 2017.
/s/ J. Michael Seabright
J. Michael Seabright
Chief United States District Judge

39a
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF HAWAII
No. 15-00322 JMS-RLP
Kelii Akina, et al.,
Plaintiffs,
v.
The State of Hawaii, et al.,
Defendants.
FINDINGS AND RECOMMENDATION TO
DENY PLAINTIFFS’ AMENDED MOTION FOR
ATTORNEYS’ FEES AND RELATED NONTAXABLE EXPENSES UNDER L.R. CIV. 54.31
Before the Court is Plaintiffs’ Amended Motion
for Attorneys’ Fees and Related Non-Taxable
Expenses, filed on January 17, 2017 (“Motion”). See
ECF No. 152. Plaintiffs request an award of
$318,679.63 for attorneys’ fees and non-taxable
expenses as the “prevailing party” pursuant to 42
U.S.C. § 1988(b). Defendants filed Oppositions to the
Motion on February 7, 2017. See ECF Nos. 157, 158,
159. Plaintiffs filed their Reply on February 21, 2017.
ECF No. 164. After careful consideration of the
submissions of the parties and the relevant legal
authority, the Court FINDS AND RECOMMENDS
that Plaintiff's Motion be DENIED.
BACKGROUND 1
1

The full background of this case is set forth in Akina v.

40a
This action arises from Defendants’ actions in
connection with Native Hawaiian self-governance
efforts. As part of those efforts, Defendant Na’i
Aupuni was going to conduct an election of delegates
to a proposed constitutional convention to discuss,
and possibly organize, a Native Hawaiian governing
entity. The voters in this election were based on a
“Roll” of “qualified Native Hawaiians.” Prospective
registrants to the Roll were asked to make three
declarations related to Native Hawaiian sovereignty,
their connection to the Native Hawaiian community,
and their Native Hawaiian ancestry. The delegate
election was scheduled for November 1 through
November 30, 2015. The elected delegates would then
attend a constitutional convention to discuss forming
a government and to possibly draft a constitution.
Any proposed constitution would then be subject to a
ratification vote by qualified Native Hawaiians listed
on the Roll.
Plaintiffs filed this suit on August 13, 2015,
alleging that the restrictions on registering for the
Roll violated the United States Constitution and the
Voting Rights Act of 1965. See ECF No. 1. Plaintiffs
sued the State of Hawaii, various state government
officers and agencies, Na’i Aupuni, and another nonprofit organization that was a party to the agreement
that provided state funds for Na’i Aupuni’s election
efforts. Plaintiffs sought to enjoin Defendants “from
requiring prospective applicants for any voter roll to
Hawaii, 141 F. Supp. 3d 1106 (D. Haw. 2015) (denying motion
for preliminary injunction); Akina v. Hawaii, 136 S. Ct. 581, 193
L. Ed. 2d 464 (2015) (granting injunction pending appeal); and
Akina v. Hawaii, 835 F.3d 1003 (9th Cir. 2016) (affirming in part
and dismissing appeal as moot in part).

41a
confirm Declaration One, Declaration Two, or
Declaration Three, or to verify their ancestry” and to
enjoin “the use of the Roll that has been developed
using these procedures, and the calling, holding, or
certifying of any election utilizing the Roll.” Id. at 32.
Approximately two weeks after filing the
Complaint, Plaintiffs moved for a preliminary
injunction preventing Defendants “from undertaking
certain voter registration activities and from calling
or holding racially-exclusive elections for Native
Hawaiians.” See ECF No. 47. The district court denied
Plaintiff’s motion for preliminary injunction on
October 23, 2015, after concluding that Plaintiffs had
not met their burden of demonstrating that excluding
them from the election was unconstitutional or would
otherwise violate federal law. ECF No. 114.
Defendant Na’i Aupuni proceeded with the election of
delegates by mailing ballots to certified Native
Hawaiians on November 1, 2015. See ECF No. 157 at
11. The deadline to vote was November 30, 2015. Id.
Plaintiffs appealed the district court’s order
denying a preliminary injunction and sought an
injunction pending appeal from the Ninth Circuit.
ECF No. 122. The Ninth Circuit denied the request
for an injunction pending appeal on November 19,
2015. Id. On November 27, 2015, three days before
voting in the delegate election was to end, Supreme
Court Justice Kennedy enjoined the counting of
ballots and certification of winners “pending further
order” of the court. See Akina v. Hawaii, 193 L. Ed. 2d
420 (2015). On December 2, 2015, a five-Justice
majority of the Supreme Court enjoined the
defendants “from counting ballots cast in, and

42a
certifying winners of, the election described in the
application, pending final disposition of the appeal
by” the Ninth Circuit. Akina v. Hawaii, 136 S. Ct. 581,
193 L. Ed. 2d 464 (2015).
Two weeks after the Supreme Court's order,
Defendant Na'i Aupuni cancelled the delegate
election. See Akina v. Hawaii, 835 F.3d 1003, 1009
(9th Cir. 2016). Instead of holding the delegate
election, Defendant Na’i Aupuni offered all delegate
candidates “a seat as a delegate” to the convention “to
learn about, discuss and hopefully reach a consensus
on a process to achieve self-governance.” Id. Plaintiffs
filed a motion for civil contempt in the Supreme Court
arguing that Defendant Na’i Aupuni’s actions
essentially declared all the candidates winners and
violated the Supreme Court’s injunction pending
appeal. See ECF No. 157-5. The Supreme Court
summarily denied Plaintiff’s motion. See Akina v.
Hawaii, 136 S.Ct. 922, 193 L. Ed. 2d 786 (2016). The
convention took place in February 2016, resulting in
a proposed constitution for a Native Hawaiian
government. Akina, 835 F.3d at 1009. Defendant Na’i
Aupuni decided not to fund a ratification vote and
returned the remaining grant funds allocated for the
ratification. Id. In April 2016, Na’i Aupuni dissolved
as an entity. Id.
On August 29, 2016, the Ninth Circuit issued
its decision dismissing as moot Plaintiffs’
interlocutory appeal of the district court’s decision to
deny Plaintiffs’ motion for a preliminary injunction.
Akina, 835 F.3d at 1011. In determining that
Plaintiffs’ appeal was moot, the Ninth Circuit focused
on the fact that the delegate election had been

43a
cancelled, no ratification vote was scheduled, and
Defendant Na’i Aupuni had dissolved as a non-profit
corporation. Id. On November 30, 2016, the district
court granted Plaintiffs’ motion to voluntarily dismiss
this action without prejudice. ECF No. 146. The
district court declined to award fees or costs to
Defendants as a condition of dismissal. Id. at 6. The
present Motion followed.
ANALYSIS
Courts may award reasonable attorneys’ fees to
the “prevailing party” in certain civil rights actions,
including those brought under 42 U.S.C. § 1983. See
42 U.S.C. § 1988(b). “Before deciding whether an
award of attorney’s fees is appropriate . . . a court
must determine whether the party seeking fees has
prevailed in the litigation.” CRST Van Expedited, Inc.
v. EEOC, 136 S.Ct. 1642, 1646, 194 L. Ed. 2d 707
(2016). “Congress has included the term ‘prevailing
party’ in various fee-shifting statutes, and it has been
the Court’s approach to interpret the term in a
consistent manner.” Id. A party “prevails” when there
has been a judicially sanctioned material alteration in
the legal relationship of the parties. See Buckhannon
Bd. & Care Home, Inc. v. W. Va. Dep’t of Health &
Human Res., 532 U.S. 598, 604-05, 121 S. Ct. 1835,
149 L. Ed. 2d 855 (2001); Farrar v. Hobby, 506 U.S.
103, 111-12, 113 S. Ct. 566, 121 L. Ed. 2d 494 (1992).
Here, Plaintiffs assert that the Supreme Court’s
injunction pending appeal conferred prevailing party
status on Plaintiffs. See ECF No. 152-1 at 12-13.
The Ninth Circuit has held that when making
a prevailing party determination in the context of “a

44a
plaintiff who wins a preliminary injunction but does
not litigate the case to final judgment,” the court must
address two questions: (1) “is the court’s preliminary
injunction ruling sufficiently ‘on the merits’ to satisfy
Buckhannon’s ‘judicial imprimatur’ requirement?”;
and (2) “has the plaintiff obtained relief sufficiently
enduring to satisfy the ‘material alteration of the
parties’ legal relationship’ requirement?” Higher
Taste, Inc. v. City of Tacoma, 717 F.3d 712, 715-16
(9th Cir. 2013) (quoting Buckhannon, 532 U.S. at
605). As discussed in detail below, the Court finds
that Plaintiffs are not the prevailing parties in this
action because the Supreme Court’s decision was not
sufficiently on the merits to satisfy the judicial
imprimatur requirement and, even assuming that it
was, Plaintiffs did not obtain relief sufficiently
enduring to satisfy the material alteration of the
parties’ legal relationship requirement.
1. Is the Supreme Court’s Injunction Ruling
Sufficiently On the Merits to Satisfy the
Judicial Imprimatur Requirement?
In resolving this question, the Ninth Circuit
has held that a preliminary injunction satisfies the
judicial imprimatur requirement if the preliminary
injunction “is based on a finding that the plaintiff has
shown a likelihood of success on the merits.” Higher
Taste, 717 F.3d at 716. In making this determination
the Ninth Circuit examined the express findings of
the court in granting the injunction and also
examined whether the preliminary injunction
hearing was “hasty and abbreviated.” Id. (citing Sole
v. Wyner, 551 U.S. 74, 127 S. Ct. 2188, 167 L. Ed. 2d
1069 (2007)). In Sole v. Wyner, the Supreme Court

45a
similarly examined whether a preliminary injunction
was a decision on the merits for purposes of awarding
attorneys fees. 551 U.S. 74, 127 S. Ct. 2188, 167 L. Ed.
2d 1069. The Supreme Court held that “[t]he
foundation for [the] assessment” of whether the court
considered the parties’ likelihood of success on the
merits depends “on the thoroughness of the
exploration undertaken by the parties and the court.”
Id. at 75. In that case, the Supreme Court noted that
“the preliminary injunction hearing was necessarily
hasty and abbreviated” and that there “was no time
for discovery, nor for adequate review of documents or
preparation and presentation of witnesses.” Id.
Here, the preliminary injunction at issue is the
injunction pending appellate review granted by
the Supreme Court on December 2, 2015. The
Supreme Court’s December 2, 2015 Order states in
full:
The application for injunction pending
appellate review presented to Justice
Kennedy and by him referred to the Court
is granted. Respondents are enjoined from
counting the ballots cast in, and certifying
the winners of, the election described in
the application, pending final disposition
of the appeal by the United States Court of
Appeals for the Ninth Circuit.
Justice Ginsburg, Justice Breyer, Justice
Sotomayor, and Justice Kagan would deny
the application.
ECF No. 123, Akina v. Hawaii, 136 S. Ct. 581, 193 L.
Ed. 2d 464 (2015). Based on the record in this action,

46a
the Court finds that the Supreme Court’s ruling was
not sufficiently on the merits to satisfy the judicial
imprimatur requirement.
First, the Court finds that given the timeline at
issue, the Supreme Court’s decision on Plaintiff’s
application was necessarily not based on a thorough
exploration of the merits. Plaintiffs filed their
emergency application to the Supreme Court on
November 23, 2015. See ECF No. 157-3. Justice
Kennedy directed that responses to the application
were due on November 25, 2015, and issued an order
on November 27, 2015, granting the application
pending further order of the court. ECF No. 157-4. On
December 2, 2015, the Supreme Court granted the
emergency application and enjoined Defendants
“from counting the ballots cast in, and certifying the
winners of, the election described in the application,
pending final disposition of the appeal by the United
States Court of Appeals for the Ninth Circuit.” ECF
No. 123. This abbreviated timeline, nine days from
initial submission to final decision, indicates that the
Supreme Court’s decision was not based on a
thorough consideration of Plaintiffs’ likelihood of
success on the merits. Although the circumstances
are different in this case than in the Supreme Court’s
decision in Sole v. Wyner, the Supreme Court’s
directive to consider the “the thoroughness of the
exploration undertaken by the parties and the court”
in determining whether the injunction was based on
a likelihood of success on the merits is equally
applicable here. See Sole, 551 U.S. at 75. The
Supreme Court considered Plaintiff’s emergency
application, the responses and reply thereto, but did
not conduct an evidentiary hearing or consider oral

47a
arguments. In contrast, this court held a three-and-ahalf-hour evidentiary hearing on Plaintiff’s motion for
preliminary injunction and heard testimony from
three witnesses and oral arguments from counsel. See
ECF No. 100. These circumstances indicate that the
Supreme Court’s decision was not based on a
thorough consideration of Plaintiff’s likelihood of
success on the merits.
Second, the Court is persuaded by the fact that
there is no express finding by the Supreme Court in
its decision that Plaintiffs showed a likelihood of
success on the merits. Plaintiffs argue that such a
finding can be implied based on the standard for
granting injunctions pending appellate review. See
ECF No. 152-1 at 13-16. Specifically, Plaintiffs argue
that injunctions issued pursuant to the All Writs Act,
as is the case here, are appropriate only if the legal
rights at issue are “indisputably clear.” Id. at 13
(citing Ohio Citizens for Responsible Energy, Inc. v.
Nuclear Regulatory Comm’n, 479 U.S. 1312, 107 S. Ct.
682, 93 L. Ed. 2d 692 (1986) (Scalia, J., in chambers)
(citations omitted)). Plaintiffs argue that the
Supreme Court necessarily found that Plaintiffs’ legal
rights were “indisputably clear” when it granted the
injunction pending appeal. Id. at 13-16. However, the
Supreme Court’s decision does not recite this
standard and makes no mention of Plaintiff’s legal
rights. See ECF No. 123. Under the All Writs Act,
“[t]he Supreme Court and all courts established by
Act of Congress may issue all writs necessary or
appropriate in aid of their respective jurisdictions and
agreeable to the usages and principles of law.” 28
U.S.C. § 1651. Although the Supreme Court has often
referred to the “indisputably clear” standard in its

48a
orders regarding injunctions under the All Writs Act,
the Supreme Court has also granted injunctions
pending appeal and expressly stated that the decision
to grant the injunction was not “an expression of the
Court’s views on the merits.” See Wheaton Coll. v.
Burwell, 134 S. Ct. 2806, 2807, 189 L. Ed. 2d 856
(2014); Little Sisters of the Poor Home for the Aged,
Denver, Colorado v. Sebelius, 134 S. Ct. 1022, 187 L.
Ed. 2d 867 (2014). Based on the circumstances of this
case, the Court finds that the Supreme Court’s
decision was not a determination on the likelihood of
success on the merits, but was instead a temporary
injunction issued to preserve the issues on appeal. To
hold otherwise would undermine the appellate
process. In denying Plaintiffs’ motion for preliminary
injunction, the district court held that Plaintiffs had
failed to demonstrate a likelihood of success on the
merits of their claims. See ECF No. 114 at 36-59.
Plaintiffs appealed that determination to the Ninth
Circuit. Plaintiffs now argue that the Supreme
Court’s decision granting an injunction pending
appeal was a determination of that very issue -- in
other words, Plaintiffs argue that the Supreme Court
decided that Plaintiffs were likely to succeed on the
merits of their claims when it issued the injunction
pending appeal. If the Court were to adopt Plaintiffs’
logic, the Court would essentially have to find that the
Supreme Court decided an issue that was pending on
direct appeal to the Ninth Circuit. The Court declines
to do so and finds that the Supreme Court's decision
was not sufficiently on the merits to satisfy the
judicial imprimatur requirement necessary to make
Plaintiffs the prevailing parties in this action.

49a
2. Have Plaintiffs Obtained Relief Sufficiently
Enduring to Satisfy the Material Alteration of
the Parties’ Legal Relationship Requirement?
Even assuming that the Court found that the
Supreme Court's decision was on the merits, the
Court also finds that Plaintiffs did not obtain relief
sufficiently enduring to satisfy the material
alteration of the parties’ legal relationship
requirement, and thus, Plaintiffs are not the
prevailing parties in this action.
In resolving this question, the Ninth Circuit
has held that “[a] material alteration of the parties’
legal relationship occurs when the plaintiff can force
the defendant to do something he otherwise would not
have to do.” Higher Taste, 717 F.3d at 716 (quoting
Fischer v. SJB-P.D. Inc., 214 F.3d 1115, 1118 (9th Cir.
2000)). Injunctions normally satisfy the material
alteration requirement for the time that they remain
in effect because “[t]hat is typically the whole point of
an injunction.” Id. However, the inquiry does not stop
there because in most cases, preliminary injunctions
are intended “to afford only temporary relief pending
the final resolution of the case.” Id. at 717. If the
plaintiff obtains only an “ephemeral” victory and does
not gain an “enduring” change in the legal
relationship of the parties, that plaintiff is not a
prevailing party. Id. (quoting Sole, 551 U.S. at 86). To
determine
whether
the material
alteration
requirement is satisfied, courts must also consider
“events post-dating the injunction’s issuance” to
determine whether the “injunction results in
sufficiently enduring change to warrant an award of
fees.” Id. Here, the Court finds that the injunction

50a
pending appeal and Defendants’ subsequent actions
did not materially alter the parties’ legal relationship
and did not result in an enduring change in the legal
relationship of the parties.
First, the Supreme Court’s decision preserved
the Ninth Circuit’s appellate jurisdiction, but did not
materially alter the parties’ legal relationship. The
Supreme Court’s injunction was limited to enjoining
Defendants “from counting the ballots cast in, and
certifying the winners of, the election described in the
application, pending final disposition of the appeal by
the United States Court of Appeals for the Ninth
Circuit.” See ECF No. 123. The injunction did not
cancel the election, stop voting, or prevent Defendants
from proceeding with the convention. The limited
scope of the Supreme Court’s injunction is
underscored by the Supreme Court’s denial of
Plaintiffs’ contempt motion. In that contempt motion,
Plaintiffs argued that Defendants violated the
Supreme Court’s injunction by inviting all delegate
candidates to participate in the convention and
proceeding with the convention as planned in
February 2016. See ECF No. 157-4. As noted above,
the Supreme Court summarily denied Plaintiffs’
motion for contempt. See Akina v. Hawaii, 136 S.Ct.
922, 193 L. Ed. 2d 786 (2016). Accordingly, the
Supreme Court’s decision did not materially alter the
parties’ legal relationship because Defendants were
able to invite all delegates to participate in the
convention, proceed with the convention, and propose
a governing document. The convention took place in
February 2016, resulting in a proposed constitution
for a Native Hawaiian government. Akina, 835 F.3d
at 1009. The Supreme Court’s decision did not

51a
prevent Defendants from using the Roll that
Plaintiffs challenged and did not change Plaintiffs’
ability to participate in the convention.
Second,
Defendants’
voluntary
actions
following the Supreme Court's decision did not result
in an enduring change in the legal relationship of the
parties. As noted above, Defendant Na’i Aupuni
decided not to fund a ratification vote and returned
the remaining grant funds allocated for the
ratification. Id. In April 2016, Na’i Aupuni dissolved
as an entity. Id. Although Defendants’ subsequent
actions mooted Plaintiffs’ appeal of the district court’s
order denying their motion for preliminary
injunction, there is nothing to prevent Plaintiffs from
bringing their claims in future litigation against
Defendants because Plaintiffs’ claims were ultimately
dismissed without prejudice. See ECF No. 146.
Although the Supreme Court’s decision temporarily
enjoined Defendants from proceeding with certain
election activities, neither that decision nor
Defendants’ subsequent voluntary actions, resulted in
a lasting alteration of the parties’ legal relationship.
See Higher Taste, 717 F.3d at 718; see also Watson v.
Cty. of Riverside, 300 F.3d 1092, 1096 (9th Cir. 2002)
(“it is not enough merely to have been a ‘catalyst’ in
causing a voluntary change in the defendant’s
conduct.”)(citing Buckhannon, 532 U.S. at 600)). The
Court finds that Plaintiffs did not obtain relief
sufficiently enduring to satisfy the material
alteration of the parties’ legal relationship
requirement, and thus, Plaintiffs are not the
prevailing parties in this action.
Because the Court FINDS that Plaintiffs are

52a
the not the prevailing parties in this action, the Court
RECOMMENDS that the district court DENY
Plaintiffs' Motion.
CONCLUSION
The Court FINDS and RECOMMENDS that
Plaintiffs' Amended Motion for Attorneys' Fees and
Related Non-Taxable Expenses be DENIED.
IT IS SO FOUND AND RECOMMENDED.
DATED AT HONOLULU, HAWAII, FEBRUARY 24,
2017.
/s/ Richard L. Puglisi
Richard L. Puglisi
United States Magistrate Judge

53a
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF HAWAII
No. 15-00322 JMS-RLP
Kelii Akina, et al.,
Plaintiffs,
v.
The State of Hawaii, et al.,
Defendants.
ORDER GRANTING PLAINTIFFS’ MOTION TO
VOLUNTARILY DISMISS COMPLAINT, ECF
NO. 141
I. INTRODUCTION
Plaintiffs Keli’i Akina, Kealii Makekau, Joseph
Kent, Yoshimasa Sean Mitsui, Pedro Kana’i Gapero,
and Melissa Leina’ala Moniz (collectively, “Plaintiffs”)
move pursuant to Federal Rule of Civil Procedure
41(a)(2) to voluntarily dismiss their Complaint
without prejudice. ECF No. 141. Defendants the
Akamai Foundation and Na’i Aupuni, and the State
Defendants 1 (joined by the Office of Hawaiian Affairs
1 The

State Defendants are the State of Hawaii; Governor David
Y. Ige in his official capacity; John D. Waihe’e III, Chairman,
Native Hawaiian Roll Commission, in his official capacity;
Na’alehu Anthony, Lei Kihoi, Robin Danner, and Mahealani
Wendt, Commissioners of the Native Hawaiian Roll
Commission, in their official capacities; and Clyde W. Namuo,
Executive Director, Native Hawaiian Roll Commission, in his
official capacity.

54a
Defendants 2) have each filed oppositions, arguing
that dismissal should be with prejudice and/or
dismissal should be conditioned on Plaintiffs’
payment of fees and costs. ECF Nos. 143-45. The court
decides the Motion without an oral hearing under
Local Rule 7.2(d).
II. BACKGROUND
The court need not set forth the procedural
history of this case, which involved extensive
proceedings on Plaintiffs’ Motion for Preliminary
Injunction and is detailed in several published
decisions. See Akina v. Hawaii, 141 F. Supp. 3d 1106
(D. Haw. 2015) (denying motion for preliminary
injunction); Akina v. Hawaii, 136 S. Ct. 581, 193 L.
Ed. 2d 464 (2015) (granting injunction in part); Akina
v. Hawaii, 835 F.3d 1003 (9th Cir. 2016) (affirming in
part and dismissing appeal as moot in part). What is
important now, however, is that the subject election
was cancelled, no related election or vote is pending,
and Defendant Na’i Aupuni has been dissolved. The
court also takes judicial notice that Plaintiff Keli’i
Akina was recently elected as an Office of Hawaiian
Affairs Trustee, where such Trustees in their official

2 The

Office of Hawaiian Affairs Defendants are Robert K.
Lindsey Jr., Chairperson, Board of Trustees, Office of Hawaiian
Affairs, in his official capacity; Colette Y. Machado, Peter Apo,
Haunani Apoliona, Rowena M.N. Akana, John D. Waihe’e IV,
Carmen Hulu Lindsey, Dan Ahuna, and Leina’ala Ahu Isa,
Trustees, Office of Hawaiian Affairs, in their official capacities;
and Kamana’opono Crabbe, Chief Executive Officer, Office of
Hawaiian Affairs, in his official capacity.

55a
capacities are Defendants in this action. 3
Although the Motion does not ask the court to
determine whether this suit is now moot (or is no
longer ripe), the court agrees with the Ninth Circuit’s
reasoning when it dismissed Plaintiffs’ interlocutory
appeal:
It is possible . . . that a different group of
individuals who are not parties to this case
will try to hold a ratification election with
private and public funds. No such vote,
however, has been scheduled, and it is
unclear what shape it would take. Any
opinion by this court at this juncture
would amount to an impermissible
advisory opinion that would, at most,
guide any future ratification efforts.
835 F.3d at 1010-11. In any event, regardless
of mootness or ripeness, Plaintiffs seek to dismiss the
action without prejudice under Rule 41.
III. DISCUSSION
Rule 41(a)(2) provides, in pertinent part:
(a) Voluntary Dismissal.
....

3 Without

more, once Akina takes office, he will effectively be
both a Plaintiff and a Defendant. See Fed. R. Civ. P. 25(d) (“[A
public] officer’s successor is automatically substituted as a
party.”).

56a
(2) By Court Order; Effect. Except as
provided in Rule 41(a)(1), an action may be
dismissed at the plaintiff’s request only by
court order, on terms that the court
considers proper. . . . Unless the order
states otherwise, a dismissal under this
paragraph (2) is without prejudice.
“A district court should grant a motion for
voluntary dismissal under Rule 41(a)(2) unless a
defendant can show that it will suffer some plain legal
prejudice as a result.” Smith v. Lenches, 263 F.3d 972,
976 (9th Cir. 2001) (citations omitted). “’[L]egal
prejudice’ means ‘prejudice to some legal interest,
some legal claim, some legal argument.’” Id. (quoting
Westlands Water Dist. v. United States, 100 F.3d 94,
97 (9th Cir. 1996)). “’[U]ncertainty because a dispute
remains unresolved’ or because ‘the threat of future
litigation . . . causes uncertainty’ does not result in
plain legal prejudice.” Id. (quoting Westlands Water
Dist., 100 F.3d at 96-97). “Also, plain legal prejudice
does not result merely because the defendant will be
inconvenienced by having to defend in another forum
or where a plaintiff would gain a tactical advantage
by that dismissal.” Id. (citing Hamilton v. Firestone
Tire & Rubber Co., 679 F.2d 143, 145 (9th Cir. 1982)).
Furthermore, “the expense incurred in defending
against a lawsuit does not amount to legal prejudice.”
Westlands Water Dist., 100 F.3d at 97.
The State and OHA Defendants do not oppose
dismissal, but contend that dismissal should be with
prejudice (not without), arguing that “Plaintiffs
should not be permitted to resort to Rule 41 so they
can refile their claims later. In light of the history of

57a
this case, it would be grossly inequitable and
prejudicial to State Defendants to allow Plaintiffs to
potentially refile this action in the future.” State
Defs.’ Response at 4, ECF No. 144. Likewise,
Defendants Na’i Aupuni and the Akamai Foundation
contend that dismissal without prejudice is improper
-- they seek fees and costs under Rule 41, reasoning
in part that this is a “situation[] where the same suit
will be refiled and will result in the imposition of
duplicative expenses.” Na’i Aupuni Opp’n at 9, ECF
No. 143 (citation and internal quotation marks
omitted).
Defendants have not established “legal
prejudice” under Rule 41(a)(2). See, e.g., Hamilton,
679 F.2d at 145 (“Plain legal prejudice, however, does
not result simply when defendant faces the prospect
of a second lawsuit[.]”); Westlands Water Dist., 100
F.3d at 97 (“Uncertainty because a dispute remains
unresolved is not legal prejudice.”). And there is no
basis for dismissal with prejudice -- final judgment
was not entered nor has there been an “adjudication
on the merits.” See Semtek Int’l, Inc. v. Lockheed
Martin Corp., 531 U.S. 497, 505, 121 S. Ct. 1021, 149
L. Ed. 2d 32 (2001) (“Rule 41 . . . use[s] the phrase
‘without prejudice’ as a contrast to adjudication on the
merits.”) (quoting 18 C. Wright, A. Miller & E. Cooper,
Federal Practice and Procedure § 4435 at 329 n.4
(1981)); id. (“’[W]ith prejudice’ is an acceptable form
of shorthand for ‘an adjudication upon the merits.’”)
(quoting 9 Wright & Miller § 2373 at 396 n.4)). Any
similar future challenge would necessarily be based
on a different election or new set of facts. See Na’i
Aupuni Opp’n at 7 (“Simply put, the factual
allegations that formed the basis for Plaintiffs’ claims

58a
are no longer sustainable as against [Na’i Aupuni]
and Akamai, and never will support such claims.”).
The court also declines to award fees or costs to
Defendants as a condition of dismissal under Rule
41(a)(2). See, e.g., Westlands Water Dist., 100 F.3d at
97 (“Imposition of costs and fees as a condition for
dismissing without prejudice is not mandatory[.]”);
Legacy Mortg., Inc. v. Title Guar. Escrow Servs., Inc.,
2013 U.S. Dist. LEXIS 67343, 2013 WL 1991563, at
*2 (D. Haw. May 10, 2013) (“District courts have
broad discretion to impose an award of attorneys’ fees
as a condition for dismissing an action without
prejudice.”). Moreover, through all proceedings in this
litigation, Defendants have gained detailed insight
and knowledge of precise legal and factual issues that
may arise in the future -- work product that can
certainly be useful if a similar suit is filed later. See
Westlands Water Dist., 100 F.3d at 97 (“[D]efendants
should only be awarded attorney fees [under Rule 41]
for work which cannot be used in any future litigation
of these claims.”) (citations omitted); Koch v. Hankins,
8 F.3d 650, 652 (9th Cir. 1993) (“Only those costs
incurred for the preparation of work product rendered
useless by the dismissal should be awarded as a
condition of the voluntary dismissal.”).
IV. CONCLUSION
Plaintiffs’ Motion to Voluntarily Dismiss
Complaint, ECF No. 141, is GRANTED. This action is
DISMISSED without prejudice under Federal Rule of
Civil Procedure 41(a)(2). The Clerk of Court shall
close the case file.

59a
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, November 30, 2016.
/s/ J. Michael Seabright
J. Michael Seabright
United States District Judge

60a
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
Filed August 29, 2016
No. 15-17134, No. 15-17453
Akina, et al.,
Appellants
v.
Hawaii, et al.
Appellees.
MEMORANDUM OPINION
Before: Sidney R. Thomas, Chief Judge, and
Consuelo M. Callahan and Mary H. Murguia, Circuit
Judges
PER CURIAM:
These appeals concern recent efforts by a group
of Native Hawaiians to establish their own
government. The plaintiffs are Hawaii residents who
challenge that process. They appeal the district
court’s order denying their request for a preliminary
injunction to stop activities related to the drafting and
ratification of self-governance documents. Separately,
another group of Hawaii residents appeals the district
court’s denial of their motion to intervene in the
plaintiffs’ lawsuit. For the reasons that follow, we
dismiss the plaintiffs’ appeal of the preliminary

61a
injunction order as moot, and we affirm the district
court’s denial of the motion to intervene.
I.
In 2011, the Hawaii Legislature approved
measures “to provide for and to implement the
recognition of the Native Hawaiian people by means
and methods that will facilitate their selfgovernance.” Haw. Rev. Stat. § 10H-2. The legislation
contemplated
that
Native
Hawaiians
may
“independently” host a convention “for the purpose of
organizing themselves.” Id. § 10H-5. The legislation
also established a commission to maintain “a roll of
qualified Native Hawaiians” who are descendants of
the indigenous peoples who founded the Hawaiian
nation. Id. § 10H-3.1. 1
Na’i Aupuni, one of the defendants in this case,
was a Hawaiian non-profit corporation that supported
those Native Hawaiian self-governance efforts. In
2015, Na’i Aupuni proposed holding a constitutional
A dispute exists over the definition of “qualified Native
Hawaiian” used in the 2011 legislation. The statute at issue
defines “qualified Native Hawaiian” in part as an adult
“descendant of the aboriginal peoples who, prior to 1778,
occupied and exercised sovereignty in the Hawaiian islands.”
Haw. Rev. Stat. § 10H-3(a)(2)(A)(i). That liberal definition,
however, has no blood quantum requirement, unlike the
admission requirements of most Native American tribes. See
Rice v. Cayetano, 528 U.S. 495, 526-27, 120 S. Ct. 1044, 145 L.
Ed. 2d 1007 (2000) (Breyer, J., concurring). The prospective
intervenors in this case are among those who believe the
definition of Native Hawaiian should be more restrictive. In this
opinion, “Native Hawaiian” refers to the definition in the 2011
legislation, unless otherwise noted.
1

62a
convention or gathering, termed an ‘Aha, 2 to discuss
and draft self-governance documents, such as a
constitution. Na’i Aupuni requested and received
grant funds from a state agency, the Office of
Hawaiian Affairs (OHA), for the “election of
delegates, election and referendum monitoring, a
governance ‘Aha, and a referendum to ratify any
recommendation of the delegates arising out of the
‘Aha.” To select delegates for the convention, the
organization scheduled a vote-by-mail election and
limited the pool of candidates and voters to Native
Hawaiians who appeared on the roll maintained by
the state commission.
The delegate election was scheduled for
November 1 through November 30, 2015. The elected
delegates would then attend the constitutional
convention to discuss forming a government, and to
possibly draft a constitution. Any proposed
constitution would then be subject to a ratification
vote, with the universe of voters again limited to
Native Hawaiians included on the roll maintained by
the state commission. At the end of the process, any
resulting government would lack an official legal
status until it was recognized by the state or federal
government.
In August 2015, three months before the
planned delegate election, the plaintiffs sued the
State of Hawaii, various state government officers
and agencies, Na’i Aupuni, and another non-profit
An ‘Aha is defined as a “[m]eeting, assembly, gathering,
convention, court, party.” Ulukau Hawaiian Dictionary,
available at http://wehewehe.org.
2

63a
organization that was a party to the agreement that
provided state funds for Na’i Aupuni’s election efforts.
Central to the lawsuit was the contention that the
delegate election and any election to ratify a
constitution were unconstitutional because the state
was intertwined in the process and had limited
participation based on Hawaiian ancestry. The
complaint specifically alleged various violations of the
United States Constitution and Voting Rights Act
arising from the race-based and viewpoint-based
restrictions on voting and candidate eligibility.
Among the requested relief, the plaintiffs sought an
injunction to prevent the use of the contested roll of
Native Hawaiians and “the calling, holding, or
certifying of any election utilizing the Roll.” The
complaint further asked the court to “enjoin[] the
defendants from requiring prospective applicants for
any voter roll to” make any viewpoint-based
declarations or verify their ancestry.
Approximately two weeks after filing the
complaint, the plaintiffs moved for a preliminary
injunction to “prevent[] Defendant’s [sic] from
undertaking certain voter registration activities and
from calling or holding racially-exclusive elections for
Native Hawaiians.” A month later, on September 25,
2015, a separate group of Hawaii residents moved to
intervene in the lawsuit to challenge the definition of
“Native Hawaiian” adopted by Na’i Aupuni and the
2011 state legislation. The residents also sought to
recover state trust funds—designated to benefit
Native Hawaiians—used in the election efforts.

64a
The district court denied the preliminary
injunction request after concluding that the plaintiffs
had not met any of the requirements described in
Winter v. Natural Resources Defense Council, Inc., 555
U.S. 7, 129 S. Ct. 365, 172 L. Ed. 2d 249 (2008). The
district court later denied the motion to intervene,
reasoning that the prospective intervenors did not
have a “significantly protectable interest relating to”
the subject of the plaintiffs’ lawsuit, and that they
were not “situated such that the disposition of the”
lawsuit “may impair or impede” their ability to
protect any such interest, quoting Arakaki v.
Cayetano, 324 F.3d 1078, 1083 (9th Cir. 2003).
The plaintiffs appealed the district court’s
preliminary injunction order and sought an
injunction pending appeal from this court. A motions
panel denied the request for an injunction pending
appeal. On November 27, 2015, three days before
voting in the delegate election was to end, Justice
Kennedy enjoined the counting of ballots and
certification of winners “pending further order.”
Akina v. Hawaii, __ S. Ct. __, 193 L. Ed. 2d 420 (Nov.
27, 2015) (mem.). On December 2, 2015, a five-Justice
majority of the Supreme Court enjoined the
defendants “from counting ballots cast in, and
certifying winners of, the election described in the
application, pending final disposition of the appeal
by” this court. Akina v. Hawaii, 136 S. Ct. 581, 193 L.
Ed. 2d 464 (2015) (mem.).
Two weeks after the Supreme Court’s order,
Na’i Aupuni cancelled the election due to concern
about litigation-related delays. Instead of the

65a
election, the organization decided to offer all 196
Native Hawaiian candidates “a seat as a delegate” to
the convention “to learn about, discuss and hopefully
reach a consensus on a process to achieve selfgovernance.” The plaintiffs then filed a motion for
civil contempt in the Supreme Court, alleging that
Na’i Aupuni’s decision essentially declared all the
candidates winners, in violation of the Court’s
previous order. The Supreme Court denied the
contempt motion. Akina v. Hawaii, 136 S.Ct. 922, 193
L. Ed. 2d 786 (2016) (mem.).
The ‘Aha took place in February 2016,
resulting in a proposed constitution for a Native
Hawaiian government. Na’i Aupuni, however, decided
not to fund a ratification vote and stated that it would
return remaining grant funds allocated for the
ratification election. No other elections have been
proposed and no governing entity has been formed or
recognized by the state or federal government.
In April 2016, Na’i Aupuni dissolved as an
entity. Although it appears that some ‘Aha
participants are separately trying to organize and
raise private funds for a ratification vote, it remains
unclear what such an election would look like, who
would hold it, and when it would take place, if at all.
II.
On appeal, the plaintiffs challenge the district
court’s order denying their request for a preliminary
injunction. The prospective intervenors challenge the

66a
denial of their motion to intervene. We consider each
in turn.
A.
This court has jurisdiction under 28 U.S.C. §
1292 to review the district court’s denial of
preliminary injunctive relief. The court, however, has
no jurisdiction over an appeal that has become moot.
Foster v. Carson, 347 F.3d 742, 745 (9th Cir. 2003).
An interlocutory appeal of the denial of a
preliminary injunction is moot when a court can no
longer grant any effective relief sought in the
injunction request. See In Def. of Animals v. U.S.
Dep’t of Interior, 648 F.3d 1012, 1013 (9th Cir. 2011)
(per curiam); see generally Campbell-Ewald Co. v.
Gomez, 136 S. Ct. 663, 669, 193 L. Ed. 2d 571 (2016).
The interlocutory appeal may be moot even though
the underlying case still presents a live controversy.
In Def. of Animals, 648 F.3d at 1013; see also CMM
Cable Rep., Inc. v. Ocean Coast Props., Inc., 48 F.3d
618, 621 (1st Cir. 1995).
Here, the plaintiffs sought a preliminary
injunction solely to “prevent[] Defendant’s [sic] from
undertaking certain voter registration activities and
from calling or holding racially-exclusive elections for
Native Hawaiians.” Before the district court, the
plaintiffs focused their injunction request on the
delegation election. That election, however, has been
cancelled, and the plaintiffs do not argue that similar
elections will occur in the future. Instead, the
plaintiffs argue on appeal that the injunction should

67a
encompass a ratification vote on the draft constitution
produced at the ‘Aha. Na’i Aupuni, however, has
decided not to call a ratification vote. No other
ratification elections have been scheduled. Further,
Na’i Aupuni itself has dissolved as a non-profit
corporation and any future election would likely be
held by an entity that is not a party to this litigation.
Given those changed circumstances, this court cannot
provide any effective relief sought in the preliminary
injunction request.
We also conclude that the plaintiffs’ appeal
does not fall within an exception to the mootness
doctrine. Under the voluntary cessation exception, a
defendant’s decision to stop a challenged practice
generally “does not deprive a federal court of its power
to determine the legality of the practice.” Friends of
the Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc.,
528 U.S. 167, 189, 120 S. Ct. 693, 145 L. Ed. 2d 610
(2000) (quoting City of Mesquite v. Aladdin's Castle,
Inc., 455 U.S. 283, 289, 102 S. Ct. 1070, 71 L. Ed. 2d
152 (1982)); see also Knox v. Serv. Emps. Int’l Union,
Local 1000, 567 U.S. 298, 132 S. Ct. 2277, 2287, 183
L. Ed. 2d 281 (2012) (remarking that post-appeal
“maneuvers designed to insulate a decision from
review by [an appellate court] must be viewed with a
critical eye”). But even in such circumstances, an
appeal may be properly dismissed as moot if events
make “it absolutely clear that the allegedly wrongful
behavior could not reasonably be expected to recur.”
Friends of the Earth, 528 U.S. at 189 (citing United
States v. Concentrated Phosphate Exp. Ass’n, 393 U.S.
199, 203, 89 S. Ct. 361, 21 L. Ed. 2d 344 (1968)). Here,
for the reasons previously discussed, the defendants

68a
have met their burden to convince “the court that the
challenged conduct cannot be reasonably expected to
start up again.” Id.
It is possible, and perhaps even likely, that a
different group of individuals who are not parties to
this case will try to hold a ratification election with
private and public funds. No such vote, however, has
been scheduled, and it is unclear what shape it would
take. Any opinion by this court at this juncture would
amount to an impermissible advisory opinion that
would, at most, guide any future ratification efforts.
See Princeton Univ. v. Schmid, 455 U.S. 100, 102, 102
S. Ct. 867, 70 L. Ed. 2d 855 (1982) (per curiam) (“We
do not sit to decide hypothetical issues or to give
advisory opinions about issues as to which there are
not adverse parties before us.”).
For similar reasons, this appeal does not fall
within the exception to mootness for disputes that are
“capable of repetition, yet evading review.” Weinstein
v. Bradford, 423 U.S. 147, 148-49, 96 S. Ct. 347, 46 L.
Ed. 2d 350 (1975) (per curiam). That exception is
reserved for “’extraordinary cases’ in which (1) ‘the
duration of the challenged action is too short to be
fully litigated before it ceases,’ and (2) ‘there is a
reasonable expectation that the plaintiffs will be
subjected to the same action again.’” Doe v. Madison
Sch. Dist. No. 321, 177 F.3d 789, 798 (9th Cir. 1999)
(en banc) (quoting Am. Rivers v. Nat’l Marine
Fisheries Serv., 126 F.3d 1118, 1124 (9th Cir. 1997));
accord United States v. Juvenile Male, 564 U.S. 932,
938, 131 S. Ct. 2860, 180 L. Ed. 2d 811 (2011) (per
curiam).

69a
Here, the plaintiffs cannot satisfy the second
requirement. There is no reasonable expectation that
the plaintiffs will be subject to the same injury again,
given Na’i Aupuni’s disavowal of any election.
Further, the district court retains jurisdiction over
the underlying lawsuit, and dismissing the
preliminary injunction appeal will not, by itself,
insulate the defendants’ practices from judicial
scrutiny. 3
We
therefore
dismiss
interlocutory appeal as moot.

the

plaintiffs’

B.
We separately affirm the district court’s denial
of the motion to intervene as of right in the plaintiffs’
underlying lawsuit. The prospective intervenors
qualify as Native Hawaiians under a definition that
is narrower than the one in the 2011 legislation. They
seek to challenge the more liberal definition, the
creation of a Native Hawaiian government based on
that definition, and the related expenditure of state
trust funds intended to benefit Native Hawaiians.
This court conducts a de novo review of the
district court’s order adjudicating a claim of
intervention as of right. Arakaki, 324 F.3d at 1082. To
the extent that the proposed intervenors seek to stop
the delegate and ratification elections, their appeal is
We pass no judgment on what aspects of the plaintiffs’
lawsuit continue to present a live controversy.
3

70a
moot for the reasons previously discussed. To the
extent that they seek to intervene on other grounds—
such as to recover state funds already spent on
election efforts—we hold that the district court did
not err by denying the motion to intervene.
Under Federal Rule of Civil Procedure 24(a),
an individual seeking to intervene as of right must (1)
timely move to intervene; (2) demonstrate “a
significantly protectable interest relating to the
property or transaction that is the subject of the
action”; (3) “be situated such that the disposition of
the action may impair or impede the party’s ability to
protect that interest”; and (4) not be adequately
represented by existing parties. Id. at 1083. The
question of whether protectable interests will be
impaired by litigation “must be put in practical terms
rather than in legal terms.” 7C Charles Alan Wright,
Arthur R. Miller & Mary Kay Kane, Federal Practice
and Procedure § 1908.2 (3d ed. 2007); see also Smuck
v. Hobson, 408 F.2d 175, 179, 132 U.S. App. D.C. 372
(D.C. Cir. 1969) (“The decision whether intervention
of right is warranted . . . involves an accommodation
between two potentially conflicting goals: to achieve
judicial economies of scale by resolving related issues
in a single lawsuit, and to prevent the single lawsuit
from becoming fruitlessly complex or unending.”).
We agree with the district court that the
prospective intervenors’ interests would not, as a
practical matter, be impaired or impeded as a result
of the plaintiffs’ litigation. The district court properly
reasoned that the prospective intervenors’ claims
would raise entirely different issues from those raised

71a
by the plaintiffs, and that the proposed intervenors
could adequately protect their interests in separate
litigation. Whereas the plaintiffs argue that the state
is being too restrictive in limiting participation in the
formation of a Native Hawaiian government, the
proposed intervenors would argue that the state
should be more restrictive. Further, as the district
court noted, the prospective intervenors’ challenge to
the expenditure of state trust funds would “expand
the suit well beyond the scope of the current action.”
See Arakaki, 324 F.3d at 1086 (holding that a
prospective intervenor was “not permitted to inject
new, unrelated issues into the pending litigation”).
Regardless of how the plaintiffs’ lawsuit is resolved,
the prospective intervenors will remain free to
attempt to organize a native government based on the
narrower definition of Native Hawaiian, and then
seek state and federal recognition. Further, the
prospective intervenors may bring a separate action
challenging the expenditure of trust funds, just as
they have done previously in analogous contexts. See
Day v. Apoliona, 616 F.3d 918, 927 (9th Cir. 2010)
(holding that the OHA could legally use trust money
to support legislation that defined “Native Hawaiian”
without a blood quantum requirement); Kealoha v.
Machado, 131 Haw. 62, 315 P.3d 213, 229-30 (Haw.
2013) (upholding the dismissal of the prospective
intervenors’ claim that OHA’s expenditure of trust
funds for the benefit of a broader set of “Native
Hawaiians” was a breach of fiduciary duty).
We therefore affirm the district court's order
denying intervention as of right.

72a
III.
For the aforementioned reasons, we DISMISS
the plaintiffs’ interlocutory appeal as moot and
AFFIRM the district court’s denial of the motion to
intervene.

73a
(ORDER LIST:

577 U.S.)

WEDNESDAY, DECEMBER 2, 2015
ORDER IN PENDING CASE
15A551

AKINA, KELI’I, ET AL., V. HAWAII,
ET AL.

The application for injunction pending
appellate review presented to Justice Kennedy and by
him referred to the Court is granted. Respondents are
enjoined from counting the ballots cast in, and
certifying the winners of, the election described in the
application, pending final disposition of the appeal by
the United States Court of Appeals for the Ninth
Circuit.
Justice Ginsburg, Justice Breyer, Justice
Sotomayor, and Justice Kagan would deny the
application.

74a
SUPREME COURT OF THE UNITED STATES
No. 15A551
KELI’I AKINA, ET AL.,
v.

Applicants,

HAWAII, ET AL.
___________
ORDER
___________
UPON CONSIDERATION of the application of
counsel for the applicants, the responses filed thereto,
and the reply,
IT IS ORDERED that the respondents are
enjoined from counting the ballots cast in, and
certifying the winners of, the election described in the
application, pending further order of the undersigned
or of the Court.

/s/ Anthony M. Kennedy
Associate Justice of the Supreme
Court of the United States
Dated this 27th
day of November, 2015.

75a
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
Filed: November 19, 2015
No. 15-17134
Keli’i Akina, et al.,
Plaintiffs-Appellants,
v.
Hawaii, et al.
Defendants-Appellees.
ORDER
Before: W. FLETCHER, N.R. SMITH, and OWENS,
Circuit Judges.
This is a preliminary injunction appeal.
Appellants have filed an urgent motion to enjoin,
pending disposition of this appeal, appellee N’ai
Aupuni from counting votes in an election that
concludes on November 30, 2015. 1
The November 5, 2015 submission by non-party American Civil
Rights Union and the November 9, 2015 submission by nonparty the United States are construed as requests for leave to
file briefs in support of or in opposition to the urgent motion. So
construed, the requests are granted. The respective briefs have
been considered for purposes of disposition of the urgent motion
only.
The court has received the November 9, 2015 “Notice of Absent
Necessary and Indispensable Party” (the “Notice”) filed by
attorney Lanny Alan Sinkin on behalf of a non-party purporting
to be the Kingdom of Hawai’i. To the extent the Notice seeks
relief from this court, it is referred to the panel assigned to decide
1

76a
To justify an immediate injunction pending
appeal, appellants must establish (1) a likelihood of
the success on the merits of the appeal; (2) that they
are likely to be irreparably harmed if the vote
counting is not enjoined pending disposition of the
appeal; (3) that the balance of the equities tips in their
favor; and (4) that it is in the public interest to issue
an injunction pending disposition of the appeal. See
Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7,
20 (2008); Alliance for the Wild Rockies v. Cottrell, 632
F.3d 1127, 1131 (9th Cir. 2011). We conclude that, at
this stage, appellants have not made the required
showing. Accordingly, the urgent motion is denied.
The previously established briefing schedule
remains in effect for this appeal. To the extent that
any non-party seeks to file an amicus brief with
respect to the merits of the preliminary injunction
appeal, it shall comply with Federal Rule of Appellate
Procedure 29.

the merits of this appeal for whatever consideration the panel
deems appropriate.

77a
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF HAWAII
No. 15-00322 JMS-RLP
Kelii Akina, et al.,
Plaintiffs,
v.
The State of Hawaii, et al.,
Defendants.
ORDER DENYING PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION, DOC. NO. 47
I. INTRODUCTION
Defendant Nai Aupuni 1 is conducting an
election of Native Hawaiian delegates to a proposed
convention of Native Hawaiians to discuss, and
perhaps to organize, a “Native Hawaiian governing
Nai Aupuni is “a Hawaii non-profit corporation that
supports efforts to achieve Native Hawaiian self-determination.”
Doc. No. 79-1, James Asam Decl. ¶ 6.
Some names and Hawaiian language words use the
diacritical markings “<okina” and “kahako” to indicate proper
pronunciation or meaning. “The <okina is a glottal stop, similar
to the sound between the syllables of ‘oh-oh.’. . . . The kahako is
a macron, which lengthens and adds stress to the marked
vowel.” See https://www.hawaii.edu/site/info/diacritics.php (last
accessed Oct. 27, 2015). But because different pleadings and
sources use the markings inconsistently or improperly, this
Order omits these diacritical marks for uniformity and to avoid
compatibility issues between properly-used marks and
electronic/internet publication.
1

78a
entity.” Delegate candidates have been announced,
and voting is to run from November 1, 2015 to
November 30, 2015. Plaintiffs 2 have filed a Motion for
Preliminary Injunction seeking, among other relief, to
halt this election.
The voters and delegates in this election are
based on a “Roll” of “qualified Native Hawaiians” as
set forth in Act 195, 2011 Haw. Sess. Laws, as
amended (the “Native Hawaiian Roll” or “Roll”). A
“qualified Native Hawaiian” is defined as an
individual, age eighteen or older, who certifies that
they (1) are “a descendant of the aboriginal peoples
who, prior to 1778, occupied and exercised
sovereignty in the Hawaiian islands, the area that
now constitutes the State of Hawaii,” Haw. Rev. Stat.
(“HRS”) § 10H-3(a)(2)(A), and (2) have “maintained a
significant cultural, social, or civic connection to the
Native Hawaiian community and wishes to
participate in the organization of the Native
Hawaiian governing entity.” HRS § 10H-3(a)(2)(B).
Through a registration process, the Native
Hawaiian Roll Commission (the “commission”) asked
or required prospective registrants to the Roll to make
the following three declarations:
•

Declaration
One.
I
affirm
the
unrelinquished sovereignty of the Native
Hawaiian people, and my intent to

The Plaintiffs are Kelii Akina, Kealii Makekau, Joseph
Kent, Yoshimasa Sean Mitsui, Pedro Kanae Gapero, and Melissa
Leinaala Moniz. Their backgrounds, as relevant to this suit, are
discussed later in this Order.
2

79a

•
•

participate in the process of selfgovernance.
Declaration Two. I have a significant
cultural, social or civic connection to the
Native Hawaiian community.
Declaration Three. I am a Native
Hawaiian: a lineal descendant of the
people who lived and exercised sovereignty
in the Hawaiian islands prior to 1778, or a
person who is eligible for the programs of
the Hawaiian Homes Commission Act,
1920, or a direct lineal descendant of that
person.

Doc. No. 1, Compl. ¶ 42; Doc. No. 47-9, Pls.’ Ex. A.
Separately, the Roll also includes as qualified Native
Hawaiians “all individuals already registered with
the State as verified Hawaiians or Native Hawaiians
through the office of Hawaiian affairs [(“OHA”)] as
demonstrated by the production of relevant [OHA]
records[.]” HRS § 10H-3(a)(4). Those on the Roll
through an OHA registry do not have to affirm
Declarations One or Two.
Plaintiffs filed suit on August 13, 2015, alleging
that these “restrictions on registering for the Roll”
violate the U.S. Constitution and the Voting Rights
Act of 1965, 52 U.S.C. § 10301. Doc. No. 1, Compl. ¶
1. As to the constitutional claims, they allege
violations of (1) the Fifteenth Amendment; (2) the
Equal Protection and Due Process clauses of the
Fourteenth Amendment; and (3) the First
Amendment. They further allege that Nai Aupuni is
acting “under color of state law” for purposes of 42

80a
U.S.C. § 1983, and is acting jointly with other state
actors. 3 Id. ¶¶ 59, 68, 70, 72, 74. The Complaint seeks
to enjoin Defendants “from requiring prospective
applicants for any voter roll to confirm Declaration
One, Declaration Two, or Declaration Three, or to
verify their ancestry.” Id. at 32, Prayer ¶ 2. The
Complaint also seeks to enjoin “the use of the Roll
that has been developed using these procedures, and
the calling, holding, or certifying of any election
utilizing the Roll.” Id. ¶ 3.
To that end, Plaintiffs have moved for a
preliminary injunction, seeking an Order preventing
Defendants “from undertaking certain voter
registration activities and from calling or holding
racially-exclusive elections for Native Hawaiians, as
explained in Plaintiffs’ Complaint.” Doc. No. 47, Pls.’
Mot. at 3. They seek to stop the election of delegates,
and thereby halt the proposed convention.
The court heard Plaintiffs’ Motion for
Preliminary Injunction on October 20, 2015, and fully
considered all written and oral argument, as well as
In addition to Nai Aupuni, the Complaint names as
Defendants: (1) the Akamai Foundation; (2) the State of Hawaii,
Governor David Ige, the Commissioners of the Native Hawaiian
Roll Commission (Chair John D. Waihee III, Naalehu Anthony,
Lei Kihoi, Robin Danner, Mahealani Wendt), and Clyde W.
Namuo, Executive Director, Native Hawaiian Roll Commission,
all in their official capacities (collectively the “State
Defendants”); and (3) OHA Trustees (Chair Robert Lindsey, Jr.,
Colette Y. Machado, Peter Apo, Haunani Apoliona, Rowena M.N.
Akana, John D. Waihee, IV, Carmen Hulu Lindsey, Dan Ahuna,
Leinaala Ahu Isa), and Kamanaopono Crabbe, OHA Chief
Executive, all in their official capacities (collectively, the “OHA
Defendants”).
3

81a
the evidence properly submitted in the record. The
court issued an oral ruling on October 23, 2015,
explaining much of the court’s reasoning and
analysis. This written ruling provides further
background and explanation, but is substantively the
same as the oral ruling. 4 Based on the following,
Plaintiffs’ Motion is DENIED.
II. BACKGROUND
A. Act 195 and the Native Hawaiian Roll
On October 26, 2015, Plaintiffs filed a Notice of
Interlocutory Appeal of the court’s ruling. Doc. No. 106. “The
general rule is that once a notice of appeal has been filed, the
lower court loses jurisdiction over the subject matter of the
appeal.” Bennett v. Gemmill (In re. Combined Metals Reduction
Co.), 557 F.2d 179, 200 (9th Cir. 1977). Nevertheless, even after
an appeal has been filed, a district court “may act to assist the
court of appeals in the exercise of its jurisdiction.” Davis v.
United States, 667 F.2d 822, 824 (9th Cir. 1982). And, as
summarized in Inland Bulk Transfer Co. v. Cummins Engine
Co., 332 F.3d 1007 (6th Cir. 2003), a district court’s written
opinion memorializing a court’s prior oral ruling can certainly be
“in aid of the appeal.” Id. at 1013 (citing cases). See also In re
Grand Jury Proceedings Under Seal, 947 F.2d 1188, 1190 (4th
Cir. 1991) (concluding that a district court’s written order
memorializing oral ruling aided an intervening appeal such that
the notice of appeal did not divest the district court of
jurisdiction to issue the written order). At the October 23, 2015
hearing, the court anticipated the present posture by
announcing that its oral ruling “is intended to be a summary of
a more comprehensive written order to follow [and] [t]he written
order is intended, if an appeal is taken from my ruling, to be in
aid of the appellate process.” Doc. No. 105, Tr. (Oct. 23, 2015) at
7. That is, on October 23, 2015, the court gave a detailed oral
ruling pursuant to Federal Rules of Civil Procedure 52(a)(1) &
(2), and issues this substantively-identical written decision with
further background and explanation.
4

82a
On July 6, 2011, then-Governor Neil
Abercrombie signed into law Act 195, which is codified
in substantial part in HRS Chapter 10H. Act 195
begins by declaring that “[t]he Native Hawaiian
people are hereby recognized as the only indigenous,
aboriginal, maoli people of Hawaii.” HRS § 10H-1.
The purpose of Act 195 is to:
provide for and to implement the
recognition of the Native Hawaiian people
by means and methods that will facilitate
their self-governance, including the
establishment of, or the amendment to,
programs, entities, and other matters
pursuant to law that relate, or affect
ownership, possession, or use of lands by
the Native Hawaiian people, and by
further promoting their culture, heritage,
entitlements, health, education, and
welfare.
HRS § 10H-2.
Act
195
establishes
a
five-member
commission, which is responsible for preparing and
maintaining a roll of “qualified Native Hawaiians.”
HRS § 10H- 3(a)(1). As summarized above, § 10H3(a)(2) (as amended by Act 77, 2013 Haw. Sess.
Laws), defines a “qualified Native Hawaiian” as
an individual whom the commission
determines has satisfied the following

83a
criteria and who makes a written
statement certifying that the individual:
(A) Is:
(i)

An individual who is a
descendant of the aboriginal
peoples who, prior to 1778,
occupied
and
exercised
sovereignty in the Hawaiian
islands, the area that now
constitutes the State of
Hawaii;

(ii)

An individual who is one of
the indigenous, native people
of Hawaii and who was
eligible in 1921 for the
programs authorized by the
Hawaiian
Homes
Commission Act, 1920, or a
direct lineal descendant of
that individual;

(iii)

or An individual who meets
the ancestry requirements of
Kamehameha Schools or of
any
Hawaiian
registry
program of the [OHA];

(B) Has maintained a significant cultural,
social, or civic connection to the Native
Hawaiian community and wishes to

84a
participate in the organization of the
Native Hawaiian governing entity; and
(C) Is eighteen years of age or older[.]
HRS § 10H-3(a)(2). 5 Further, the commission is
responsible for:
including in the roll of qualified Native
Hawaiians
all
individuals
already
registered with the State as verified
Hawaiians or Native Hawaiians through
the [OHA] as demonstrated by the
production of relevant [OHA] records, and
extending to those individuals all rights

Elsewhere, Hawaii law defines “Hawaiian” and “Native
Hawaiian” consistently with HRS § 10H-3(a)(2). Specifically, for
purposes of OHA, HRS § 10-2 defines “Hawaiian” as:
5

any descendant of the aboriginal peoples
inhabiting the Hawaiian Islands which exercised
sovereignty and subsisted in the Hawaiian Islands
in 1778, and which peoples thereafter have
continued to reside in Hawaii.
And it defines “Native Hawaiian” as:
any descendant of not less than one-half part of the
races inhabiting the Hawaiian Islands previous to
1778, as defined by the Hawaiian Homes
Commission Act, 1920, as amended; provided that
the term identically refers to the descendants of
such blood quantum of such aboriginal peoples
which exercised sovereignty and subsisted in the
Hawaiian Islands in 1778 and which peoples
thereafter continued to reside in Hawaii.

85a
and recognitions conferred upon other
members of the roll.
HRS § 10H-3(a)(4).
Under these provisions, persons who are
included on the Roll through § 10H-3(a)(4) as having
“already registered with the State” through OHA do
not have to certify that they have “maintained a
significant cultural, social, or civic connection to the
Native Hawaiian community,” nor that they “wish[]
to participate in the organization of the Native
Hawaiian governing entity” as set forth in § 10H3(a)(2). And Nai Aupuni’s President, Dr. James Asam,
attests that:
[Nai Aupuni] understood that OHA’s
Hawaiian Registry process did not require
attestation
of
the
“unrelinquished
sovereignty of the Native Hawaiian
people”, and “intent to participate in the
process of self-governance” (“Declaration
One”). [Nai Aupuni] concluded, on its own,
that having this alternate registration
process was favorable because it provided
Native Hawaiians who may take issue
with Declaration One with the opportunity
to participate in the [Nai Aupuni] process.
Doc. No. 79-1, Asam Decl. ¶ 19; see also Doc. No. 831, Kamanaopono Crabbe Decl. ¶ 11 (“[A]n OHA
Database registrant may be transferred to the Roll
Commission and included on the Roll without
affirming the declarations required under Act 195.”).

86a
Indeed, according to the Complaint, many of these
OHA-registrants were placed on the Roll without
their knowledge or consent. Doc. No. 1, Compl. ¶ 35. 6
At the October 20, 2015 hearing, the parties
stipulated that approximately 62 percent of the Roll
comes from an OHA registry, and the other 38 percent
come directly through the Roll commission process.
See Doc. No. 104, Tr. (Oct. 20, 2015) at 57-58. It
follows that approximately 62 percent of the Roll did
not have to affirm Declarations One or Two. That is,
approximately 62 percent of the Roll did not have to
make an affirmation regarding sovereignty or

OHA was established under 1978 Amendments to the
Hawaii Constitution, and has its mission “[t]he betterment of
conditions of native Hawaiians . . . [and] Hawaiians.” HRS § 103.
6

Implementing
statutes
and
their
later
amendments vested OHA with broad authority to
administer two categories of funds: a 20 percent
share of the revenue from the 1.2 million acres of
lands granted to the State pursuant to § 5(b) of the
Admission Act, which OHA is to administer ‘for the
betterment of the conditions of native Hawaiians,’
Haw. Rev. Stat. § 10-13.5 (1993), and any state or
federal appropriations or private donations that
may be made for the benefit of “native Hawaiians”
and/or “Hawaiians,” Haw. Const., Art. XII, § 6. See
generally Haw. Rev. Stat. §§ 10-1 to 10-16.
Rice v. Cayetano, 528 U.S. 495, 509 (2000). Rice held that OHA
is a public state agency, responsible for “the administration of
state laws and obligations,” and that OHA elections are “the
affair of the State of Hawaii.” Id. at 520.

87a
significant connection to the Native Hawaiian
community. 7
Under Act 195, the Governor of Hawaii
appointed the five members of the commission
selected “from nominations submitted by qualified
Native Hawaiians and qualified Native Hawaiian
membership organizations,” where “a qualified
Native Hawaiian membership organization includes
an organization that, on [July 6, 2011], has been in
existence for at least ten years, and whose purpose
has been and is the betterment of the conditions of the
Native Hawaiian people.” HRS § 10H-3(b). The
commission is funded by OHA, Act 195 § 4, and is
placed “within the [OHA] for administrative purposes
only.” HRS § 10H-3(a).
The commissioners are responsible for (1)
“[p]reparing and maintaining a roll of qualified
Native Hawaiians;” (2) “[c]ertifying that the
The exact origin of Declaration One (“I affirm the
unrelinquished sovereignty of the Native Hawaiian people, and
my intent to participate in the process of self-governance”) is not
clear from the current record. When asked about Declaration
One at the October 20, 2015 hearing, Roll commission executive
director Clyde Namuo testified that “[t]he Akaka Bill had been
around for at least 10 years by the time the Roll Commission
started its work. The issue of unrelinquished sovereignty has
been . . . included in every version of the Akaka Bill since its
inception.” Doc. No. 104, Tr. (Oct. 20, 2015) at 14. A full
discussion of the “Akaka Bill” is well beyond the scope of this
Order. A version of the Akaka Bill, known as “The Native
Hawaiian Government Reorganization Act of 2009,” H.R.
2314/S. 1011, 111th Cong. (2009), is discussed at Doc. No. 93-1,
Amicus Br. Ex. A at 6 (80 Fed. Reg. at 59118).
7

88a
individuals on the roll of qualified Native Hawaiians
meet the definition of qualified Native Hawaiians;”
and (3) “[r]eceiving and maintaining documents that
verify ancestry; cultural, social, or civic connection to
the Native Hawaiian community; and age from
individuals seeking to be included in the roll of
qualified Native Hawaiians.” HRS § 10H-3(a).
The commission is required to “publish notice
of the certification of the qualified Native Hawaiian
roll, update the roll as necessary, and publish notice
of the updated roll of qualified Native Hawaiians[.]”
HRS § 10H-4(a). Under the Act,
The publication of the initial and updated
rolls shall serve as the basis for the
eligibility of qualified Native Hawaiians
whose names are listed on the rolls to
participate in the organization of the
Native Hawaiian governing entity.
HRS § 10H-4(b). Further,
The publication of the roll of qualified
Native Hawaiians, as provided in section
10H-4, is intended to facilitate the process
under which qualified Native Hawaiians
may
independently
commence
the
organization of a convention of qualified
Native Hawaiians, established for the
purpose of organizing themselves.

89a
HRS § 10H-5. 8
Act 195 created the following other provisions
regarding dissolution, effect, reaffirmation of delegation of
federal authority, and severability:
8

The governor shall dissolve the Native Hawaiian
roll commission upon being informed by the Native
Hawaiian roll commission that it has published
notice of any updated roll of qualified Native
Hawaiians, as provided in section 10H-4, and
thereby completed its work.
HRS § 10H-6.
Nothing contained in this chapter shall diminish,
alter, or amend any existing rights or privileges
enjoyed by the Native Hawaiian people that are not
inconsistent with this chapter.
HRS § 10H-7.
(a) The delegation by the United States of authority
to the State of Hawaii to address the conditions of
the indigenous, native people of Hawaii contained
in the Act entitled “An Act to Provide for the
Admission of the State of Hawaii into the Union”,
approved March 18, 1959 (Public Law 86-3), is
reaffirmed.
(b) Consistent with the policies of the State of
Hawaii, the members of the qualified Native
Hawaiian roll, and their descendants, shall be
acknowledged by the State of Hawaii as the
indigenous, aboriginal, maoli population of Hawaii.
HRS § 10H-8.
If any provision of this Act, or the application
thereof to any person or circumstance is held
invalid, the invalidity does not affect other

90a
The commission “began accepting registrations
for the Roll in July of 2012.” Doc. No. 80-1, Clyde
Namuo Decl. ¶ 3. Registration “has been closed at
times in the past, but [at least as of September 30,
2015] it is presently open.” Id. “Registrations can be
done either online or by paper registration.” Id.
Further, from time to time after Act 195 was amended
in 2013 to require the commission to include OHA
registrants in 2013, Act 77, 2013 Haw. Sess. Laws,
OHA has transmitted to the commission updated
“lists of individuals registered through OHA’s
registries and verified by OHA as Hawaiian or Native
Hawaiian.” Id. ¶ 6. The website of the “Kanaiolowalu”
project of the commission lists 122,785 registered
members on the Roll. See www.kanaiolowalu.org (last
accessed Oct. 29, 2015).
Before OHA began transferring names of OHA
registrants to the commission, the commission issued
and distributed a press release on August 7, 2013
that, among other things, provided members on OHA
lists a telephone number to call if they “[do] not wish
to have their names transferred” to the Roll. Doc. No.
80-1, Namuo Decl. ¶ 5. On September 20, 2013, OHA
transmitted an initial list of registrants to the
commission that excluded approximately 36 persons

provisions or applications of this Act, which can be
given effect without the invalid provision or
application, and to this end the provisions of this
Act are severable.
Act 195 § 6 (uncodified).

91a
who had requested that their names be withheld from
the transfer. Id. ¶ 6.
On approximately October 10, 2013, the
commission posted information on its website about
removal from the Roll. It included a removal request
form that could, and still can, be downloaded and sent
to the commission. Id. ¶ 8. At various times in October
to December of 2013, the commission also sent
newsletters and emails to OHA registrants that
included information on how to remove oneself from
the Roll. Id. ¶¶ 9, 10. And from March 24, 2014 to
April 4, 2014, the commission made available for
public viewing (with binders in various locations, and
on its website) a “pre-certified” list of individuals on
the Roll. Id. ¶ 11. The purpose was, in part, to allow
individuals to remove themselves if they so chose. Id.
¶ 12.
Similarly, “[o]n at least three separate
occasions in August, September, and October 2013,
OHA provided public notice of the Act 77 transfer to
OHA Database registrants[.]” Doc. No. 83-1, Crabbe
Decl. ¶ 12. They “were informed of their right to
complete and submit a short form . . . to opt-out of the
Act 77 transfer.” Id. ¶ 13. On August 14, 2013, “OHA
sent email notification to OHA Database registrants
regarding OHA’s transfer of information to the Roll
Commission pursuant to Act 77,” id. ¶ 14, and that
notification included information regarding such an
“opt-out form.” Id. OHA’s chief executive, Dr. Crabbe,
attests that this email was sent to an email address
on file for Plaintiff Moniz. Id. When asked at the
October 20, 2015 hearing about Plaintiff Gapero, Dr.

92a
Crabbe testified that he had no specific knowledge
regarding Gapero, but he “[is] confident that [OHA]
took the appropriate measures to inform all those who
were on the [OHA] databases[.]” Doc. No. 104, Tr.
(Oct. 20, 2015) at 22.
B. Nai Aupuni, the Akamai Foundation, and a
Grant from OHA
As noted above, Nai Aupuni “is a Hawaii nonprofit corporation that supports efforts to achieve
Native Hawaiian self-determination.” Doc. No. 79-1,
Asam Decl. ¶ 6. It was incorporated on December 23,
2014, and was intended to be independent of OHA
and the State of Hawaii. Id.; Doc. No. 79-6, Nai
Aupuni Ex. 4 (By-Laws) at 1. It “is comprised of five
directors who are Native Hawaiian, [and] are active
in the Native Hawaiian community[.]” Doc. No. 79-1,
Asam Decl. ¶ 29. The current directors are James
Kuhio Asam, Pauline Nakoolani Namuo, Naomi
Kealoha Ballesteros, Geraldine Abbey Miyamoto, and
Selena Lehua Schuelke. Nai Aupuni was formed “to
provide a process for Native Hawaiians to further selfdetermination and self-governance for Native
Hawaiians.” Id.
OHA has a policy of supporting Native
Hawaiian self-governance. Doc. No. 83-1, Crabbe
Decl. ¶ 17. On October 16, 2014, the OHA Board of
Trustees “realign[ed] its budget” -- consisting of trust
funds under § 5(f) of the Admissions Act for its
purpose of supporting the betterment of Native
Hawaiians -- to “provide funds to an independent
entity to formulate a democratic process through

93a
which Native Hawaiians could consider organizing,
for themselves, a governing entity.” Id. Nai Aupuni
subsequently “requested grant funds from the OHA
so that [it] may conduct its election of delegates,
convention and ratification vote process.” Doc. No. 791, Asam Decl. ¶ 14.
“On April 27, 2015, at [Nai Aupuni’s] request,”
OHA, the Akamai Foundation (‘Akamai’) and Nai
Aupuni entered into a Grant Agreement whereby
OHA provided $2,595,000 of Native Hawaiian trust
funds to Akamai as a grant for the purpose of [Nai
Aupuni] conducting an election of delegates,
convention and ratification vote[.]” Id.; Doc. No. 79-2,
Louis F. Perez III Decl.¶ 3. “Akamai is a non-profit
Internal Revenue Code (IRC) Section 501(c)(3)
organization incorporated in the State of Hawaii[.]”
Doc. No. 79-2, Perez Decl. ¶ 2. “Akamai’s mission and
work is community development.” Id.
The Grant Agreement contains the following
autonomy clause:
Nai Aupuni’s Autonomy. As set forth in
the
separate
Fiscal
Sponsorship
Agreement, OHA hereby agrees that
neither OHA nor [Akamai] will directly or
indirectly control or affect the decisions of
[Nai Aupuni] in the performance of the
Scope of Services, and OHA agrees that
[Nai Aupuni] has no obligation to consult
with OHA or [Akamai] on its decisions
regarding the performance of the Scope of
Services. [Nai Aupuni] hereby agrees that

94a
the decisions of [Nai Aupuni] and its
directors, paid consultants, vendors,
election monitors, contractors, and
attorneys regarding the performance of
the Scope of Services will not be directly or
indirectly controlled or affected by OHA.
Doc. No. 79-1, Asam Decl. ¶ 14. “Pursuant to the
Grant Agreement, OHA is prohibited from exercising
direct or indirect control over [Nai Aupuni]; provided
only that [Nai Aupuni’s] use of the grant does not
violate OHA’s fiduciary duty to allocate Native
Hawaiian trust funds for the betterment of Native
Hawaiians.” Doc. No. 83-1, Crabbe Decl. ¶ 19.
“Similarly, [Nai Aupuni] has no obligation under the
Grant Agreement to consult with OHA.” Id. ¶ 21.
There is no evidence in the record that OHA in fact
controlled or directed Nai Aupuni as to any aspect of
the Grant Agreement.
As referenced in the Grant Agreement clause,
on April 27, 2015, Nai Aupuni and Akamai entered
into a separate Fiscal Sponsorship Agreement. They
did so “because [Nai Aupuni] does not have a 501(c)(3)
exemption.” Doc. No. 79-1, Asam Decl. ¶ 15; Doc. No.
79-2, Perez Decl. ¶ 4. And on May 8, 2015 “OHA, [Nai
Aupuni] and Akamai entered into a Letter Agreement
that addressed the timing and disbursement of the
grant funds.” Doc. No. 79-1, Asam Decl. ¶ 16; Doc. No.
79-2, Perez Decl. ¶ 6.

95a
C. Nai Aupuni’s
Convention

Planned

Election

and

Nai Aupuni’s directors decided that “the
voter[s] for election of delegates and the delegates
should be limited to Native Hawaiians.” Doc. No. 791, Asam Decl. ¶ 13. “While [Nai Aupuni] anticipated
that the convention delegates will discuss and
perhaps propose a recommendation on membership of
the governing entity, [Nai Aupuni] decided, on its
own, that Native Hawaiian delegates should make
that determination and that its election and
convention process thus should be composed of Native
Hawaiians.” Id. (emphasis omitted). “Prior to
entering into the Grant Agreement, [Nai Aupuni]
informed OHA that it intended to use the Roll but
that it continued to investigate whether there are
other available lists of Native Hawaiians that it may
also use to form its voter list.” Doc. No. 83 1, Crabbe
Decl. ¶ 20; see also Doc. No. 79-1, Asam Decl. ¶ 13.
Both OHA and Nai Aupuni agree that “under the
Grant Agreement, [Nai Aupuni] has the sole
discretion to determine whether to go beyond the
inclusion of the Roll in developing its list of
individuals eligible to participate in Native
Hawaiians’ self-governance process.” Doc. No. 83-1,
Crabbe Decl. ¶ 20; Doc. No. 79-1, Asam Decl. ¶ 13.
“[Nai Aupuni] directors discussed . . . the utility
of available lists of adult Native Hawaiians other
than the [commission’s] list. After considering this
issue for over two-months, [Nai Aupuni] directors
determined that the [commission’s] list was the best
available option because it is extraordinarily

96a
expensive and time consuming to compile a list of
Native Hawaiians.” Doc. No. 79-1, Asam Decl. ¶ 18
(emphasis omitted). “[O]n June 1, 2015, the [Nai
Aupuni] board decided, on its own, that it would use
the [commission’s] certified list as supplemented by
OHA’s Hawaiian Registry program.” Id. (emphasis
omitted).
When asked at the October 20, 2015 hearing
about Act 195, Dr. Asam testified credibly that
“[t]here is no indication on my part or the board’s part
that [Nai Aupuni] needed to comply with Act 195.”
Doc. No. 104, Tr. (Oct. 20, 2015) at 41. That is, Dr.
Asam indicated that he “didn’t feel Act 195 controlled
the decision-making of [Nai Aupuni],” and that it
“could act independently of Act 195.” Id. Nai Aupuni
“[wasn’t] driven by Act 195 at all.” Id. at 42. The court
finds this testimony credible, and accepts it as true.
“Although [Nai Aupuni] understood that unlike
the [commission] process, [OHA’s] Hawaiian Registry
process . . . did not require registrants to declare ‘a
significant cultural, social or civic connection to the
Native Hawaiian community,’ (‘Declaration Two’),
[Nai Aupuni] believes that registering with OHA in
and of itself demonstrates a significant connection.”
Doc. No. 79-1, Asam Decl. ¶ 20 (emphasis omitted).
“[Nai Aupuni] believes that most of the OHA
registrants have this connection because they either
reside in Hawaii, are eligible to be a beneficiary of
programs under the Hawaiian Homes Commission
Act, participate in Hawaiian language schools or
programs, attended or have family members who
attend or attended Kamehameha Schools, participate

97a
in OHA programs, are members of Native Hawaiian
organizations or are regarded as Native Hawaiian in
the Native Hawaiian community.” Id.
“On June 18, 2015, [Nai Aupuni] and ElectionAmerica (‘EA’) entered into an Agreement for EA to
provide services to conduct the delegate election.” Id.
¶ 21. On August 3, 2015, “EA sent to approximately
95,000 certified Native Hawaiians a Notice of the
election of delegates that included information about
becoming a delegate candidate.” Id. ¶ 25; Doc. No. 7914, Nai Aupuni Ex. 12. The Notice included the
following timeline for 2015 to 2016:
End of September: List of qualified
delegate candidates announced.
October 15: Voter registration by the Roll
Commission closes.
November 1: Ballots will be sent to voters
certified by the Roll Commission as of
10/15/15.
November 30: Voting ends.
Day after voting ends: Election results
announced publicly.
After the election of delegates, the target
dates for the Aha [(convention)] and any
ratification vote are as follows:

98a
Between February and April 2016: Aha
held on Oahu over the course of eight
consecutive weeks (40 work days, Monday
through Friday).
Two months after the Aha concludes: If
delegates recommend a governance
document, a ratification vote will be held
among all certified Native Hawaiian
voters.
Doc. No. 79-14, Nai Aupuni Ex. 12.
According to Dr. Asam, “[Nai Aupuni], on its
own, decided on these dates and deadlines, the
apportionment plan and the election process set forth
in the Notice.” Doc. No. 79-1, Asam Decl. ¶ 25
(emphasis omitted). This statement is consistent with
evidence from the commission’s executive director,
Doc. No. 80-1, Namuo Decl. ¶ 22, and from OHA’s
chief executive. Doc. No. 83-1, Crabbe Decl. ¶ 22. “For
purposes of determining who is eligible to vote in the
November delegate election, [Nai Aupuni] will allow
individuals that the [commission] has certified as of
October 15, 2015.” Doc. No. 79-1, Asam Decl. ¶ 25.
And Dr. Asam attests that:
[Nai Aupuni] intends to proceed with and
support the delegate election in November,
regardless
of
whether
the
Roll
Commission has certified the final version
of the Roll by that date. In February to
April [2016], [Nai Aupuni] intends to
proceed with and support the elected

99a
delegates [to] come together in a
convention to consider matters relating to
self-governance. In or about June 2016, or
thereafter, [Nai Aupuni] intends to
proceed with and support a ratification
vote of any governing document that the
delegates may propose.
Id. ¶ 32.
D. The Department of the Interior’s Notice of
Proposed Rulemaking
On October 1, 2015, the United States
Department of the Interior (“Department”) published
a Notice of Proposed Rulemaking (“NPRM”) titled
“Procedures
for
Reestablishing
a
Formal
Government-to-Government Relationship With the
Native Hawaiian Community.” Doc. No. 93-1, Amicus
Br. Ex. A (80 Fed. Reg. 59113 (Oct. 1, 2015)). The
public comment period is open, with comments on the
proposed rule due by December 30, 2015. 80 Fed. Reg.
at 59114. The Department has submitted an amicus
brief that explains, as background information to the
NPRM, some of the context for the actions of the Roll
commission, OHA, and Nai Aupuni. See Doc. No. 93.
As the Department describes it, the NPRM is based
in part on the United States’ “special political and
trust relationship that Congress has already
established with the Native Hawaiian community,”
Doc. No. 93, Amicus Br. at 5, as well as the suggestion
by the Ninth Circuit in Kahawaiolaa v. Norton, 386
F.3d 1271, 1283 (9th Cir. 2004), for the Department
to apply its expertise to “determine whether native

100a
Hawaiians, or some native Hawaiian groups, could be
acknowledged on a government-to-government basis.”
80 Fed. Reg. at 59117-18. A full description of this
NPRM is not necessary here, and is well beyond the
scope of current proceedings. Some aspects, however,
are particularly relevant.
“The NPRM proposes an administrative
procedure, as well as criteria, for determining
whether to reestablish a formal government-togovernment relationship between the United States
and the Native Hawaiian community.” Doc. No. 93,
Amicus Br. at 4 (citing Proposed Rule (“PR”) 50.1). It
was issued after a 2014 Advance Notice of Proposed
Rulemaking (“ANPRM”), which “solicited public
comment regarding whether the Department should
facilitate (1) reorganization of a Native Hawaiian
government and (2) reestablishment of a formal
government-to-government relationship with the
Native Hawaiian community.” Id. at 3-4 (citing 79
Fed. Reg. 35297, 35302-03). After considering
comment to the ANPRM, “the Department
determined that it would not propose a rule
presuming to reorganize a Native Hawaiian
government or prescribing the form or structure of
that government; the Native Hawaiian community
itself should determine whether and how to
reorganize a government.” Id. at 4. Rather, “[t]he
process of drafting a constitution or other governing
document and reorganizing a government should be
driven by the Native Hawaiian community, not by the
United States.” 80 Fed. Reg. at 59119. And, similar to
Act 195’s definition of a “qualified Native Hawaiian,”
the NPRM defines a “Native Hawaiian” as “any

101a
individual who is a: (1) Citizen of the United States;
and (2) Descendant of the aboriginal people who, prior
to 1778, occupied and exercised sovereignty in the
area that now constitutes the State of Hawaii.” 80
Fed. Reg. at 59129 (PR § 50.4).
And so, “[t]he Department’s proposed rule
contemplates a multistep process for a Native
Hawaiian government to request a government-togovernment relationship with the United States, if it
chooses to do so.” Doc. No. 93, Amicus Br. at 5. It
contemplates the use of the Native Hawaiian Roll for
determining who may participate in any referendum,
but does not require such use. Id. at 6 (citing PR §§
50.12(b), 50.14(b)(5)(iii), (c); and 80 Fed. Reg. at
59121). “T]he Secretary [of the Interior] [would,
however,] reestablish a formal government-togovernment relationship with only one sovereign
Native Hawaiian government, which may include
political subdivisions with limited powers of self
governance defined in the Native Hawaiian
government’s governing document.” 80 Fed. Reg. at
59129 (PR § 50.3).
The NPRM would require “specific evidence of
broad-based community support,” Doc. No. 93,
Amicus Br. at 6, and would require a Native
Hawaiian governing entity to demonstrate that its
governing document was “based on meaningful input
from representative segments of the Native Hawaiian
community and reflects the will of the Native
Hawaiian community.” 80 Fed. Reg. at 59130 (PR §
50.11); see also 80 Fed. Reg. at 59119 (“The process

102a
should be fair and inclusive and reflect the will of the
Native Hawaiian community.”).
E. The Legal Challenge
Plaintiffs’ suit challenges the constitutionality
of the Roll process and the election for delegates to
Nai Aupuni’s proposed convention on various
grounds, with each of the six Plaintiffs having slightly
different claims:
1. The Six Plaintiffs
As alleged in the Complaint and in his
declaration, Plaintiff Kelii Akina is a Hawaii resident
of Native Hawaiian ancestry. Doc. No. 1, Compl. ¶ 6.
Doc. No. 47-8, Akina Decl. ¶¶ 7-8. He contends he was
denied registration on the Roll because he would not
affirm “the unrelinquished sovereignty of the Native
Hawaiian people” in Declaration One, and objects to
that statement. Doc. No. 47-8, Akina Decl. ¶¶ 11-12.
He would like to register and vote in Nai Aupuni’s
election. Id. ¶ 16. He would also like to run for
delegate to the convention, but cannot run because he
claims he could not register. Id. ¶¶ 19-20. He contends
he was discriminated against because of his viewpoint
regarding Declaration One. Id. ¶ 18.
Plaintiff Kealii Makekau is a Hawaii resident
of Native Hawaiian ancestry. Doc. No. 47-2, Makekau
Decl. ¶¶ 2-3. He would like to register and vote in the
election “that those on the Kanaiolowalu Roll are
eligible to vote in,” id. ¶ 12, and contends he was
denied the right to vote because he objects to

103a
Declaration One -- he could not truthfully affirm that
he supports “the unrelinquished sovereignty of the
Native Hawaiian people.” Id. ¶¶ 7-8. He contends he
was discriminated against because of his viewpoint
regarding Declaration One. Id. ¶ 14.
Plaintiff Joseph William Kent is a Hawaii
resident of non-Hawaiian ancestry as defined in Act
195. Doc. No. 47-6, Kent Decl. ¶¶ 2, 5. He attempted
to register on the Roll, but was denied registration
because he could not affirm Hawaiian ancestry and
did not have a “significant connection to the Native
Hawaiian Community.” Id. ¶¶ 6-7. He wants to
“participate in the governance of my State through
the democratic process,” and “participate in the
election that those on the Kanaiolowalu Roll will be
able to participate in.” Id. ¶ 10. He objects to the
inability to “sign up for an election in the United
States of America because of [his] race.” Id. ¶ 11.
Plaintiff Yoshimasa Sean Mitsui is a Hawaii
resident of Japanese ancestry. Doc. No. 47-3, Mitsui
Decl. ¶¶ 2,5. He would like to register on the Roll and
vote in the upcoming election of delegates, but could
not truthfully affirm Native Hawaiian ancestry, or
“significant connections to the Native Hawaiian
community.” Id. ¶¶ 4, 6-8. He contends he is “being
denied the right to vote in that election because of
[his] race.” Id. ¶ 8.
Plaintiff Pedro Kanae Gapero is a Hawaii
resident of Native Hawaiian ancestry. Doc. No. 47-4,
Pedro Gapero Decl. ¶¶ 2-3. He claims he was
registered on the Roll without his knowledge or

104a
consent. Id. ¶ 4. He objects to “the use of his name . .
. without [his] free, prior and informed consent.” Id. ¶
6. He contends that such use “violates [his] rights and
provides an unauthorized assertion that [he]
support[s] a position that [he] did not affirmatively
consent to support.” Id. ¶ 7.
Plaintiff Melissa Leinaala Moniz is a resident
of Texas of Native Hawaiian ancestry. Doc. No. 47-5,
Moniz Decl. ¶ 2, 4. She registered with Kau Inoa (an
OHA registry). Id. ¶ 2. She attests that she was
registered on the Roll without her permission. Id. ¶ 6.
She believes that the Roll is “race-based and has
caused great division among Hawaiians.” Id. ¶ 8. She
believes that the use of her name on the Roll without
her permission “provides an unauthorized showing
that [she] support[s] the Kanaiolowalu Roll and its
purpose, which [she] [does] not.” Id. ¶ 9.
2. The Complaint
Plaintiffs’ Complaint alleges nine separate
counts, as follows:
Count One (titled “Violation of the Fifteenth
Amendment and 42 U.S.C. § 1983”) alleges that “Act
195 and the registration process used by defendants
restrict who may register for the Roll on the basis of
individuals’ Hawaiian ancestry.” Doc. No. 1, Compl. ¶
80. It alleges that “[t]he registration process used by
the defendants is conduct undertaken under color of
Hawaii law,” id. ¶ 83, and that “Act 195 and the
defendants’ registration procedures deny and abridge
the rights of Plaintiffs Kent and Mitsui to vote on

105a
account of race, in violation of the Fifteenth
Amendment.” Id. ¶ 84.
Count Two (titled “Violation of the Equal
Protection Clause of the Fourteen Amendment and 42
U.S.C. § 1983”) alleges that “Act 195 and the
registration process used by the defendants
discriminate against Plaintiffs Kent and Mitsui on
account of their race,” id. ¶ 87, and thus “violate[s] the
rights of Plaintiffs Kent and Mitsui under the
Fourteenth Amendment to the equal protection of the
laws.” Id. ¶ 89.
Count Three (titled “Violation of Section 2 of
the Voting Rights Act”) alleges that “Act 195
intentionally discriminates, and has the result of
discriminating, against Plaintiffs Kent and Mitsui on
the basis of their race, in violation of Section 2 of the
Voting Rights Act [(52 U.S.C. § 10301)].” Id. ¶ 94.
Count Four (titled “Violations of the First
Amendment, Fourteenth Amendment, and 42 U.S.C.
§ 1983”) alleges that “[i]t is not possible to register for
the Roll without confirming [Declaration One].” Id. ¶
97. It claims that “[a]s a practical matter, requiring
confirmation of [Declaration One] will stack the
electoral deck, guaranteeing that Roll registrants will
support the outcome favored by the defendants in any
subsequent vote.” Id. ¶ 98. It alleges that “[r]equiring
agreement with Declaration One in order to register
for the Roll is conduct undertaken under color of
Hawaii law,” id. ¶ 99, and that “[b]y conditioning
registration upon agreement with Declaration One,
the defendants are compelling speech based on its

106a
content.” Id. ¶ 100. It contends that “[r]equiring
agreement with Declaration One in order to register
for the Roll discriminates against those who do not
agree with that statement, including Plaintiffs Akina
and Makekau.” Id. ¶ 101. These practices are alleged
violations of the First and Fourteenth Amendments.
Id. ¶¶ 104-05.
Count Five (titled “Violation of the Fifteenth
Amendment and 42 U.S.C. § 1983”) alleges that “[o]n
information and belief, the process for determining
who may be a candidate for the proposed
constitutional convention restricts candidacy to
Native Hawaiians, as defined by Hawaii law.” Id. ¶
109. It contends that “[t]he disqualification of
candidates based on race is conduct undertaken
under color of Hawaii law,” id. ¶ 111, and thus
“violates the Fifteenth Amendment rights of all
Hawaii voters, including Plaintiffs Akina, Makekau,
Kent, Mitsui, and Gapero.” Id. ¶ 112.
Count Six (titled “Violation of Section 2 of the
Voting Rights Act”) alleges that “[t]he disqualification
of candidates based on race ensures that the political
process leading to nomination or election in the State
are not equally open to participation by citizens who
are not Hawaiian,” id. ¶ 114, and “results in a
discriminatory abridgement of the right to vote.” Id. ¶
115. This violates Section 2 of the Voting Right Act.
Id. ¶ 116.
Count Seven (titled “Violation of the Equal
Protection Clause of the Fourteenth Amendment and
42 U.S.C. § 1983”) challenges Declaration Two, which

107a
states “I have a significant cultural, social or civic
connection to the Native Hawaiian community.” Id. ¶
118. It alleges that “Plaintiffs Kent and Mitsui cannot
affirm this statement as they understand it.” Id. ¶
119. It contends that “[r]equiring Plaintiffs Kent and
Mitsui to confirm this statement . . . is a burden on
Plaintiffs Kent and Mitsui that is not required for the
sake of election integrity, administrative convenience,
or any other significant reason.” Id. ¶ 120. It
concludes that “[r]equiring Plaintiffs Kent and Mitsui
to have particular connections with the Native
Hawaiian community violates the rights of Plaintiffs
Kent and Mitsui under the Fourteenth Amendment
to the equal protection of the law.” Id. ¶ 123.
Count Eight (titled “Violation of the Due
Process Clause of the Fourteenth Amendment and 42
U.S.C. § 1983”) contends that “[b]y requiring
Plaintiffs to confirm Declarations One, Two, and
Three, the registration process used by the
defendants will cause the planned election to be
conducted in a manner that is fundamentally unfair.”
Id. ¶ 126. It allegedly “burdens the right to vote of all
Plaintiffs in violation of their constitutional rights to
Due Process.” Id. ¶ 127.
Finally, Count Nine (titled “Violation of the
First Amendment and 42 U.S.C. § 1983”) alleges that
“[v]oter registration is speech protected by the First
Amendment,” id. ¶ 130, and that “[f]orcibly
registering an individual amounts to compelled
speech.” Id. ¶ 131. It contends that Plaintiffs Gapero
and Moniz do not wish to bolster the legitimacy of the
Roll,” id. ¶ 134, and “have not agreed, and do not

108a
agree, with Declaration One.” Id. ¶ 136. Thus, “[b]y
registering Plaintiffs Gapero and Moniz without their
consent and without notice to them, the [commission]
compelled their speech and violated their First
Amendment right to refrain from speaking.” Id. ¶ 137.
As summarized above, the Complaint asks the
court to:
1. Issue a declaratory judgment finding
that the registration procedures relating
to the Roll violate the U.S. Constitution
and federal law, as set forth above;
2. Issue preliminary and permanent relief
enjoining the defendants from requiring
prospective applicants for any voter roll to
confirm Declaration One, Declaration
Two, or Declaration Three, or to verify
their ancestry;
3. Issue preliminary and permanent relief
enjoining the use of the Roll that has been
developed using these procedures, and the
calling, holding, or certifying of any
election utilizing the Roll;
4. Order Defendants to pay reasonable
attorneys’ fees incurred by Plaintiffs,
including litigation expenses and costs,
pursuant to 52 U.S.C. § 10310(e) and 42
U.S.C. § 1988; [and]

109a
5. Retain jurisdiction under Section 3(c) of
the Voting Rights Act, 52 U.S.C. §
10302(c), for such a period as the Court
deems appropriate and decree that, during
such period, no voting qualification or
prerequisite to voting or standard,
practice, or procedure with respect to
voting different from that in force at the
time this proceeding was commenced shall
be enforced by Defendants unless and
until the Court finds that such
qualification,
prerequisite,
standard,
practice, or procedure does not have the
purpose and will not have the effect of
denying or abridging the right to vote on
account of race or color[.]
Id. at 31-32.
The Motion for Preliminary Injunction
incorporates such relief by seeking “an Order
preventing [Defendants] from undertaking certain
voter registration activities and from calling or
holding racially-exclusive elections for Native
Hawaiians, as explained in Plaintiffs’ Complaint.”
Doc. No. 47, Pls.’ Mot. at 3 (referring to “Doc. No. 1, p.
32, Prayer for Relief”).
III. STANDARD OF REVIEW
“A preliminary injunction is an extraordinary
remedy never awarded as of right.” Winter v. Nat. Res.
Def. Council, Inc., 555 U.S. 7, 24 (2008) (citation
omitted). It is “an extraordinary and drastic remedy,

110a
one that should not be granted unless the movant, by
a clear showing, carries the burden of persuasion.”
Lopez v. Brewer, 680 F.3d 1068, 1072 (9th Cir. 2012)
(internal quotation marks and citation omitted).
To obtain a preliminary injunction, a plaintiff
“must establish that he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in
the absence of preliminary relief, that the balance of
equities tips in his favor, and that an injunction is in
the public interest.” Winter, 555 U.S. at 20. “[I]f a
plaintiff can only show that there are ‘serious
questions going to the merits’ -- a lesser showing than
likelihood of success on the merits -- then a
preliminary injunction may still issue if the ‘balance
of hardships tips sharply in the plaintiff’s favor,’ and
the other two Winter factors are satisfied.” Shell
Offshore, Inc. v. Greenpeace, Inc., 709 F.3d 1281, 1291
(9th Cir. 2013) (quoting Alliance for the Wild Rockies
v. Cottrell, 632 F.3d 1127, 1135 (9th Cir. 2011)). “The
elements . . . must be balanced, so that a stronger
showing of one element may offset a weaker showing
of another.” Lopez, 680 F.3d at 1072. All four elements
must be established. DISH Network Corp. v. F.C.C.,
653 F.3d 771, 776 (9th Cir. 2011).
IV. DISCUSSION
A. Plaintiffs Have Standing to Bring this
Challenge
The court begins by addressing standing. The
court has a duty to address jurisdiction and standing
“even when not otherwise suggested.” Steel Co. v.

111a
Citizens for a Better Env’t, 523 U.S. 83, 94 (1998)
(citation omitted); see also Bernhardt v. Cty. of L.A.,
279 F.3d 862, 868 (9th Cir. 2002) (“[F]ederal courts
are required sua sponte to examine jurisdictional
issues such as standing.”) (citations omitted). And
indeed Defendants have challenged Plaintiffs’
standing, at least as to some claims, contending that
they have not suffered a particularized injury. See
Doc. No. 83, OHA Def.’s Opp’n at 14 (“[A] plaintiff
lacks standing to challenge the mere fact of a
classification itself.”) (citing Carroll v. Nakatani, 342
F.3d 934, 946 (9th Cir. 2003)); Doc. No. 79, Nai
Aupuni Opp’n at 29 (joining OHA’s arguments
regarding standing).
“Article III restricts federal courts to the
resolution of cases and controversies.” Davis v. Fed.
Election Comm’n, 554 U.S. 724, 732 (2008) (citation
omitted). “To qualify as a case fit for federal-court
adjudication, ‘an actual controversy must be extant at
all stages of review, not merely at the time the
complaint is filed.’” Arizonans for Official English v.
Arizona, 520 U.S. 43, 67 (1997) (quoting Preiser v.
Newkirk, 422 U.S. 395, 401 (1975)). “[A] claimant
must present an injury that is concrete,
particularized, and actual or imminent; fairly
traceable to the defendant’s challenged behavior; and
likely to be redressed by a favorable ruling.” Davis,
554 U.S. at 733 (citing Lujan v. Defs. of Wildlife, 504
U.S. 555, 560-61 (1992)). “[T]he injury required for
standing need not be actualized. A party facing
prospective injury has standing to sue where the
threatened injury is real, immediate, and direct.” Id.

112a
at 734 (citing Los Angeles v. Lyons, 461 U.S. 95, 102
(1983)).
When determining Article III standing, courts
“‘accept as true all material allegations of the
complaint’ and ‘construe the complaint in favor of the
complaining party.’” Davis v. Guam, 785 F.3d 1311,
1314 (9th Cir. 2015) (quoting Maya v. Centex Corp.,
658 F.3d 1060, 1068 (9th Cir. 2011)). “[S]tanding
doesn’t depend on the merits of the plaintiff’s
contention that particular conduct is illegal.” Id. at
1316 (quotation marks and citation omitted).
The court concludes that there is standing to
challenge Act 195 and the proposed election, at least
at this preliminary injunction stage. Among other
matters, Plaintiffs allege that Nai Aupuni is acting
under color of law, and is holding a state election.
Assuming those allegations are true, and without
determining the merits of those allegations, at least
some Plaintiffs are injured – at minimum, if true on
the merits, Plaintiffs Kent and Mitsui would be
deprived of a right to vote in a public election.
Further, for purposes of standing, this case is similar
to Davis, where the Ninth Circuit found a plaintiff’s
allegations of injury in being excluded on the basis of
race from a Guam plebescite vote that could have led
to a change in Guam’s future political relationship
with the United States were sufficient to confer
standing. 785 F.3d at 1315. Moreover, generally, “[i]t
is enough, for justiciability purposes, that at least one
party with standing is present.” Kostick v. Nago, 960
F. Supp. 2d 1074, 1089 (D. Haw. 2013) (citing Dep’t of
Commerce v. U.S. House of Representatives, 525 U.S.

113a
316, 330 (1999)); see also Pickup v. Brown, 740 F.3d
1208, 1224 n.2 (9th Cir. 2013) (“[T]he presence in a
suit of even one party with standing suffices to make
a claim justiciable.”) (quoting Brown v. City of Los
Angeles, 521 F.3d 1238, 1240 n.1 (9th Cir. 2008) (per
curiam)).
B. The Winter Analysis for a Preliminary
Injunction
The court now applies the four-part Winter
test, beginning with a discussion of whether Plaintiffs
can demonstrate a likelihood of success.
1. Likelihood of Success
a. Plaintiffs Have Not Demonstrated a
Likelihood of Success on Their Fifteenth
Amendment and Voting Rights Act
Claims.
As to Plaintiffs’ Fifteeth Amendment and
Voting Rights Act claims -- Counts One, Three, Five,
and Six -- the evidence demonstrates that Nai
Aupuni’s upcoming election is a private election, and
not a State election. As a result, Plaintiffs have not
demonstrated a likelihood of success on these claims.
This election is fundamentally different than
the elections at issue in Rice v. Cayetano, 528 U.S. 495
(2000), and in Arakaki v. Hawaii, 314 F.3d 1091 (9th
Cir. 2002), which found Fifteenth Amendment
violations. Those opinions were based on a conclusion
that OHA elections are an “affair of the State of

114a
Hawaii” for public officials for public office to a “state
agency” established by the State Constitution. See
Rice, 528 U.S. at 520-21, 525; Arakaki, 314 F.3d at
1095. Not so here. As set forth in Terry v. Adams, 345
U.S. 461 (1953), the Fifteenth Amendment precludes
discrimination against voters in “elections to
determine public governmental policies or to select
public officials,” id. at 467, not in private elections to
determine private affairs. Similarly, the Voting
Rights Act applies to “votes cast with respect to
candidates for public or party office.” Chisom v.
Roemer, 501 U.S. 380, 391 (1991).
Certainly, this is not a state election governed
by Chapter Eleven of the Hawaii Revised Statutes, or
the State’s regulatory systems covering public
elections. It is not an election run by the State of
Hawaii Office of Elections for any federal, state, or
county office, nor is it a general or special election to
decide any referendum, constitutional, or ballot
question. No public official will be elected or
nominated; no matters of federal, state, or local law
will be determined. Rather, the evidence indicates it
is an election conducted by Elections America, Inc. -a private company -- with all decisions regarding the
election made by Nai Aupuni, not by any state actor
or entity. There is no evidence before the court that
any state official dictated or controlled the
requirements for this election.
So what is this election? How is it best
characterized? The court concludes -- at this
preliminary injunction stage -- that this is an election
for delegates to a private convention, among a

115a
community of indigenous people for purposes of
exploring self-determination, that will not -- and
cannot -- result in any federal, state, or local laws or
obligations by itself. Stated differently, this election
will not result in any federal, state, or county
officeholder, and will not result, by itself, in any
change in federal or state laws or obligations.
Although it might result in a constitution of a Native
Hawaiian governing entity, as OHA correctly argues,
“even if such a constitution is ratified, the resulting
Native Hawaiian self-governing entity would have no
official legal status unless it were otherwise
recognized by the state or federal government.” Doc.
No. 83, OHA Opp’n at 9.
And as Nai Aupuni recognizes, “even if the
convention results in the formation of a Native
Hawaiian governing entity, that [governing entity] by
itself would not alter in any way how the State is
governed.” Doc. No. 79, Nai Aupuni Opp’n at 28. Nai
Aupuni recognizes that “[a]ny such alteration of
government will require subsequent action (e.g.,
formal recognition) by the federal and possibly state
governments. Similarly, any alteration of intergovernmental structure will require subsequent
Federal and State legislative and/or executive action
with respect to the [entity].” Id. This statement is
absolutely true, and critical to an understanding of
the court’s conclusion.
The court likewise agrees with the Department
of the Interior’s observation that “this case is about
Native Hawaiian elections for Native Hawaiian
delegates to a convention that might propose a

116a
constitution or other governing document for the
Native Hawaiian community. This election has
nothing to do with governing the State of Hawaii.”
Doc. No. 93, Amicus Br. at 21.
Plaintiffs argue that this is an important
election about “public issues,” and has the potential to
be historic, and thus falls under the Fifteenth
Amendment. They point to the Department of the
Interior’s October 1, 2015 NPRM as indicative of the
election’s importance -- it could conceivably lead to a
“Native Hawaiian governing entity” that could
eventually negotiate important questions on a
“government-to-government”
basis.
But
such
potential is entirely speculative. Notably, the NPRM
is just that -- proposed -- and has no force at all as of
yet. Even if adopted in proposed form, many
discretionary steps would be required before any
proposed governing entity could even be recognized.
See 80 Fed. Reg. at 59129-31 (explaining proposed
“Criteria for Reestablishing a Formal Government-toGovernment Relationship,” PR §§ 50.11 to 50.16).
Plaintiffs rely heavily on Terry v. Adams, a case
invalidating elections of the private “Jaybird party”
that excluded African-Americans from primary
elections that functioned essentially as a nominating
process for public primary elections for county office.
345 U.S. at 463-64. Specifically, Plaintiffs rely on
Terry’s statement that the Fifteenth Amendment
“includes any election in which public issues are
decided or public officials selected.” Id. at 468. But
this statement must be read in the specific context
addressed by the court -- “[t]he Jaybird primary has

117a
become an integral part, indeed the only effective
part, of the elective process that determines who shall
rule and govern in the county.” Id. at 469. Thus, the
racist selection of candidates stripped AfricanAmericans “of every vestige of influence” in selecting
public county officials. Id. at 470. This court simply
cannot read, in context, the statement that the
Fifteenth Amendment applies to an election to decide
“public issues” to apply to this private election.
In short, much more will need to happen under
any scenario before this election leads to any public
change at all. A Native Hawaiian governing entity
may recommend change, but cannot alter the legal
landscape on its own.
Morever, this is not a public election based on
Act 195 itself. The creation of a Roll of Native
Hawaiians does not mean its commissioners are
conducting an election. Act 195, although it
contemplates a convention of Hawaii’s indigenous
peoples to participate in the organization of a Native
Hawaiian governing entity, does not mandate any
election. It doesn’t impose, direct, or suggest any
particular process. Under HRS § 10H-5, the Roll is
intended to facilitate an independent process for
Native Hawaiians to organize themselves. As an
internal matter of self-governance by a group of the
Native Hawaiian community, it does not involve a
public election at all. At most, Act 195 facilitates
private self determination, not governmental acts of
organization.

118a
b. Plaintiffs Have Not Demonstrated a
Likelihood of Success on Their
Fourteenth Amendment Claims.
Nor is Nai Aupuni’s election, or Act 195 itself,
a violation of Plaintiffs’ equal protection or due
process rights under the Fourteenth Amendment as
asserted in Counts Two, Four, Seven, and Eight of the
Complaint. To state a cause of action under 42 U.S.C.
§ 1983 for deprivation of a constitutional right,
Plaintiffs must demonstrate that the deprivation
occurs “under color of any statute, ordinance,
regulation, custom, or usage of any State[.]” Lugar v.
Edmondson Oil Co., Inc., 457 U.S. 922, 924 (1982).
That is, there must be “state action.” Id. at 935 n.18
(“[C]onduct satisfying the state-action requirement of
the Fourteenth Amendment satisfies the statutory
requirement of action under color of state law [under
§ 1983].”). This requirement “excludes from [§ 1983’s]
reach merely private conduct, no matter how
discriminatory or wrongful.” American Mfrs. Mut. Ins.
Co. v. Sullivan, 526 U.S. 40, 50 (1999) (quotation
marks and citation omitted). And determining
whether there is state action is a “necessarily factbound inquiry.” Brentwood Acad. v. Tennessee
Secondary Sch. Athletic Ass’n, 531 U.S. 288, 298
(2001).
But, because Nai Aupuni’s election is a private
election, Nai Aupuni is not a “state actor” for much
the same reason. Its election does not fit under the
“public function” test of state action, which requires a
private entity to be carrying out a function that is
“traditionally the exclusive prerogative of the State.”

119a
Rendell-Baker v. Kohn, 457 U.S. 830, 842 (1982). In
the area of elections, “[t]he doctrine does not reach to
all forms of private political activity, but encompasses
only state-regulated elections or elections conducted
by organizations which in practice produce ‘the
uncontested choice of public officials.’” Flagg Bros.,
Inc. v. Brooks, 436 U.S. 149, 158 (1978). And although
some (even most) elections are “public functions,”
clearly not all elections are public.
Nor does Nai Aupuni’s election fall under a
“joint action” test, which asks “whether state officials
and private parties have acted in concert in effecting
a particular deprivation of constitutional rights.”
Franklin v. Fox, 312 F.3d 423, 445 (9th Cir. 2002)
(quotation marks and citation omitted). The evidence
does not suggest joint action here -- although certainly
Nai Aupuni obtained significant funds through an
OHA grant, it did so with a specific autonomy clause
whereby OHA agreed not to “directly or indirectly
control or affect the decisions of [Nai Aupuni].” Doc.
No. 79-1, Asam Decl. ¶ 14. All the evidence suggests
that OHA has no control over Nai Aupuni, and that
Nai Aupuni is acting completely independently.
Plaintiffs have not met their burden to demonstrate
otherwise.
That is, OHA’s grant of funds to Nai Aupuni,
through the Akamai Foundation, does not make this
a public election. Indeed, Plaintiffs admitted at the
October 20, 2015 hearing that public funding is a “red
herring.” Doc. No. 104, Tr. (Oct. 20, 2015) at 126-27
(“[I]t’s not public action because it’s public[ly] funded.
Defendants amply demonstrate that that’s not the

120a
test. We never said it was the test, we never will say
it’s the test.”). And this admission was well-taken
given cases such as Blum v. Yaretsky, 457 U.S. 991,
1004 (1982), and San Francisco Arts and Athletics,
Inc. v. United States Olympic Committee, 483 U.S.
522, 544 (1987), which explain that “[t]he
Government may subsidize private entities without
assuming constitutional responsibility for their
actions.” For example, in Rendell-Baker the Supreme
Court found no relevant state action by a private
school even where public funds accounted for at least
90 percent of its budget. 457 U.S. at 832. The “receipt
of public funds does not make [the agency’s] discharge
decisions acts of the State.” Id. at 840.
Rather, “[s]tate action may be found if, though
only if, there is such a close nexus between the State
and the challenged action that seemingly private
behavior may be fairly treated as that of the State
itself.” Villegas v. Gilroy Garlic Festival Ass’n, 541
F.3d 950, 955 (9th Cir. 2008) (en banc) (citing
Brentwood Acad., 531 U.S. at 295). And in addressing
that “nexus,” the inquiry must begin by focusing on
the “specific conduct of which the plaintiff complains.”
Caviness v. Horizon Cmty. Learning Ctr., Inc., 590
F.3d 806, 812 (9th Cir. 2010) (quoting Sullivan, 526
U.S. at 51); see also, e.g., Barrios-Velasquez v.
Asociacion de Empleados del Estado Libre Asociado
de P.R., 84 F.3d 487, 490 n.1 & 493 (1st Cir. 1996)
(finding no state action in private election of a quasipublic entity with several indicia of government
control, emphasizing that the analysis focuses on “the
government’s connection to the complained-of action,
not the government’s connection to the [organization]

121a
itself”). Thus, “an entity may be a State actor for some
purposes but not for others.” Caviness, 590 F.3d at
812-13.
There is no such “close nexus” here between the
State and this particular election that would make
this a public election. An OHA grant was not for the
purpose of a public election. And even if OHA -certainly a “state actor” -- desires or agrees with some
of Nai Aupuni’s choices it makes in conducting the
election of delegates and holding a convention, the
Supreme Court has held that “[a]ction taken by
private entities with the mere approval or
acquiescence of the State is not state action.”
Sullivan, 526 U.S. at 52.
Likewise -- although Act 195 itself, and the
commission’s actions in creating the Roll, certainly
constitute “state action” -- this does not mean such
action is an equal protection violation. The court finds
merit in Defendants’ argument that the Roll itself is
simply a list of people with Native Hawaiian ancestry
who may or may not have declared that they have a
civic connection to the Hawaiian community or
believe in “unrelinquished sovereignty.” See Doc. No.
83, OHA Defs.’ Opp’n at 15-17; Doc. No. 80, State
Defs.’ Opp’n at 1. The Roll is essentially a
classification, and as the Supreme Court stated in
Nordlinger v. Hahn, “[t]he Equal Protection Clause
does not forbid classifications.” 505 U.S. 1, 10 (1992).
Rather, it is directed at unequal treatment. Id. It is
the use of the Roll that Plaintiffs attack. But Act 195’s
creation of the commission and a Roll does not
actually treat persons differently. Nothing in Act 195

122a
calls for a vote. Even if HRS § 10H-5 contemplates or
even encourages a convention, it simply calls for a
chance for certain Native Hawaiians to independently
organize themselves, without involvement from the
State.
The court also finds some merit in Defendants’
argument that Brentwood Academy acknowledged a
type of exception or consideration (where state action
might otherwise exist) for “unique circumstances”
where that action raises “some countervailing reason
against attributing activity to the government.” 531
U.S. at 295-96. And Act 195 is certainly a unique law
-- its stated purpose is meant to facilitate selfgovernance and the organizing of the State’s
indigenous people independently and amongst
themselves. See HRS §§ 10H-2, 10H-5. By definition,
then, such organizing (especially private organization
as is at issue here) must occur amongst Native
Hawaiians only -- and this is a “countervailing reason
against attributing activity to the government.”
Furthermore, forcing a private entity such as
Nai Aupuni to associate with non-Native Hawaiians
in its convention to discuss matters of potential selfgovernance could implicate Nai Aupuni’s own First
Amendment rights. See, e.g., Boy Scouts of Am. v.
Dale, 530 U.S. 640, 648 (2000) (“The forced inclusion
of an unwanted person in a group infringes the
group’s freedom of expressive association if the
presence of that person affects in a significant way the
group’s ability to advocate public or private

123a
viewpoints.”) (citation omitted). 9 The Ninth Circuit
explained in Single Moms, Inc. v. Montana Power Co.,
331 F.3d 743 (9th Cir. 2003), that such First
Amendment rights can also be a “countervailing
reason against attributing” even “significant
government involvement in private action” to be state
action. Id. at 748.
In short, Plaintiffs have not demonstrated a
likelihood of success on their Fourteenth Amendment
claims.
c. Morton v. Mancari, 417 U.S. 535
(1974).
The court next addresses the Defendants’
secondary argument as to equal protection -- that is,
assuming that Nai Aupuni is a state actor and that
Act 195’s Roll otherwise implicates equal protection
under § 1983, under Mancari, unequal treatment
need only be “tied rationally” to some legitimate
governmental purpose. 417 U.S. at 555. That is,
“legislative classifications are valid unless they bear
no rational relationship to the State’s [legitimate]
objectives.” Wash. v. Confederated Bands & Tribes of
Yakima Indian Nation, 439 U.S. 463, 502 (1979). The
court recognizes that this secondary analysis may not
be necessary, given the court’s findings regarding a
lack of state action and that Act 195 does not
otherwise violate equal protection. Nevertheless, it is
important to reach some of these secondary questions
This is a factor whether considered at this first prong
of Winter, or when considering the balance of the equities at the
third prong.
9

124a
to help explain, and perhaps bolster, the court’s
ultimate conclusion.
“In Mancari, the Supreme Court upheld an
employment preference for Native Americans seeking
positions in the Bureau of Indian Affairs (‘BIA’). The
class action plaintiffs, who were non-Indian
applicants for BIA employment, argued that the
preference
amounted
to
invidious
racial
discrimination that violated their right to equal
protection.” Artichoke Joe’s Cal. Grand Casino v.
Norton, 353 F.3d 712, 732 (9th Cir. 2003). Mancari
“concluded that strict scrutiny did not apply because
the preference for Indians relied on a political, rather
than a racial, classification. The hiring preference
was not directed toward ‘a “racial” group consisting of
“Indians”; instead, it applie[d] only to members of
“federally recognized” tribes.’” Id. (quoting Mancari,
417 U.S. at 554 n.24).
In this regard, although Native Hawaiians
have not been classified as a “tribe,” Defendants and
amicus have made a strong argument that Mancari
can also apply to uphold Congressional action taken
under its powers to support Native Hawaiians as
indigenous people. See, e.g., 42 U.S.C. § 11701(17)
(Congressional finding that “[t]he authority of the
Congress under the United States Constitution to
legislate in matters affecting the aboriginal or
indigenous peoples of the United States includes the
authority to legislate in matters affecting the native
peoples of Alaska and Hawaii”); 20 U.S.C. §
7512(12)(B) (Congressional finding that “Congress
does not extend services to Native Hawaiians because

125a
of their race, but because of their unique status as the
indigenous people of a once sovereign nation as to
whom the United States has established a trust
relationship”); 20 U.S.C. § 7512(12)(D) (Congressional
finding that “the political status of Native Hawaiians
is comparable to that of American Indians and Alaska
Natives”); 20 U.S.C. § 7512(1) (Congressional finding
that “Native Hawaiians are a distinct and unique
indigenous people with a historical continuity to the
original inhabitants of the Hawaiian archipelago”); 42
U.S.C. § 11701(1) (Congressional finding that “Native
Hawaiians comprise a distinct and unique indigenous
people with a historical continuity to the original
inhabitants of the Hawaiian archipelago whose
society was organized as a Nation prior to the arrival
of the first nonindigenous people in 1778”).
But another step is required before Mancari
can apply to state laws -- that is, before such federal
power would allow a state to treat Native Hawaiians
differently under a “rationally related” test. This is a
more difficult question. Yakima Indian Nation,
reasons that a state has power if federal law explicitly
gives a state authority. 439 U.S. at 501. The state law
at issue in Yakima Indian Nation “was enacted in
response to a federal measure explicitly designed to
readjust the allocation of jurisdiction over Indians.”
Id. But it is unclear whether the specific type of
alleged state actions at issue here (e.g., creation of the
Roll, facilitating Native Hawaiian self-governance)
are encompassed within existing grants of federal
authority. Compare KG Urban Enters., LLC v.
Patrick, 693 F.3d 1, 19, 20 (1st Cir. 2012) (reasoning
that “it is quite doubtful that Mancari’s language can

126a
be extended to apply to preferential state
classifications based on tribal status” and questioning
“whether the [Indian Gaming Regulatory Act]
‘authorizes’ the state’s actions on the present facts”)
with Greene v. Comm’r Minn. Dep’t of Human Servs.,
755 N.W.2d 713, 727 (Minn. 2008) (“Generally, courts
have applied rational basis review to state laws that
promote tribal self-governance, benefits tribal
members, or implement or reflect federal laws.”)
(citing Yakima Indian Nation, 439 U.S. at 500-01)
(other citations omitted). The court will not, however,
reach -- as the Supreme Court stated in Rice -- this
“difficult terrain.” 528 U.S. at 519. Mancari is not
necessary if a strict scrutiny test can otherwise be
satisfied to the specific actions at issue here.
d. Strict Scrutiny
Next, the court discusses whether -- again,
assuming Nai Aupuni is involved in state action
and/or that Act 195 implicates equal protection -- a
strict scrutiny test could be met to justify the
challenged
actions
under
the
Fourteenth
Amendment. And, if it becomes necessary to reach
this issue, the court’s answer would be “yes.” The
court certainly recognizes that strict scrutiny is a
difficult test to meet, and that this is a close question.
But the court also recognizes that it faces a unique
issue, one with a long history.
Act 195 and the upcoming election cannot be
read in a vacuum. Both must be read in context of
Hawaiian history and the State’s trust relationship
with Native Hawaiians. As explained in Act 195 § 1,

127a
“[f]rom its inception, the State has had a special
political and legal relationship with the Native
Hawaiian people and has continually enacted
legislation for the betterment of their condition.” As
the Department of the Interior’s October 1, 2015
NPRM summarizes, the United States also has a
history of recognizing through many laws of a “special
political and trust relationship with the Native
Hawaiian community.” Doc. No. 93-1, 80 Fed. Reg. at
59116. See also, e.g., id. at 59114-118 (providing
background of the NPRM and recounting history of
Congressional
enactments
supporting
Native
Hawaiians, and some efforts at self-determination).
As quoted above, in passing laws specifically to
benefit Native Hawaiian healthcare, Congress found
that “Native Hawaiians comprise a distinct and
unique indigenous people with a historical continuity
to the original inhabitants of the Hawaiian
archipelago whose society was organized as a Nation
prior to the arrival of the first nonindigenous people
in 1778.” 42 U.S.C. § 11701(1). It recognized that “[a]t
the time of the arrival of the first nonindigenous
people in Hawaii in 1778, the Native Hawaiian people
lived in a highly organized, self-sufficient, subsistence
social system based on communal land tenure with a
sophisticated language, culture, and religion.” 42
U.S.C. § 11701(4). And Congress found that “[i]n
1898, the United States annexed Hawaii through the
Newlands Resolution without the consent of or
compensation to the indigenous people of Hawaii or
their sovereign government who were thereby denied
the mechanism for expression of their inherent
sovereignty through self-government and self-

128a
determination, their lands and ocean resources.” 42
U.S.C. § 11701(11).
Similarly, Congress, in enacting laws
specifically to benefit Native Hawaiian education,
recognized and reaffirmed that “Native Hawaiians
have a cultural, historic, and land-based link to the
indigenous people who exercised sovereignty over the
Hawaiian Islands, and that group has never
relinquished its claims to sovereignty or its sovereign
lands.” 20 U.S.C. § 7512(12)(A). Congress reaffirmed
that “the aboriginal, indigenous people of the United
States have . . . (i) a continuing right to autonomy in
their internal affairs; and (ii) an ongoing right of selfdetermination and self-governance that has never
been extinguished.” 20 U.S.C. § 7512(12)(E). And
Congress found that “[d]espite the consequences of
over 100 years of nonindigenous influence, the Native
Hawaiian people are determined to preserve, develop,
and transmit to future generations their ancestral
territory and their cultural identity in accordance
with their own spiritual and traditional beliefs,
customs, practices, language, and social institutions.”
20 U.S.C. § 7512(20).
Act 195 likewise acknowledges that “Native
Hawaiians have continued to maintain their separate
identity as a single, distinctly native political
community through cultural, social, and political
institutions and have continued to maintain their
rights to self-determination, self-governance, and
economic self-sufficiency.” Act 195 § 1. The Hawaii
Legislature thus found that “[t]he Native Hawaiian
people are hereby recognized as the only indigenous,

129a
aboriginal maoli people of Hawaii.” HRS § 10H-1. 10
The Admissions Act itself, and other provisions of
Hawaii law, require the “betterment of conditions of
native Hawaiians . . . and Hawaiians.” HRS § 10-3;
Admission Act, Pub. L. No. 86-3 § 5(f), 73 Stat. 6
(1959).
It follows that the State has a compelling
interest in bettering the conditions of its indigenous
people and, in doing so, providing dignity in simply
allowing a starting point for a process of selfdetermination. And there is a history of attempts at
self-governance, as set forth in the Department of the
Interior’s NPRM, see 80 Fed. Reg. at 59117, and other
sources. See generally Native Hawaiian Law ch. 5 at
271-79 (Melody Kapilialoha MacKenzie ed., 2015).
Nevertheless, before any discussion of a “governmentto government” relationship with any “Native
Hawaiian governing entity” under the NPRM could
even begin to take place, such an entity should reflect
the “will of the Native Hawaiian community.” 80 Fed.
Reg. at 59130 (PR § 50.11). The State has a
compelling interest in facilitating the organizing of
See also HRS § 10H-8(b) (“Consistent with the policies
of the State of Hawaii, the members of the qualified Native
Hawaiian roll, and their descendants, shall be acknowledged by
the State of Hawaii as the indigenous, aboriginal, maoli
population of Hawaii.”). This section is read in conjunction with
§ 10H-8(a) and restates the State’s recognition in § 10H-1 that
the Native Hawaiian people are “the only indigenous, aboriginal,
maoli people of Hawaii.” It does not mean, of course, that the
members of the Roll are the only “indigenous, aboriginal, maoli
population of Hawaii.” It goes without saying that a person of
Native Hawaiian ancestry does not, and cannot, lose their
ancestry simply by not being included on the Roll.
10

130a
the indigenous Native Hawaiian community so it can
decide for itself, independently, whether to seek
selfgovernance or self-determination, and if so, in
what form. 11 The question of “Hawaiian sovereignty”
-- which means different things to different people -is not going to go away. So the State could be said to
have a compelling interest in facilitating a forum that
might result in a unified and collective voice amongst
Native Hawaiians. 12 And, by definition, this is not
possible without limiting such self-governance
discussions to Native Hawaiians themselves. Stated
differently, the restriction to Native Hawaiians is
precisely tailored to meet that compelling interest. It
would meet strict scrutiny for purposes of equal
protection. “Purport[ing] to require the Native
Hawaiian community to include non-Natives in
organizing a government could mean in practice that
a Native group could never organize itself, impairing
its right to self-government[.]” Doc. No. 93, Amicus
Br. at 20.
And this is particularly true given that the undisputed
evidence in the record before the court is that “Native
Hawaiians’ socio-economic status has steadily declined, and for
the last several decades has been the lowest of any ethnic group
residing in Hawaii.” Doc. No. 83-1, Crabbe Decl. ¶ 23.
11

This interest is far different than a right of “the Native
Hawaiian people to reestablish an autonomous sovereign
government,” State v. Armitage, 132 Haw. 36, 56, 319 P.3d 1044,
1064 (2014), which the Hawaii Supreme Court held is not a
fundamental right existing in the Hawaii Constitution. Id. at 5657, 319 P.3d at 1064-65 (“Petitioners fail to establish that the
right to form a sovereign native Hawaiian nation is a
‘fundamental right.’”). It is simply an interest in facilitating
discussions
about
self-determination
amongst
Native
Hawaiians.
12

131a
e. Plaintiffs Have Not Demonstrated a
Likelihood of Success on Their First
Amendment Claims.
Likewise, Plaintiffs have not demonstrated a
likelihood of success on their claims under the First
Amendment (Counts Four and Nine). In Count Four,
Plaintiffs Akina and Makekau contend that their
First Amendment rights were violated because
conditions were placed on their registration for the
Roll (i.e., requiring Declaration One), which
implicates rights under the First Amendment.
The evidence in this regard is mixed -Defendants attest that Plaintiffs Akina and Makekau
can (or could have) participated in the process without
affirming Declaration One. See, e.g., Doc. No. 80-1,
Namuo Decl. ¶ 23; Doc. No. 104, Tr. (Oct. 20, 2015) at
15-17; Doc. No. 79-1, Asam Decl. ¶ 26 (providing
newspaper editorial published purporting “to inform
Plaintiffs [Akina and Makekau] and Native
Hawaiians generally that they may register without
making [Declaration One]” that explains that “[w]e
understand that the Roll Commission has registered
and certified voters -- and will continue to do so -- even
if these voters refuse to agree to this declaration.”).
Indeed, Act 195 itself (as amended) requires OHA
registrants to be included on the list, irrespective of
Declaration One or Two. As explained above, if
Plaintiffs Akina and Makekau, as Native Hawaiians
as defined by Hawaii law, had registered under the
OHA Hawaiian Registry, they would have been

132a
included on the Roll (without making Declaration One
or Two).
Both Akina and Makekau dispute that they
had notice that they could have registered for the Roll
without affirming Declaration One. See Doc. No. 912, Second Akina Decl. ¶ 4 (“Once I failed to confirm
the statement and the principles asserted in
Declaration One, I received no other information from
the [commission] website suggesting that I could
register without affirming the Declaration.”); id. ¶ 6
(“To my knowledge, I never received any
communications of any kind (prior to the filing of this
lawsuit) from any source informing me that I did not
have to affirm Declaration One.”); Doc. No. 91-1,
Second Makekau Decl. ¶ 4 (“At no time during the
registration process was I given the option to avoid
asserting Declaration One.”); id. ¶ 8 (“I received no
communication from any source telling me I did not
have to confirm Declaration One to register.”).
From the record as a whole, it certainly
appears that if Akina and Makekau truly wanted to
participate in Nai Aupuni’s process they could have
easily done so, but they chose not to.
In any event, given the focus at this
preliminary injunction stage on the Roll’s use in the
election, the claim is not likely to succeed because the
burdens that Akina and Makekau assert only apply if
they concern a right to vote in a public election, and
Nai Aupuni’s election is private. They contend that
their inability to register for the Roll (without
affirming
Declaration
One’s
reference
to

133a
“unrelinquished sovereignty”) deprives them of the
right to participate in Nai Aupuni’s process -- the vote
for delegates, the ability to run as a delegate,
participation in the convention. But again, Nai
Aupuni’s delegate election and proposed convention is
a private matter, not involving state action.
In a different First Amendment theory, in
Count Nine, Plaintiffs Gapero and Moniz contend
that their inclusion on the Roll through an OHA
registry violates a First Amendment right against
compelled speech or a right not to register to vote.
Doc. No. 47-1, Pls.’ Mem. at 22 (citing Buckley v. Am.
Const. Law Found., 525 U.S. 182, 195 (1999) (“[T]he
choice not to register implicates political thought and
expression.”). Count Nine alleges that “[f]orcibly
registering an individual amounts to compelled
speech,” Doc. No. 1, Compl. ¶ 131, and that, where
they do not agree with Declaration One, Plaintiffs
Gapero and Moniz do not wish to bolster the
legitimacy of the Roll.” Id. ¶¶ 134, 136. “By
registering Plaintiffs Gapero and Moniz without their
consent and without notice to them, the [commission]
compelled their speech and violated their First
Amendment right to refrain from speaking.” Id. ¶ 137.
Plaintiff Gapero contends that such use provides an
unauthorized assertion that he supports a position.
Doc. No. 47-4, Gapero Decl. ¶ 7. Likewise, Plaintiff
Moniz alleges that the use of her name on the Roll
wrongly indicates that she supports the Roll and its
purpose. Doc. No. 47-5, Moniz Decl. ¶ 9.
They, however, are unlikely to succeed on the
merits of such claims. It is undisputed that

134a
approximately 62 percent of the Roll comes from OHA
registries, which, again, do not require affirmations of
sovereignty or a civic connection to the Native
Hawaiian community. Only 38 percent of the Roll has
made those affirmations. These Plaintiffs are thus
unlikely to prevail on a claim that inclusion on the
Roll implies that they have certain views. Merely
being on the Roll does not compel a statement as to
sovereignty. Moreover, as already established, the
Roll itself is not a voter-registration list. Gapero and
Moniz cannnot be said to have been compelled to
register to vote. Finally, the evidence establishes that
Gapero and Moniz could have easily removed
themselves from the Roll as early as 2013, if they did
not want to remain on the list. Indeed, as OHA
Defendants note, even if there were a First
Amendment violation, the likely remedy would not be
to halt the planned election -- it would be to remove
them from the list. Doc. No. 83, OHA Defs.’ Opp’n at
20 n.5. In short, simply being included on the Roll
does not implicate the First Amendment.
Plaintiffs have thus failed to meet the first
requirement for granting a preliminary injunction,
and all four prongs of the Winter test must be met.
“Because it is a threshold inquiry, when a plaintiff has
failed to show the likelihood of success on the merits,
[the court] need not consider the remaining three
Winter elements.” Garcia v. Google, Inc., 786 F.3d
733, 740 (9th Cir. 2015) (citations and internal
editorial marks omitted). Nevertheless, the court
briefly explains why Plaintiffs also fail to meet
Winter’s other three prongs.

135a
2. Irreparable Harm
Plaintiffs assert very generally that they will
suffer irreparable harm because of “the various illegal
activities
to
be
carried
out
in
the
registration/election/convention process under Act
195.” Doc. No. 47-1, Pls.’ Mem. at 30. They refer to the
right to vote and the principle that “an alleged
constitutional infringement will often alone
constitute irreparable harm.” Id.
But there is no constitutional violation.
Plaintiffs are not being deprived of a right to vote in a
public election. There is no showing of a First
Amendment violation. And the harm from being
deprived of participation in Nai Aupuni’s election and
convention is speculative. Winter reiterated that “[a]
preliminary injunction will not be issued simply to
prevent the possibility of some remote future injury.”
555 U.S. at 22 (citation and quotation marks omitted).
In short, Plaintiffs have not demonstrated irreparable
harm.
3. Balance of Equities
Plaintiffs must demonstrate that the balance of
equities tips in their favor. Defendants argue that
Plaintiffs waited too long to bring suit -- Act 195 was
passed in 2011 and this suit was not filed until August
2015. But Plaintiffs respond by pointing out that the
decisions regarding the election were not made until
this year. Suit was filed within five weeks of when the
election schedule was first reported. Plaintiffs could
not have sued to enjoin an election that was not

136a
scheduled. Thus, at least as to claims regarding the
election itself, the timing of the suit does not affect the
equities.
Nevertheless, Plaintiffs have not demonstrated
that the equities tip in their favor. They have no right
to participate in a private election. And Plaintiffs
Akina and Makekau could have participated, as
voters and/or candidates for delegates, even without
making Declarations One and Two. They both qualify
as Native Hawaiians to register on OHA’s Hawaiian
Registry. The evidence indicates that they could have
participated if they wanted to do so, even if
registration occurred after suit was filed. And
Plaintiffs Gapero and Moniz could have easily
removed (and may still remove) themselves from the
Roll.
On the other hand, enjoining a private election
process that has already begun – with candidates for
delegate having registered, notices having been given,
and campaign activities occurring -- would disrupt
Native Hawaiian efforts to organize. In short, the
equities do not tip in Plaintiffs’ favor.
4. Public Interest
Finally, Plaintiffs have not demonstrated that
the public interest would be served by a preliminary
injunction. Plaintiffs are not likely to be deprived of
any Constitutional rights. And granting an injunction
now would potentially affect approximately 100,000
people who are on Nai Aupuni’s voter list who might
want to participate in a process of self-determination.

137a
C. What the Court Is Not Deciding
The court pauses to emphasize the limited
scope of this Order. To be clear, the court is tasked
only with determining whether Plaintiffs have met
their burden under Winter to obtain an injunction, “an
extraordinary remedy never awarded as of right.”
Winter, 555 U.S. at 24. The court, however, is not
assessing the process itself. The court is not deciding
whether this specific election will lead to an entity
that reflects “the will of the native Hawaiian
community” or whether it will be “fair and inclusive”
such that the United States may then begin to
negotiate on a “government-to-government” basis, as
set forth in the Department of the Interior’s NPRM,
80 Fed. Reg. at 59119. Nor is the court deciding
whether any potential actions under Act 195 or the
NPRM -- such as encouraging Native Hawaiian selfgovernance, or negotiating or engaging on a
“government-to-government”
basis
with
a
“reorganized Native Hawaiian government” – reflect
wise public policy. And the court is not deciding
whether the Department of the Interior even has the
Congressional authorization to facilitate the
“reestablishment” of a government-to-government
relationship with the Native Hawaiian community.
The court has only addressed the legal considerations
underlying the specific challenged actions, and has
considered whether Plaintiffs have demonstrated
that the proposed election, and challenged aspects of
Act 195, are likely to be unconstitutional so as to
require stopping the process now (at this preliminary
injunction phase).

138a
V. CONCLUSION
Act 195 is a unique law. It is both symbolic and
remarkable. It reaffirms a delegation of authority in
the Admissions Act from the United States to the
State of Hawaii to address conditions of Hawaii’s
indigenous people. It declares that the Native
Hawaiian people are Hawaii’s only “indigenous,
aboriginal, maoli people.” It is meant -- in limited
fashion -- to facilitate a possible mechanism of
independent self-determination and self-governance
of Hawaii’s indigenous people. It facilitates -- simply
by creating a Roll of qualified Native Hawaiians -- a
possible process for the Native Hawaiian community
to determine for themselves (absent any other
involvement by the State of Hawaii) what collective
action, if any, might be sought by that community.
Undoubtedly there is some “state action.” But,
based on the information presented at this
preliminary injunction stage, Nai Aupuni’s planned
election of delegates is not; Nai Aupuni’s
determination of who may participate is not; the
planned convention is not. And the state is not
involved in whether this process is or will be “fair and
inclusive” and “reflect the will of the Native Hawaiian
community” for purposes of the Department of the
Interior’s NPRM.
The election will not result in any state
officials, law, or change in state government. The
election and convention might be a step towards selfgovernance by Native Hawaiians, or it might

139a
accomplish nothing of substance. Even if, however, a
self-proclaimed Native Hawaiian governing entity is
created with a governing document or a constitution,
the result would most certainly not be a state entity.
Plaintiffs have not met their burden of
demonstrating that excluding them from this
particular private election is unconstitutional, or will
otherwise violate federal law. And that is the only
question now before this court.
Plaintiffs’ Motion for Preliminary Injunction is
DENIED.
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, October 29, 2015.
/s/ J. Michael Seabright
J. Michael Seabright
United States District
Judge

140a
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF HAWAII
No. 15-00322 JMS-RLP
Kealii Makekau, et al.,
Plaintiffs,
v.
The State of Hawaii, et al.,
Defendants.
NOTICE OF APPEAL
Notice is hereby given that KEALII
MAKEKAU, JOSEPH KENT, YOSHIMASA SEAN
MITSUI, PEDRO KANA’E GAPERO, and MELISSA
LEINA’ALA MONIZ, Plaintiffs in the abovecaptioned case, hereby file their appeal to the United
States Court of Appeals of the Ninth Circuit from
(1) this Court’s Order Overruling Objections,
and Adopting Findings and Recommendation
to Deny Plaintiffs’ Amended Motion for
Attorneys’ Fees and Related Non-Taxable
Expenses, entered June 6, 2017 (Dkt. # 174);
and
(2) the Findings and Recommendation to Deny
Plaintiffs’ Amended Motion for Attorneys’ Fees
and Related Non-Taxable Expenses Under L.R.
Civ. 54.3, entered by United States Magistrate
Judge Richard L. Puglisi on February 24, 2017
(Dkt. # 165).

141a
DATED: Washington, D.C., July 5, 2017.
/s/ Robert D. Popper
Robert D. Popper
Michael A. Lilly
Chris Fedeli
Lauren M. Burke
H. Christopher Coates
Attorneys for Plaintiffs

142a
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF HAWAII
No. 15-00322 JMS-RLP
Kealii Makekau, et al.,
Plaintiffs,
v.
The State of Hawaii, et al.,
Defendants.
COMPLAINT
Plaintiffs, by their attorneys, bring this action
for declaratory and injunctive relief and allege as
follows:
INTRODUCTION
1.
Plaintiffs are individual registered
voters who seek declaratory and injunctive relief to
enjoin race-based, viewpoint-based, and other
restrictions and qualifications imposed by Hawaii law
and enforced by agents of the State of Hawaii on those
seeking to register as voters on a list (the “Roll”)
maintained by the defendants. Voters who are on the
Roll will be entitled to vote for the delegates to a
proposed constitutional convention, the intended
purpose of which is to choose a form of government

143a
under which Native Hawaiians would govern
themselves. Plaintiffs allege that the restrictions on
registering for the Roll violate the U.S. Constitution,
including the Equal Protection Clause of the
Fourteenth Amendment, the Fifteenth Amendment,
the First Amendment, and the Due Process Clause of
the Fourteenth Amendment; and federal law,
including the Civil Rights Act of 1871, 42 U.S.C. §
1983, and Section 2 of the Voting Rights Act of 1965,
52 U.S.C. § 10301.
2.
Plaintiffs seek (1) a declaratory
judgment that these voting restrictions and
qualifications violate their constitutional and federal
statutory rights; (2) a permanent injunction against
their further use or implementation; and (3) costs and
attorneys’ fees.
JURISDICTION AND VENUE
3.
This Court has jurisdiction over this
matter pursuant to 28 U.S.C. §§ 1331, 1343, and 1357;
42 U.S.C. §§ 1983 and 1988; and 52 U.S.C. §§ 10301
and 10308. Furthermore, this Court has jurisdiction
over Plaintiffs’ request for declaratory relief pursuant
to 28 U.S.C. §§ 2201 and 2202. Jurisdiction for
Plaintiffs’ claim for attorneys’ fees is based on 42
U.S.C. § 1988(b) and 52 U.S.C. § 10310(e).
4.
This Court has personal jurisdiction
over the defendants, all of whom are officials,
employees, or agents of the State of Hawaii, and all of
whom are Hawaii residents.

144a
5.
Venue is proper in this Court pursuant
to 28 U.S.C. § 1391(b).
PARTIES
6.
Plaintiff Keli’i Akina is a citizen and a
resident of the State of Hawaii, and a registered voter.
He is a descendant of the aboriginal peoples who,
prior to 1778, occupied and exercised sovereignty in
the Hawaiian islands. Mr. Akina was prevented from
registering as a voter on the Roll because of
viewpoint-based and other restrictions and
qualifications imposed and enforced by the
defendants.
7.
Plaintiff Kealii Makekau is a citizen and
a resident of the State of Hawaii, and a registered
voter. He is a descendant of the aboriginal peoples
who, prior to 1778, occupied and exercised
sovereignty in the Hawaiian islands. Mr. Makekau
was prevented from registering as a voter on the Roll
because of viewpoint-based and other restrictions and
qualifications imposed and enforced by the
defendants.
8.
Plaintiff Joseph Kent is a citizen and
resident of the State of Hawaii, and a registered voter.
Mr. Kent was prevented from registering as a voter
on the Roll because of race-based and other
restrictions and qualifications imposed and enforced
by the defendants.
9.
Plaintiff Yoshimasa Sean Mitsui is a
citizen and resident of the State of Hawaii, and a

145a
registered voter. Mr. Mitsui was prevented from
registering as a voter on the Roll because of racebased and other restrictions and qualifications
imposed and enforced by the defendants.
10.
Plaintiff Pedro Kana’e Gapero is a
citizen and resident of the State of Hawaii, and a
registered voter. He is a descendant of the aboriginal
peoples who, prior to 1778, occupied and exercised
sovereignty in the Hawaiian islands. Mr. Gapero was
registered for the Roll without his knowledge or
consent.
11.
Plaintiff Melissa Leina’ala Moniz is a
citizen and resident of the State of Texas. She is a
descendant of the aboriginal peoples who, prior to
1778, occupied and exercised sovereignty in the
Hawaiian islands. Ms. Moniz was registered for the
Roll without her knowledge or consent.
12.
Defendant State of Hawaii is a sovereign
state in the United States of America.
13.
Defendant David Y. Ige is the Governor
of the State of Hawaii, and is being sued in his official
capacity as the State officer charged with
responsibility for the faithful execution of the laws of
Hawaii as well as those of the United States. The
Governor resides at 320 South Beretania Street,
Honolulu, Hawaii 96813.
14.
Defendant Robert K. Lindsey Jr. is the
Chairperson of the Board of Trustees of the Office of
Hawaiian Affairs (“OHA”), and is being sued in his

146a
official capacity. OHA is a department of the State of
Hawaii, and has basic responsibilities relating to the
maintenance of the Roll, including, but not limited to,
responsibility for funding the Native Hawaiian Roll
Commission and for cooperating with it in the
performance of its duties.
See Act 195, 2011
Legislative Session (codified in chapter 10H, Hawaii
Revised Statutes) (“Act 195”), §§ 4, 5. OHA’s principal
place of business is 560 North Nimitz Highway,
Honolulu, Hawaii 96817.
15.
Defendants Colette Y. Machado, Peter
Apo, Haunani Apoliona, Rowena M.N. Akana, John
D. Waihe’e IV, Carmen Hulu Lindsey, Dan Ahuna,
and Leina’ala Ahu Isa are the other Trustees of the
Board of Trustees of OHA. Defendant Kamana’opono
Crabbe is the Chief Executive Officer of OHA. These
defendants are being sued in their official capacities.
16.
Defendant John D. Waihe’e III is the
Chairman of the Native Hawaiian Roll Commission
(the “NHRC”), and is being sued in his official
capacity. The NHRC was established by Act 195 to be
the agency most directly responsible for preparing
and maintaining the Roll and for certifying that
voters who register for the Roll meet its requirements.
HAW. REV. STAT. § 10H-3. The principal place of
business of the NHRC is 1960 Naio Street, Honolulu,
Hawaii, 96817.
17.
Defendant Nā’ālehu Anthony is the
Vice-Chairman and a Commissioner, and Defendants
Lei Kihoi, Robin Danner, and Māhealani Wendt are
the other Commissioners, of the NHRC. Defendant

147a
Clyde W. Nāmu’o is the Executive Director of the
NHRC. These defendants are being sued in their
official capacities.
18.
Defendant The Akamai Foundation
(“AF”) is, on information and belief, a 501(c)(3)
nonprofit organization existing under the laws of the
State of Hawaii, with its principal place of business at
1136 Union Mall, Honolulu, Hawaii 96813. AF has
entered into contracts with OHA and The Na’i Aupuni
Foundation pursuant to which OHA agreed to provide
about $2.6 million to AF, which AF in turn agreed to
grant to The Na’i Aupuni Foundation to conduct an
election in which voters registered on the Roll will
elect delegates to a constitutional convention.
19.
Defendant The Na’i Aupuni Foundation
(“NAF”) is, on information and belief, a domestic,
nonprofit organization, with its principal place of
business at 745 Fort Street, Honolulu, Hawaii, 96813.
On information and belief, NAF was created for the
sole purpose of conducting an election in which those
voters who are registered on the Roll will elect
delegates to a constitutional convention.
20.
Doe Defendants 1-50 are persons,
partnerships, associations, companies, corporations, or
entities whose names, identities, capacities, activities
and/or responsibilities are presently unknown to
Plaintiffs or their attorneys, except that Doe
Defendants 1-50 were and/or are subsidiaries,
servants, employees, representatives, co-venturers,
associates, consultants, owners, lessees, lessors,
guarantors, assignees, assignors, licensees, and/or

148a
licensors of Defendants and were or are in some
manner presently unknown to Plaintiffs or their
attorneys engaged or involved in the activities alleged
herein or responsible for the activities of which
Plaintiffs complain, or should be subject to the relief
Plaintiffs seek. Plaintiffs pray for leave to certify the
true names, identities, capacities, activities and/or
responsibilities of Doe Defendants 1-50 when, through
further discovery in this case, the same are
ascertained. Plaintiffs have made a good faith effort to
identify said Doe Defendants prior to filing this
Complaint, including interviewing witnesses and
reviewing publicly available documents.
FACTUAL ALLEGATIONS
Background
21.
The Hawaii Homes Commission Act
(“HHCA”) was enacted by Congress in 1920 to address
concerns over poverty and population decline among
the native population of Hawaii. H.R. Rep. No. 839,
66th Cong., 2nd Sess. at 4 (1920). The HHCA defined
“Native Hawaiian” as “any descendant of not less
than one-half part of the blood of the races inhabiting
the Hawaiian Islands previous to 1778.” The HHCA
made about 200,000 acres of public lands available to
lease to such native Hawaiians at nominal prices.
HHCA §§ 201, 203.
22.
When Hawaii was admitted as the
fiftieth state in 1959, Congress granted the
government of Hawaii title to certain lands previously
held by the United States, including the lands set

149a
aside by the HHCA. These lands were to be held in a
“public trust” for certain specified purposes. Hawaii
Statehood Admission Act of March 18, 1959, Pub. L.
No. 86-3, 73 Stat. 4 (“Admission Act”); Intro., § 5(b).
23.
One purpose was “the betterment of the
conditions of native Hawaiians” as defined in the
HHCA. Admission Act § 5(f). The other four
purposes, which applied to all Hawaiians, were “the
support of the public schools and other public
educational institutions . . . the development of farm
and home ownership on as widespread a basis as
possible . . . the making of public improvements, and
. . . the provision of lands for public use.” Admission
Act § 5(f).
24.
In 1978, the Hawaii Constitution was
amended to establish OHA. HAW. CONST. ART. XII, §
5. The Hawaii Constitution provides that OHA “shall
hold title to all the real and personal property now or
hereafter set aside or conveyed to it which shall be
held in trust for native Hawaiians and Hawaiians.”
Id. OHA has been granted statutory authority to
administer 20% of all funds derived from the public
land trust, exclusive of lands set aside pursuant to the
HHCA. HAW. REV. STAT. §§ 10-3, 10-13.5.
25.
The Hawaii Constitution provided that
OHA’s board of trustees shall be “elected by qualified
voters who are Hawaiians, as provided by law. The
board members shall be Hawaiians.” HAW. CONST.
ART. XII, § 5. “Hawaiian” is defined by Hawaii law as
“any descendant of the aboriginal peoples inhabiting
the Hawaiian Islands which exercised sovereignty

150a
and subsisted in the Hawaiian Islands in 1778, and
which peoples thereafter have continued to reside in
Hawaii.” HAW. REV. STAT. § 10-2.
26.
In 2000, the United States Supreme
Court struck down Hawaii’s requirement that only
“Hawaiians,” as defined by Hawaii law, could vote for
the trustees of OHA, on the ground that this voting
restriction violated the Fifteenth Amendment to the
U.S. Constitution. Rice v. Cayetano, 528 U.S. 495, 524
(2000). In the course of that ruling, the Court
observed that “[a]lthough it is apparent that OHA has
a unique position under state law, it is just as
apparent that it remains an arm of the State.” Id. at
521. The Court also observed that Hawaii’s law used
“ancestry” as “a proxy for race.” Id. at 514.
27.
In 2002, the United States Court of
Appeals for the Ninth Circuit struck down Hawaii’s
requirement that candidates for OHA be
“Hawaiians,” as defined by Hawaii law, as a violation
of the Fifteenth Amendment of the U.S. Constitution
and of Section 2 of the Voting Rights Act, 52 U.S.C. §
10301. Arakaki v. State of Hawaii, 314 F.3d 1091,
1098 (9th Cir. 2002).
Act 195
28.
In July 2011, Hawaii Governor Neil
Abercrombie signed Act 195 into law.
29.
Act 195 provides that the “purpose of
this chapter is to provide for and to implement the
recognition of the Native Hawaiian people by means

151a
and methods that will facilitate their self-governance
. . .” HAW. REV. STAT. § 10H-2.
30.
Act 195 establishes the NHRC as a
subdivision within OHA for administrative purposes,
and charges it with responsibility for “[p]reparing and
maintaining a roll of qualified Native Hawaiians” and
“[c]ertifying that the individuals on the roll of
qualified Native Hawaiians meet the definition of
qualified Native Hawaiians.” HAW. REV. STAT. § 10H3(a).
31.
Act 195 states that the “the roll of
qualified Native Hawaiians . . . is intended to
facilitate the process under which qualified Native
Hawaiians may independently commence the
organization of a convention of qualified Native
Hawaiians, established for the purpose of organizing
themselves.” HAW. REV. STAT. § 10H-5.
32.
Act 195 provides that a “qualified Native
Hawaiian” means an individual whom the NHRC has
determined to meet certain criteria of eligibility
established by the Act. The first criterion is based on
ancestry, and defines a qualified Native Hawaiian as
one who is “a descendant of the aboriginal peoples
who, prior to 1778, occupied and exercised
sovereignty in the Hawaiian islands, the area that
now constitutes the State of Hawaii”; one who was
eligible in 1921 for an HHCA lease, or is a descendant
of such a person; or one who meets “the ancestry
requirements of Kamehameha Schools or of any
Hawaiian registry program of the office of Hawaiian
affairs.”

152a
33.
Act 195 further specifies that a
“qualified Native Hawaiian” must have “maintained
a significant cultural, social, or civic connection to the
Native Hawaiian community”; and must also “wish[]
to participate in the organization of the Native
Hawaiian governing entity.”
The Process of Registering for the Roll
34.
Starting in July 2012, prospective voters
could register for the Roll.
35.
On information and belief, many tens of
thousands of registrants currently on the Roll were
placed there without their knowledge or consent,
when their names were transferred from other lists
containing the names of Native Hawaiians.
36.
Plaintiffs Gapero and Moniz were placed
on and registered for the Roll without their knowledge
or consent.
37.
On information and belief, registration
was closed and subsequently reopened one or more
times since July 2012.
open.

38.

Registration for the Roll is at present

39.
Registration is available online at
http://www.kanaiolowalu.org/. The screen at that
website has a clickable area labeled “REGISTER.”
Placing the cursor over that area reveals two options,

153a
“REGISTER (HAWAIIANS)”
PETITION (EVERYONE).”

and

“SIGN

THE

40.
Selecting “SIGN THE PETITION
(EVERYONE)” does not allow the option of
registering for the Roll, but only allows one to express
support for the Roll, for “the efforts of the Native
Hawaiian people to restore self-governance to the
Hawaiian
Nation,”
for
“the
unrelinquished
sovereignty of the indigenous people of Hawai’i,” for
the “commitment to bring recognition to the
indigenous people of Hawai’i,” and for “the movement
to restore self-governance to the Hawaiian Nation.”
41.
Selecting “REGISTER (HAWAIIANS)”
returns a single screen, entitled “REGISTER NOW.”
That screen contains three declarations; information
boxes requesting name, birth information, and
contact
information;
checkboxes
requesting
“Verification of Native Hawaiian Ancestry,” and a
clickable area labeled “CONFIRM INFO.”
42.
The three declarations, which all
prospective applicants must confirm, read as follows:
Declarations
•

Declaration
One.
I
affirm
the
unrelinquished sovereignty of the Native
Hawaiian people, and my intent to
participate in the process of selfgovernance.

•

Declaration Two. I have a significant
cultural, social or civic connection to the

154a
Native Hawaiian community.
•

Declaration Three. I am a Native
Hawaiian: a lineal descendant of the
people who lived and exercised sovereignty
in the Hawaiian islands prior to 1778, or a
person who is eligible for the programs of
the Hawaiian Homes Commission Act,
1920, or a direct lineal descendant of that
person.

43.
The area labeled “Verification of Native
Hawaiian Ancestry” reads as follows:
Verification of Native Hawaiian
Ancestry
Please check all applicable categories. (at
least one is required)
□ My birth certificate lists (Part)
Hawaiian
□ One of my parents birth certificate lists
(Part) Hawaiian
□ Other official certificate/registry listing
(Part) Hawaiian
□ Attended The Kamehameha Schools
□ Department of Hawaiian Home Lands
lessee, renter, or wait list (verified)
□ Operation Ohana
□ Kau Inoa (ancestry confirmed)
□ Kamehameha Schools Ho‘oulu
Hawaiian Data Center
□ Hawaiian Registry at OHA
□ None of these fit but I can prove
ancestry through another ancestor

155a
44.
There is no way to register for the Roll
without confirming the information, including the
declarations and the verification checkboxes,
contained on the page entitled “REGISTER NOW.”
45.
Those plaintiffs who deliberately tried to
register for the Roll were unable to confirm the truth
of one or more of the declarations contained on the
screen entitled “REGISTER NOW.”
46.
Plaintiffs Akina and Makekau could not
confirm the principles enunciated in Declaration One,
although they could confirm their ties to the Native
Hawaiian community (Declaration Two) and their
Native Hawaiian ancestry (Declaration Three).
Further, they could have provided information
sufficient to satisfy the verification-of-ancestry
checklist.
47.
Plaintiffs Kent and Mitsui could not
confirm any of the declarations, nor could they have
supplied information sufficient to satisfy the
verification-of-ancestry checklist.
48.
As a result, none of these plaintiffs were
able to register for the Roll.
The Joint Conduct of OHA, NHRC, AF, and NAF
49.
In the period from about April 27, 2015,
to about May 4, 2015, representatives of OHA, AF,
and NAF signed an agreement entitled “Grant
Agreement Between the Akamai Foundation and the
Office of Hawaiian Affairs for the Use and Benefit of

156a
Na’i Aupuni” (“Grant Agreement”). In sum and
substance, the Grant Agreement authorizes the
transfer from OHA to AF, for the use by NAF, of a
grant in the total amount of $2,598,000.00. The
Grant Agreement provides that “AF will direct the
use of the grant to [NAF] so it may facilitate an
election of delegates, election and referendum
monitoring, a governance ‘Aha [constitutional
convention], and a referendum to ratify any
recommendation of the delegates arising out of the
‘Aha (‘Scope of Services’).”
50.
On or about April 27, 2015, AF, as
“Fiscal Sponsor,” and NAF, as “Client,” signed a
“Fiscal Sponsorship Agreement Between Akamai
Foundation and Na’i Aupuni” (“Sponsorship
Agreement”), which sets forth, among other things,
the “Na’i Aupuni Projected Budget,” describing
relevant election-related tasks and describing the use
of the entire grant amount described in the Grant
Agreement.
51.
On or about May 7 and 8, 2015, OHA,
AF, and NAF signed an agreement entitled “Letter
Agreement Between Office of Hawaiian Affairs, Na’i
Aupuni,
and
Akamai
Foundation”
(“Letter
Agreement”), which provides, among other things, for
an initial payment under the Grant Agreement.
52.
In the period from about June 18, 2015,
to June 22, 2015, NAF and Election America, Inc.
(“EAI”), a private company with its principal place of
business in Mineola, New York, signed a contract
whereby EAI would perform certain services relating

157a
to the Roll and the planned election for a
constitutional convention, for a total compensation of
$177,208. That contract referred to the following
schedule:
Tentative Project Timeline
E-A [EAI] will mail or email Notice of
Election to known electorate.……July 15,
2015
Deadline for submitting Delegate
candidate Applications........September 15,
2015
Deadline for E-A to determine eligibility
of Delegate Candidates…....September 30,
2015
Deadline for additions to
electorate………………..October 15, 2015
Ballots mailed and/or emailed to known
electorate…………...….November 1, 2015
Deadline for ballots to be
received…………………December 1, 2015
53.
In an article in the HONOLULU STAR
ADVERTISER, dated July 5, 2015, and written by
Christine
Donnelly,
apparently
based
on
conversations with representatives of NAF, the
following schedule was made public:
» Late July or early August: Notices sent
to certified voters explaining the
apportionment of delegates, how to file as
a delegate candidate and the voting
process. . . .
» Late July or early August: Application

158a
available for delegate candidates.
» Mid-September: Deadline to file as a
delegate candidate.
» End of September: List of qualified
delegate candidates announced.
» Mid-October: Voter registration closes.
» Early November: Voting begins.
» Early December: Voting ends.
» Day after voting ends: Election results
announced publicly.
» Between February and April 2016: ‘Aha
held on Oahu over the course of eight
consecutive weeks (40 work days, Monday
through Friday).
» Two months after ‘aha concludes: If
delegates recommend a form of Hawaiian
government, a referendum will be held
among all certified Native Hawaiian
voters.
54.
On information and belief, OHA and the
NHRC attempted to shield themselves from legal
responsibility for setting up race-based, viewpointbased, and other restrictions on voters and candidates
in the proposed election based on the Roll by
contracting with AF and NAF.
55.
In a letter dated July 14, 2015, the
NHRC informed plaintiffs’ counsel that OHA stopped
funding the NHRC on June 30, 2015.
56.
On information and belief, some or all of
the funds OHA previously allotted to the NHRC have
been transferred instead to AF and NAF.

159a
57.
Legal tasks NHRC previously was
responsible for have been transferred to AF and NAF.
58.
As reflected in the written minutes of
OHA’s Board of Trustees’ meeting of February 26,
2015, “Trustee Ahu Isa questioned the legality and
allowability of using trust monies to fund
Kana’iolowalu [the election effort based on the Roll].”
Trustee Hulu Lindsey then asked how OHA will be
able to monitor the use of their funds. After a few
further comments, Mr. Meheula of NAF stated that
“once a fiscal sponsor is identified [AF eventually was
so identified], they will execute a three-party
agreement between OHA, the fiscal sponsor, and Na’i
Aupuni. That agreement will spell out some of OHA’s
concerns, but will also give Na’i Aupuni autonomy to
decide on their own.” At that point, “Trustee Apo”
stated that he “believes that this is a very tricky
navigation required. He is overly cautious [sic] that
if we keep tying ourselves to this, we are going to get
sued. He believes OHA has to stop talking about
making people accountable to us.” On information
and belief, OHA’s trustees intended to achieve the
goals of Act 195 but planned to use nonprofit
surrogates in order to do so.
59.
Under the relevant law, AF and NAF are
both state actors. The State of Hawaii cannot avoid
liability for its constitutional and statutory
transgressions by the simple trick of contracting with
nonprofits.
60.

OHA is a state agent defined in the

160a
Hawaii Constitution, and has been expressly found by
the Supreme Court to be “an arm of the State” (Rice
v. Cayetano, 528 U.S. at 521).
61.
The NHRC was established under
Hawaii law by Act 195 for a public purpose, and
received its funding from OHA (Act 195, Section 4).
The NHRC equally is a state actor.
62.
OHA actively favors and is pursuing the
purposes set forth in Act 195, and specifically, the
intent to utilize a list of “qualified Native Hawaiians”
to select delegates to a constitutional convention that
would establish rules for Native Hawaiians’ selfgovernance.
63.
For example, on OHA’s website at
http://www.oha.org/, a clickable area reads as follows:
GOVERNANCE
Laying the foundation for building a new
Hawaiian governing entity
Our focus on governance involves
facilitating a process for Native Hawaiians
to form a governing entity. A recognized
governing entity would solidify Native
Hawaiians as a political rather than racial
group, safeguarding trusts, programs, and
funding
sources
serving
Native
Hawaiians. A governing entity could
advocate and negotiate greater selfsufficiency and autonomy for Native
Hawaiians.

161a
64.
Upon selecting that area, another screen
appears containing, in relevant part, the following
text (emphasis added):
Governance
Strategic Priority: Ea [sovereignty]
To restore pono and ea, Native
Hawaiians will achieve self-governance,
after which the assets of OHA will be
transferred to the new governing entity.
Why is this important?
Native Hawaiian self-governance is
of utmost importance to our organization’s
efforts to improve conditions for Native
Hawaiians. A key goal of our efforts is to
facilitate a process that gives Hawaiians
the opportunity to re-develop a government
that reaffirms Native Hawaiians as a
political rather than racial group.
The benefit of such a Native
Hawaiian government is its ability to
provide Native Hawaiians with greater
control over their destiny as they move
toward self-determination and selfsufficiency. Native Hawaiian programs
and assets that benefit Native Hawaiians
can be attacked in federal courts if political
recognition from the federal government is
not extended to Native Hawaiians.
***
What is our aim?
The transfer of assets to a new
governing entity

162a
Adoption by the Board of Trustees of
a Transition Plan that includes the legal
transfer of assets and other resources to the
new Native Hawaiian governing entity.
***
OHA’s goal is for all Native
Hawaiians to participate in the nationbuilding process and allow them to decide
what form a Hawaiian nation will take
and what sort of relationships it will seek
with other government [sic].
The emergence of a Native
Hawaiian government is extremely
important to the Office of Hawaiian
Affairs.
For that reason, OHA is putting a
lot of effort into encouraging Native
Hawaiians to participate in the process to
ensure their voices are heard.
In March 2014, OHA’s Board of
Trustees made public the agency’s
commitment to helping smooth the way for
Native Hawaiians to build a government.
Since then, OHA has launched an
outreach campaign aimed at informing the
public about the nation-building process.
The campaign featured 20 town hall-style
meetings across the state as well as
canvassing in Hawaiian homestead
communities, where volunteers knocked
on doors to familiarize Native Hawaiians
with this new opportunity to better
manage their future.

163a
65.
The website contains other information
and videos supporting the same goals.
66.
The NHRC actively favors and is
pursuing the purposes set forth in Act 195.
67.
On the NHRC website, virtually every
page contains some expression of support for the
purposes of Act 195.
68.
Private actors who perform a public
function at the direction or request of state actors
thereby become state actors.
69.
The conduct of elections is exclusively a
public function.
70.
By seeking to conduct, and by
conducting, an election based on the Roll, AF and
NAF have become state actors subject to the
restraints of federal constitutional and statutory law.
71.
Joint
action
exists
where
the
government affirms, authorizes, encourages, or
facilitates unconstitutional conduct through its
involvement with a private party.
72.
By signing, and by paying for,
agreements with AF and NAF to carry out the very
purposes that OHA has expressly stated it wants to
achieve, OHA has affirmed, authorized, encouraged,
and facilitated the wrongful action that is the subject
of this lawsuit, thereby rendering AF and NAF state
actors subject to the restraints of federal

164a
constitutional and statutory law.
73.
State compulsion exists where a state
has exercised coercive power or has provided such
significant encouragement, either overt or covert,
that the private actors’ choices are deemed to be those
of the State.
74.
By signing, and by paying for,
agreements with AF and NAF, OHA provided such
covert encouragement that AF’s and NAF’s choices
should be deemed those of the State of Hawaii.
75.
A private party acts under color of state
law if there is a sufficiently close nexus between the
State and the challenged action, so that the action of
the private party may be fairly treated as that of the
State itself.
76.
The detailed, written agreements, paid
for by OHA, to accomplish the very purposes OHA has
expressly sought to achieve, establish a close nexus
between OHA and AF and NAF, such that their
actions should be treated as state action.
The Need for Section 3(c) Relief
77.
This is the third lawsuit, following Rice
v. Cayetano and Arakaki v. State of Hawaii, arising
out of an attempt by Hawaiian officials to use racebased qualifications to restrict who may register and
vote, and who may run for office, for particular
Hawaiian elections. In this case, moreover, trustees
of OHA expressly discussed the possibility of being

165a
sued for their actions, while seeking to accomplish
their discriminatory goals by using contractually
bound nonprofit organizations as surrogates.
78.
In the absence of relief under Section
3(c) of the Voting Rights Act, 52 U.S.C. § 10302(c),
Hawaii will continue to violate the Voting Rights Act
and the voting guarantees of the Fourteenth and
Fifteenth Amendments.
CLAIMS
Claims Alleging Race-Based Restrictions and
Qualifications Relating to Voting
COUNT 1: Violation of the Fifteenth
Amendment and 42 U.S.C. § 1983.
79.
Plaintiffs incorporate by reference all
preceding paragraphs as if fully set forth herein.
80.
Act 195 and the registration process
used by the defendants restrict who may register for
the Roll on the basis of individuals’ Hawaiian
ancestry.
81.
The defendants fully intended to restrict
who may register for the Roll on the basis of ancestry,
as shown by the plain text of Act 195 as well as the
text of the online registration procedures, and as
shown by numerous public statements by the
defendants, including those made on their
registration website.

166a
82.
Ancestry, in the context of Act 195 and
the defendants’ registration procedures, is a proxy for
race.
83.
The registration process used by the
defendants is conduct undertaken under color of
Hawaii law, and, specifically, under Act 195.
84.
Act 195 and the defendants’ registration
procedures deny and abridge the rights of Plaintiffs
Kent and Mitsui to vote on account of race, in
violation of the Fifteenth Amendment.
COUNT 2: Violation of the Equal
Protection Clause of the Fourteenth
Amendment and 42 U.S.C. § 1983.
85.
Plaintiffs incorporate by reference all
preceding paragraphs as if fully set forth herein.
86.
Act 195 and the registration process
used by the defendants discriminate against
Plaintiffs Kent and Mitsui on account of the fact that
they are not Native Hawaiians, as defined by their
ancestry.
87.
Accordingly,
Act
195
and
the
registration process used by the defendants
discriminate against Plaintiffs Kent and Mitsui on
account of their race.
88.
The registration process used by the
defendants is conduct undertaken under color of

167a
Hawaii law, and, specifically, under Act 195.
89.
Act 195 and the registration process
used by the defendants violate the rights of Plaintiffs
Kent and Mitsui under the Fourteenth Amendment
to the equal protection of the laws.
COUNT 3: Violation of Section 2 of the
Voting Rights Act.
90.
Plaintiffs incorporate by reference all
preceding paragraphs as if fully set forth herein.
91.
Section 2 of the Voting Rights Act, 52
U.S.C. § 10301, proscribes any “qualification or
prerequisite to voting or standard, practice, or
procedure . . . imposed or applied by any State or
political subdivision in a manner which results in a
denial or abridgement of the right of any citizen of the
United States to vote on account of race or color.”
92.
Act 195 and the registration process
used by the defendants restrict who may register for
the Roll on the basis of individuals’ Hawaiian
ancestry, which is a proxy for race.
93.
The defendants fully intended to restrict
who may register for the Roll on the basis of race.
94.
Act 195 intentionally discriminates, and
has the result of discriminating, against Plaintiffs
Kent and Mitsui on the basis of their race, in violation
of Section 2 of the Voting Rights Act.

168a
Claims Alleging Viewpoint-Based Restriction
Relating to Voting
COUNT 4: Violations of the First
Amendment, Fourteenth Amendment,
and 42 U.S.C. § 1983.
95.
Plaintiffs incorporate by reference all
preceding paragraphs as if fully set forth herein.
96.
Declaration One, which is part of the
registration process available on the NHRC’s website,
requires an applicant to confirm this statement: “I
affirm the unrelinquished sovereignty of the Native
Hawaiian people, and my intent to participate in the
process of self-governance.”
97.
It is not possible to register for the Roll
without confirming this statement.
98.
As a practical matter, requiring
confirmation of this statement will stack the electoral
deck, guaranteeing that Roll registrants will support
the outcome favored by the defendants in any
subsequent vote.
99.
Requiring agreement with Declaration
One in order to register for the Roll is conduct
undertaken under color of Hawaii law.
100. By conditioning registration upon
agreement with Declaration One, the defendants are
compelling speech based on its content.

169a
101. Requiring agreement with Declaration
One in order to register for the Roll discriminates
against those who do not agree with that statement,
including Plaintiffs Akina and Makekau.
102. Forbidding those who do not agree with
Declaration One, including Plaintiffs Akina and
Makekau, to register for the Roll amounts to
viewpoint discrimination.
103. There is no compelling justification for
requiring applicants to confirm their agreement with
Declaration One.
104. Forbidding those who do not agree with
Declaration One to register for the Roll is a blatant
violation of the rights of Plaintiffs Akina and
Makekau under the First Amendment.
105. Forbidding those who do not agree with
Declaration One to register for the Roll is a
classification based on speech, in violation of the
rights of Plaintiffs Akina and Makekau under the
Fourteenth Amendment to the equal protection of the
laws.
Claims Alleging Race-Based Restrictions on
Candidates
COUNT 5: Violation of the Fifteenth
Amendment and 42 U.S.C. § 1983.
106. Plaintiffs incorporate by reference all
preceding paragraphs as if fully set forth herein.

170a
107. Act 195 states in part that its purpose is
to “facilitate the process under which qualified Native
Hawaiians may independently commence the
organization of a convention of qualified Native
Hawaiians . . .” HAW. REV. STAT. § 10H-5 (emphasis
added).
108. The June 2015 contract between NAF
and Election America, Inc., specifies as part of its
Tentative Project Deadline the following item:
Deadline for E-A to determine eligibility of
Delegate Candidates…....September 30, 2015
109. On information and belief, the process
for determining who may be a candidate for the
proposed
constitutional
convention
restricts
candidacy to Native Hawaiians, as defined by Hawaii
law.
110. On information and belief, the
nominating process for candidates is structured to
ensure that only Native Hawaiians will become
candidates.
111. The disqualification of candidates based
on race is conduct undertaken under color of Hawaii
law.
112. The disqualification of candidates based
on race violates the Fifteenth Amendment rights of all
Hawaii voters, including Plaintiffs Akina, Makekau,
Kent, Mitsui, and Gapero.

171a
COUNT 6: Violation of Section 2 of the
Voting Rights Act.
113. Plaintiffs incorporate by reference all
preceding paragraphs as if fully set forth herein.
114. The disqualification of candidates based
on race ensures that the political processes leading to
nomination or election in the State are not equally
open to participation by citizens who are not
Hawaiian.
115. The disqualification of candidates based
on race results in a discriminatory abridgement of the
right to vote.
116. The disqualification of candidates based
on race is a violation of Section 2 of the Voting Rights
Act.
Claim Alleging Unjustified Qualification Based
on Community Ties
COUNT 7: Violation of the Equal
Protection Clause of the Fourteenth
Amendment and 42 U.S.C. § 1983.
117. Plaintiffs incorporate by reference all
preceding paragraphs as if fully set forth herein.
118. Declaration Two, which is part of the
registration process available on the NHRC’s website,
requires an applicant to confirm this statement: “I
have a significant cultural, social or civic connection

172a
to the Native Hawaiian community.”
119. Plaintiffs Kent and Mitsui cannot affirm
this statement as they understand it.
120. Requiring Plaintiffs Kent and Mitsui to
confirm this statement – and, in consequence,
requiring them to have such connections to the Native
Hawaiian community – is a burden on Plaintiffs Kent
and Mitsui that is not required for the sake of election
integrity, administrative convenience, or any other
sufficient reason.
121. Voting is a fundamental right subject to
equal protection guarantees under the Fourteenth
Amendment.
122. Voting
qualifications
that
inflict
discriminatory burdens without justification are
invalid under the Fourteenth Amendment.
123. Requiring Plaintiffs Kent and Mitsui to
have particular connections with the Native
Hawaiian community violates the rights of Plaintiffs
Kent and Mitsui under the Fourteenth Amendment
to the equal protection of the laws.
Claim Alleging Impairment of Fundamental
Right to Vote
COUNT 8: Violation of the Due Process
Clause of the Fourteenth Amendment and

173a
42 U.S.C. § 1983.
124. Plaintiffs incorporate by reference all
preceding paragraphs as if fully set forth herein.
125. Voting is a fundamental right protected
by the Due Process Clause of the Fourteenth
Amendment to the U.S. Constitution.
126. By requiring Plaintiffs to confirm
Declarations One, Two, and Three, the registration
process used by the defendants will cause the planned
election to be conducted in a manner that is
fundamentally unfair.
127. By requiring Plaintiffs to confirm
Declarations One, Two, and Three, the registration
process used by the defendants burdens the right to
vote of all Plaintiffs in violation of their constitutional
rights to Due Process.
Claim Alleging Compelled Speech by Virtue of
Involuntary Registration.
COUNT 9: Violation of the
Amendment and 42 U.S.C. § 1983.

First

128. Plaintiffs incorporate by reference all
preceding paragraphs as if fully set forth herein.
129. The First Amendment protects both the
right to speak freely and the right to refrain from
speaking at all.

174a
130. Voter registration is speech protected by
the First Amendment.
131. Forcibly registering
amounts to compelled speech.

an

individual

132. In addition, forcibly registering an
individual under conditions that imply that that
individual agrees with particular statements or
opinions amounts to compelled speech.
133. The NHRC publishes and prominently
displays the total number of individuals registered for
the Roll on its website, as a way to bolster the
legitimacy of the Roll.
134. Plaintiffs Gapero and Moniz do not wish
to bolster the legitimacy of the Roll.
135. By publishing and displaying the total
number of individuals registered for the Roll on its
website, the NHRC implies that those individuals
have agreed to Declaration One.
136. Plaintiffs Gapero and Moniz have not
agreed, and do not agree, with Declaration One.
137. By registering Plaintiffs Gapero and
Moniz without their consent and without notice to
them, the NHRC compelled their speech and violated
their First Amendment right to refrain from
speaking.

175a
PRAYER FOR RELIEF
Court:

Wherefore, plaintiffs respectfully pray that this

1.
Issue a declaratory judgment finding
that the registration procedures relating to the Roll
violate the U.S. Constitution and federal law, as set
forth above;
2.
Issue preliminary and permanent relief
enjoining the defendants from requiring prospective
applicants for any voter roll to confirm Declaration
One, Declaration Two, or Declaration Three, or to
verify their ancestry;
3.
Issue preliminary and permanent relief
enjoining the use of the Roll that has been developed
using these procedures, and the calling, holding, or
certifying of any election utilizing the Roll;
4.
Order Defendants to pay reasonable
attorneys’ fees incurred by Plaintiffs, including
litigation expenses and costs, pursuant to 52 U.S.C. §
10310(e) and 42 U.S.C. § 1988;
5.
Retain jurisdiction under Section 3(c) of
the Voting Rights Act, 52 U.S.C. § 10302(c), for such
a period as the Court deems appropriate and decree
that, during such period, no voting qualification or
prerequisite to voting or standard, practice, or
procedure with respect to voting different from that in
force at the time this proceeding was commenced
shall be enforced by Defendants unless and until the

176a
Court finds that such qualification, prerequisite,
standard, practice, or procedure does not have the
purpose and will not have the effect of denying or
abridging the right to vote on account of race or color;
6.
Retain jurisdiction to issue any and all
further orders that are necessary to satisfy the ends
of justice; and
7.
Award Plaintiffs any and all further
relief that this Court deems just and proper.
DATED: Honolulu, Hawaii, August 13, 2015.
/s/ Michael A. Lilly
Michael A. Lilly
Attorney for Plaintiffs
Keli’i Akina, Kealii Makekau,
Joseph Kent, Yoshimasa Sean
Mitsui, Pedro Kana’e Gapero,
and Melissa Leina’ala Moniz

177a
Excerpts from Na’i Aupuni Press Release,
March 16, 2016
NAʻI AUPUNI DECIDES NOT TO PURSUE
RATIFICATION VOTE
Education and Ratification of Native
Hawaiian Constitution
Best Pursued by Broad-based Group
HONOLULU – Naʻi Aupuni said today it would not
be conducting a ratification vote on the proposed
constitution produced by the recently completed ‘aha.
...
....
Bill Meheula, legal counsel for Naʻi Aupuni, reviewed
the actions taken along the way due to legal
challenges. “From the beginning, we anticipated
potential legal challenges and we currently continue
to defend against the Grassroot lawsuit that is now
before the Ninth Circuit Court of Appeals,” he added.
“In addition, now that we cancelled the election and
will not be conducting any ratification vote, Na‘i
Aupuni contends that the appeal is moot and we are
hopeful that the case will be eventually dismissed.”
Meheula also said that the estimated remaining grant
funds of a little over $100,000, allocated to cover the
cost of the ratification vote, would be returned to
OHA. . . .
....

178a
Excerpts from Na’i Aupuni Press Release,
December 15, 2015
NA‘I AUPUNI TERMINATES ELECTION
PROCESS
‘Aha Will Go Forward
All Registered Candidates
Will Be Offered Seat As Delegates
HONOLULU – Na‘i Aupuni announced today that it
has terminated the Native Hawaiian election process
but will go forward with a four-week-long ‘Aha in
February. All 196 Hawaiians who ran as candidates
will be offered a seat as a delegate to the ‘Aha to learn
about, discuss and hopefully reach a consensus on a
process to achieve self-governance.
....
[Na‘i Aupuni President Kuhio Asam] said due to the
delays caused by the ongoing litigation – that could
continue for years – it was decided that the most
effective route at this point would be to offer to
convene all of the remaining delegate candidates and
allow them to an opportunity to organize Hawaiians
and achieve self-governance.
Na‘i Aupuni said Election-America has been informed
to stop the receipt of ballots, to seal ballots that have
already been received, and to prevent anyone from
counting the votes. Na‘i Aupuni attorney William

179a
Meheula said consistent with offering to seat all
candidates, Na‘i Aupuni has decided that the election
votes will never be counted. “Thus, the Akina
litigation, which seeks to stop the counting of the
votes, is moot, and Na‘i Aupuni will take steps to
dismiss the lawsuit,” he said. “To be clear, Na‘i
Aupuni does not know and will never learn the
election results.”
....

180a
Excerpts from Na’i Aupuni Press Release,
November 30, 2015
NAʻI AUPUNI EXTENDS VOTING DEADLINE
BY THREE WEEKS
HONOLULU – Na‘i Aupuni, the Native Hawaiian
organization with a mission to establish a path to
Native Hawaiian self-determination, announced
today it is extending the deadline to vote to December
21.
“Because voters may not have cast their ballots over
concerns and questions on the recent U.S. Supreme
Court’s (SCOTUS) decision to temporarily stop the
vote count, we are extending the voting deadline to
December 21, midnight Hawaii time,” said Bill
Meheula, legal counsel for Na‘i Aupuni.
The SCOTUS decision temporarily stayed the vote
count and certification of the elected delegates, but
did not stop voting.
“While we can immediately notify those who provided
their email addresses to Election-America that the
voting period is extended, it will take longer to
effectively provide notice to mail-only voters, so we
are extending the deadline by three weeks to provide
time for voters to receive our notice and to vote,” he
said. “As we await a decision by SCOTUS, we strongly
encourage those who have not yet voted to cast their
ballots.”
....

